<html>
<title> - EXAMINING THE DEPARTMENT OF THE INTERIOR'S SPENDING PRIORITIES AND THE PRESIDENT'S FISCAL YEAR 2017 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


EXAMINING THE DEPARTMENT OF THE INTERIOR'S SPENDING PRIORITIES AND THE 
             PRESIDENT'S FISCAL YEAR 2017 BUDGET PROPOSAL

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, March 1, 2016

                               __________

                           Serial No. 114-35

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                                _____________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
99-380 PDF                  WASHINGTON : 2016                        
                     
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a2d3a250a293f393e222f263a6429252764">[email&#160;protected]</a>  
                   
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                
                              ----------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 1, 2016...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................     6
        Prepared statement of....................................     7
    Sablan, Hon. Gregorio Kilili Camacho, a Delegate in Congress 
      from the Northern Mariana Islands..........................     8
        Prepared statement of....................................     9

Statement of Witnesses:
    Jewell, Hon. Sally, Secretary, Department of the Interior, 
      Accompanied by Mike Connor, Deputy Secretary of the 
      Interior, and Kristen Sarri, Principal Deputy Assistant 
      Secretary of Policy, Management and Budget, U.S. Department 
      of the Interior, Washington, DC............................     9
        Prepared statement of....................................    11
        Questions submitted for the record.......................    29

Additional Materials Submitted for the Record:

  Submission by Rep. Jeff Duncan

    Representatives Hudson, Duncan, and Rigell, February 29, 2016 
      Letter to Secretary Sally Jewell, Department of the 
      Interior...................................................    83

  Submissions by Rep. Ben Ray Lujan

    Right-of-Way Agreement between San Ildefonso Pueblo and Santa 
      Fe County..................................................   114
    Fry, Raymond, Superintendent, U.S. Department of the 
      Interior, Espanola, New Mexico, December 6, 2013 Letter to 
      Katherine Miller, Santa Fe County Manager..................   122
    Miller, Katherine, Santa Fe County Manager, January 7, 2014 
      Letter to Raymond Fry, U.S. Department of the Interior.....   125
                                     


 
EXAMINING THE DEPARTMENT OF THE INTERIOR'S SPENDING PRIORITIES AND THE 
              PRESIDENT'S FISCAL YEAR 2017 BUDGET PROPOSAL

                              ----------                              


                         Tuesday, March 1, 2016

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 10:04 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Young, Lamborn, Fleming, 
McClintock, Thompson, Lummis, Benishek, Duncan, Gosar, 
Labrador, LaMalfa, Denham, Westerman, Graves, Newhouse, Zinke, 
Radewagen, Mooney, Hardy, LaHood; Grijalva, Bordallo, Costa, 
Sablan, Tsongas, Huffman, Ruiz, Lowenthal, Cartwright, Beyer, 
Torres, Dingell, Gallego, and Polis.
    Also present: Representatives Walden and Lujan.
    The Chairman. All right, we are ready to get started here. 
This hearing will come to order.
    We are examining the Department of the Interior's spending 
priorities in the Fiscal Year 2017 budget. Under Rule 4(f) any 
oral opening statements are limited to the Chair, the Ranking 
Minority Member, the Vice Chair, and a designee of the Ranking 
Minority Member. So we will allow that to happen.
    Therefore, I ask unanimous consent that any other Members' 
opening statements, if they wish to have some, be included as 
part of the hearing record if you submit them to the Clerk by 
5:00 p.m. today, Eastern Time, or the close of this hearing, 
whichever comes first. I had to lie about that one, too.
    So, without objection, it will be so ordered.
    I am also going to ask unanimous consent that 
Representative Greg Walden be allowed, if he is able, to join 
us to sit on the dais and participate in today's hearings.
    [No response.]
    The Chairman. Seeing no objection, it will be so ordered.
    I am going to recognize myself first for 5 minutes.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. As we begin this process, I sarcastically 
said the other day that the only thing positive about this 
budget is it is going to be the last one we are going to see. 
That is both sarcastic, an oversimplification, but, 
unfortunately, terribly accurate.
    With a $19 trillion deficit, this is a $20 billion budget 
that is basically the same old. It rewards friends, it punishes 
enemies, it listens to some and ignores others. The people who 
need to be cared about and need to be served are those that are 
not going to be heard in this particular budget.
    The budget omits tens of millions of dollars that are going 
to be spent to defend against frivolous lawsuits that groups 
file against this Department. These lawsuits, together with 
more than 200 regulations it issued last year, stifle economic 
development, but without any compensation that benefits the 
land, wildlife, air, water, resources, the people who live in 
that area, or the people who come to recreate in those 
particular areas. Some of these rules include a hydraulic 
fracturing rule, which is legally deficient; rules that 
discourage onshore energy leases; plans to redirect millions 
from Gulf offshore resources toward a flawed climate action 
plan; the withdrawal of 10 million acres from mineral 
development of the West for a habitat for the Greater sage-
grouse, which is doing poorly on Federal land, but is doing 
great on state and private land, because they know what to do; 
and ESA changes that designate critical habitat in areas that 
are not now nor have been occupied by any endangered species.
    I am also perplexed by the Department's double standard of 
stringently enforcing ESA consultation. Apparently, on the 
EPA's Clean Power Plant rule, or when the EPA dumps 3 million 
gallons of crap into the Animas River, that is an ``Oops, we 
will just whitewash the entire thing.''
    Last week, this committee did receive subpoenaed documents 
from the Army Corps and a partial response from the Interior 
Department. I know that staff will be reviewing those, and we 
will be following up, and await your full response for those 
issues.
    Look, we have a $19 billion backlog that is facing this 
Department, yet we still want to add more lands with an LWCF 
that needs to spend more on the stateside programs and less on 
land acquisitions. We are undercutting future grazing on 
Federal lands, with a sizable increase to grazing fees that is 
in addition to a 25 percent increase that already occurred last 
year. And, rather than informing Congress of the largest 
grazing fee increase in years, BLM chose to leak it to an 
online news agency. So I learned of it when a reporter asked me 
a question about it. That is not what I consider to be 
transparency.
    The ESA regulations: we have a Department budget that does 
nothing to address the West's drought problems. When we could 
be putting 200,000 acres of land into agriculture productions, 
instead we are going to be diverting more water in California 
to the Delta smelt. You have a $166 million program in there 
that deals with drought mitigation and rehabilitation. To those 
of us in the Republican areas of the northern part of the 
Colorado Basin, we are going to get $3.5 million of that. The 
other $162 million, we do not.
    The drought hits all of the West. It is not a blue- or red-
state drought, but you would not be able to recognize it by 
this budget. In fact, when we had a hearing the other day in 
St. George, we dealt with a land use plan that, by law, had to 
have consultation and coordination with local government. Yet 
the city had not been consulted in any way, and the county said 
when they made calls they were never returned. Yet a special 
interest group panelist who happened to be there said, ``I 
don't understand; they always pick up my phone when I call.''
    That is part of the problem that we have. There are some 
groups that are openly listened to, there are some groups that 
seem to be ignored, and this budget does that same thing again. 
It has no creative solutions. It will not expand or strengthen 
affordable domestic energy portfolio, it does nothing for 
catastrophic wildfires, does nothing for severe droughts across 
the West. But it does give opportunity for more regulatory red 
tape, more jobs going overseas, higher taxes, and especially 
higher fees for the American people.
    Look, when we go into this, part of the process is when I 
turn it over to my friends on that side of the aisle, their job 
is to defend your budget. It is going to be a difficult task to 
do. There will be a whole lot of spin doing that. I understand. 
That is what I had to do in the last few years of the Bush 
administration, when we were in the Minority. You get to do 
that same thing.
    I am just telling you, though, that your spin is going to 
be the envy of every Las Vegas contortionist, because this 
budget could have been a blueprint for future cooperation, and 
instead I think it is a blueprint for future partisan 
bickering. It is not what it could have been; I feel bad about 
that.
    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    I have said, the only thing positive about the President's budget 
is that it will be his last. Amidst a $19 trillion and growing national 
debt, the Interior Department's $20 billion budget request, 
unfortunately, is the same approach put forward for 8 years regarding 
our Nation's natural resources challenges: it increases runaway Federal 
spending; ramps up regulations that threaten our energy and water 
security; punishes already-struggling economies by increasing fees and 
taxes, and expands Federal land ownership, adding to the billions of 
maintenance backlogs and poorly managed forests that are being ravaged 
by wildfires.
    This budget omits tens of millions of dollars spent to defend 
against frivolous lawsuits groups file against the Department. These 
lawsuits--together with more than 200 regulations it issued last year--
stifle economic development without commensurate benefit to land, 
wildlife, air, and water resources.
    Some of these rules include: a hydraulic fracturing rule found to 
be legally deficient; rules that discourage onshore energy leases on 
Federal land; plans to redirect millions of dollars in Gulf offshore 
revenues toward the Administration's Climate Action Plan; the 
withdrawal of 10 million acres from mineral development in western 
states to create higher standards for Greater Sage-Grouse habitat; and 
new ESA changes to designate critical habitat in areas not now occupied 
by any endangered species.
    As an aside, I am troubled by the Department's double standard of 
stringently enforcing ESA consultations, while exempting EPA's Clean 
Power Plan rules, or failing to consult on EPA's excavating a 
pressurized mine that dumped 3 million gallons of pollution into rivers 
with endangered species.
    The Department's $900 million proposal for the Land and Water 
Conservation Fund again devotes far too much for Federal land 
acquisition and not enough for stateside programs. I have proposed that 
states and local communities should receive at least 45 percent of the 
total LWCF allocation--no less than $405 million.
    Compounding this problem is the nearly $19 billion deferred 
maintenance backlog facing the Department and the Forest Service. With 
the scope of these backlogs, I'm puzzled why the Department continues 
to add more land under its management purview, which only exacerbates 
the backlog.
    The Department also proposes to undercut future grazing on Federal 
lands with a sizable increase to grazing fees on Federal lands in 
addition to the 25 percent increase that already occurred this year. 
Rather than inform Congress of the largest grazing fee increase in 
years, BLM chose to ``leak'' it to an online news outlet, and I learned 
about it from a reporter asking questions. The lack of transparency of 
the Administration (despite their claims to the contrary) is 
astounding.
    While increasing funding for ESA regulations, the Department's 
budget does nothing to address the West's drought problems. This 
committee recently heard that precious water that could have been used 
to put 200,000 acres of land into agriculture production was diverted 
in California for the Delta Smelt. The drought problem will only be 
addressed when the Department completes studies for new water storage 
and executes agreed-upon water projects, including the Central Utah 
Project, so Americans have adequate water supplies even in dry times.
    The Department's proposal to increase energy taxes by $10 per 
barrel squanders any remaining leverage from our recent energy 
renaissance and forces American families to foot the bill on legacy-
building and the far left's policy fantasies. The Administration's 
regulations have resulted in surging oil and natural gas production on 
non-Federal lands, but astonishing declines on Federal lands. Under 
these policies, we lose our competitive edge and are forced to rely 
upon countries like Iran to meet our energy needs.
    Unfortunately, this budget offers no creative solutions--it won't 
sustain or expand a strong and affordable domestic energy portfolio, it 
won't curb catastrophic wildfires destroying millions of acres of 
Federal forests, or severe droughts across the West. But it does offer 
plenty of regulatory red tape and policies to send jobs overseas and 
further tax the American people.
    Welcome, Secretary Jewell. We appreciate you coming and look 
forward to your testimony.

                                 ______
                                 

    The Chairman. With that, I will yield back my time, and 
notice I have 30 seconds left. Look at this, as we are going 
through, trying to get everyone to ask Ms. Jewell questions. I 
will yield to Mr. Grijalva, so you can start the spin.
    Mr. Grijalva. Thank you very much.
    The Chairman. Defend the indefensible.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much for this rare opportunity 
to defend. Thank you, Secretary Jewell, for being here. Only 
one person in the room, I might add, has actually produced a 
budget for the coming fiscal year, and that is Secretary 
Jewell. Despite announcing they would have a budget by now, 
House Republicans cannot seem to agree on a plan. The failure 
is due to internal bickering and the same Republican extremism 
that caused government shutdowns, a debt crisis, and the 
resignation of our previous Speaker.
    When it comes to appropriations, the last time the House 
passed a stand-alone Interior bill was 2009, when the House was 
controlled by the Democrats. This is 6 fiscal years of failure 
in a row.
    The budget request the Secretary has submitted would result 
in more than $10 billion in revenue flowing into the pockets of 
American taxpayers. The request also includes legislative 
proposals that, if enacted by the Congress, would result in 
another $4.5 billion in revenue.
    In other words, if Congress just got out of the way and 
enacted this budget request, the Department would pay for 
itself and have more than a billion dollars left over. House 
Republicans have no budget of their own, and cannot seem to 
pass individual appropriation bills, but that does not stop 
them from having loud opinions about the Administration's 
proposals. As with health care policy, foreign policy, defense 
policy, and even nominees to the Supreme Court, the President 
is the adult in the room, while the House Republicans criticize 
all of the Administration's work.
    To fail to do your job, then criticize those who are doing 
theirs, is hypocritical and irresponsible. I would urge my 
colleagues across the aisle, rather than spending your 5 
minutes attacking the Administration's budget, take at least 
some of your time to explain your own views on what our 
spending priorities should be, and how you suggest we pay for 
them.
    The budget request would spend $860 million, including $300 
million in mandatory spending to mark the 100th anniversary of 
the National Park Service, and invest in restoring and 
maintaining NPS resources over the next decade. The committee 
has yet to move on NPS Centennial legislation.
    This budget includes $2 billion in mandatory funding to 
respond to the impacts of climate change in at-risk coastal 
communities. This committee has yet to consider legislation 
related to climate change impacts, and it is not even clear 
that the Majority of the committee believes climate change is 
real.
    This budget includes responsible, realistic spending 
proposals to address wildfire and drought, two of the most 
devastating problems facing the West. This committee continues 
to hold partisan, industry-friendly hearings during which they 
blame trees for the fire and fish for the drought.
    This budget contemplates real investments in clean energy 
on Federal lands. This committee only invests in the tired, old 
rhetoric of ``drill, baby, drill.''
    This budget calls for a meaningful investment in programs 
serving the First Americans, while this committee pursues deals 
that will destroy Native American sacred sites and harm the 
quality of life in Indian Country.
    I expect some of my colleagues will ignore these specifics 
and spend today railing against Democratic spending in general. 
To them, I would offer a reminder: only two presidents have 
reduced the deficit during their tenure--Bill Clinton and 
Barack Obama.
    Producing a detailed annual budget request for the entire 
Federal Government is an enormous task that requires serious 
work and political courage. Attacking this budget without 
producing an alternative requires none of the above.
    With that, let me yield back.
    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Only one person in this room has actually produced a budget for the 
coming fiscal year, and that is Secretary Jewell. Despite announcing 
they would have a budget by now, House Republicans can't seem to agree 
on a plan. This failure is due to internal bickering and the same 
Republican extremism that caused government shutdowns, debt crises, and 
the resignation of the previous Speaker.
    When it comes to appropriations, the last time the House passed a 
stand-alone Interior bill was 2009, when the House was controlled by 
Democrats; that is 6 fiscal years of failure in a row. The budget 
request the Secretary has submitted would result in more than $10 
billion in revenue flowing into the pockets of American taxpayers. The 
request also includes legislative proposals that, if enacted by the 
Congress, would result in another $4.5 billion in revenue.
    In other words, if the Congress just got out of the way and enacted 
this budget request, the Department would pay for itself, and have more 
than a billion dollars left over. House Republicans have no budget of 
their own, and can't seem to pass individual appropriations bills, but 
that doesn't stop them from having loud opinions about the 
Administration's proposals. As with healthcare policy, foreign policy, 
defense policy, and even nominees for the Supreme Court, the President 
is the adult in the room, while House Republicans shoot spitballs at 
the Administration's work.
    To fail to do your job, and then criticize those who are doing 
theirs, is worse than lazy; it is hypocritical and irresponsible. I 
would urge my colleagues across the aisle: rather than spending your 5 
minutes taking pot-shots at the Administration's budget, take at least 
some of your time to explain your own views on what our spending 
priorities should be and how you suggest we pay for them.
    This budget request would spend $860 million, including $300 
million in mandatory spending, to mark the 100th anniversary of the 
National Park Service and invest in restoring and maintaining NPS 
resources over the next decade. This committee has yet to move NPS 
Centennial legislation.
    This budget request includes $2 billion in mandatory funding to 
respond to the impacts of climate change in at-risk, coastal 
communities. This committee has yet to consider legislation related to 
climate change impacts; it is not even clear that a majority of the 
committee believes climate change is real.
    This budget includes reasonable, realistic spending proposals to 
address wildfire and drought, two of the most devastating problems 
facing the American West. This committee continues to hold partisan, 
industry-friendly hearings, during which they blame trees for fire and 
fish for drought.
    This budget contemplates real investments in clean energy on 
Federal lands. This committee only invests in the tired, old rhetoric 
of ``Drill-Baby-Drill.''
    This budget calls for meaningful investment in programs serving the 
First Americans, while this committee pursues land deals that will 
destroy Native American Sacred Sites and harm the quality of life in 
Indian Country.
    I expect some of my colleagues will ignore these specifics and 
spend today railing against Democratic spending in general. To them I 
would offer a reminder: only two Presidents have reduced the deficit 
during their tenure: Bill Clinton and Barack Obama.
    Producing a detailed, annual budget request for the entire Federal 
Government is an enormous task which requires serious work and 
political courage. Attacking this budget request, without producing an 
alternative, requires almost no work at all, and even less courage.

                                 ______
                                 

    The Chairman. Thank you.
    Mrs. Lummis.

 STATEMENT OF THE HON. CYNTHIA M. LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Lummis. Thank you, Mr. Chairman, and thank you, 
Secretary Jewell. It is always nice to have you here in our 
committee.
    The Department of the Interior manages 500 million acres of 
land. It is about one-fifth of the whole United States and half 
of my state. Half is managed by the Department of the Interior. 
So you manage as much as I am responsible for representing in 
that state. BLM is the majority of that, of course, with 
smaller portions being controlled by the Fish and Wildlife 
Service, National Park Service, Bureau of Indian Affairs, and 
Bureau of Reclamation. The Bureau of Ocean Energy Management in 
DOI governs the waters generally past 3 miles offshore, except 
in the Gulf of Mexico out to the territorial limit, or some 
1.76 billion acres. That is a lot to be responsible for.
    But in the part that I am responsible for, which is the 
state of Wyoming, we are officially back in recession, with 
only four other states. And it is because, in large part I 
would argue, of the policies of the Department of the Interior, 
especially with regard to the coal moratorium and the rules on 
BLM lands for oil and gas management. The rules are putting 
people out of work.
    There are railroad locomotives sitting idle in my state for 
the first time I can ever remember, just parked, hundreds of 
them. In fact, nationwide, I asked someone with the Union 
Pacific Railroad this question, and she told me the Union 
Pacific Railroad has 150,000 locomotives parked with nothing to 
haul in the Nation right now. That is the extent of the slow-
down that agencies such as yours have put on this economy. We 
are unable to produce the wealth of this country in a way that 
can emphasize the importance of having clean, reliable, 
redundant energy, and concentrate our time on making it even 
cleaner all the time.
    Now, of course, a lot of that energy comes from land 
managed by the Department of the Interior. More than 40 percent 
of the coal produced in America is produced on Federal lands. 
Of course, the vast majority of that is in my state of Wyoming. 
Wyoming also produces a large share of the natural gas and oil 
that is produced on Federal lands, along with production in New 
Mexico and the Gulf of Mexico.
    Our energy industry is facing huge challenges right now. So 
you can expect my questioning to focus on how the Department of 
the Interior intends to respond to this situation: the 
recession, the lack of jobs, and our inability to effectively 
produce the wealth this Nation holds.
    Also, I am interested in hearing about management of the 
National Park System for the Centennial, and updates on 
management of wildlife. I look forward to your testimony, 
Secretary.
    Thank you, Mr. Chairman, I yield back.
    [The prepared statement of Mrs. Lummis follows:]
 Prepared Statement of the Hon. Cynthia M. Lummis, a Representative in 
                   Congress from the State of Wyoming
    Thank you, Chairman Bishop, for holding this hearing regarding the 
Fiscal Year 2017 Budget Request for the Department of the Interior. 
Secretary Jewell, it is always nice to get to talk with you.
    The Department of the Interior manages some 500 million acres of 
land, about one-fifth of the entire United States. More than half of 
this land is managed by the Bureau of Land Management, with smaller but 
still sizable portions being controlled by the Fish and Wildlife 
Service, the National Park Service, the Bureau of Indian Affairs and 
the Bureau of Reclamation. The Bureau of Ocean Energy Management in DOI 
governs the waters generally past 3 miles offshore except in the Gulf 
of Mexico out to the territorial limit, or some 1.76 billion acres. 
That's a lot of responsibility.
    A huge portion of the energy in this country comes from these areas 
managed by the Department of the Interior. More than 40 percent of the 
coal produced in America is produced on Federal lands, and the vast 
majority of that coal is produced in Wyoming. Wyoming also produces a 
large share of the natural gas and oil that is produced on Federal 
lands, along with production in New Mexico and the Gulf of Mexico.
    Obviously, the energy sector is facing huge challenges right now. 
Oil and gas production on Federal lands has lagged behind production on 
state and private lands, and Interior continues to churn out 
regulations that make production more difficult. The Fish and Wildlife 
Service continues to be preoccupied with responding to litigation 
instead of moving recovered species off the endangered species list. 
The BLM continues to seek to acquire more land, without dealing with 
the maintenance requirements of the current inventory.
    I look forward to finding out how the Department of the Interior 
intends to respond to these challenges in a fiscally realistic way, as 
well as how it plans to improve its management of the National Parks 
System for the Centennial and update its management of federally 
protected wildlife.
    Secretary Jewell, I look forward to your testimony.

                                 ______
                                 

    The Chairman. Thank you, I appreciate that.
    We will now turn to Mr. Sablan.

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
     DELEGATE IN CONGRESS FROM THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Mr. Chairman. And 
Secretary, welcome, and thank you for your service to our 
country. Many of the questions I have for Secretary Jewell are 
local in nature. I am interested in programs that the 
Department funds in the Northern Marianas. But there are two 
concerns I have that are larger in scope, so let me just make 
that my focus right now, and I will try to be brief.
    The relationship between the United States and the Republic 
of Palau is based on a Compact of Free Association established 
during the administration of President Ronald Reagan. Today, 
with the expansion of China in the Pacific, Reagan's foresight 
in assuring that Palau would be an ally of the United States is 
more clear than ever.
    Palau, the Northern Mariana Islands, and the island of Guam 
are links on a chain of islands that form a strategic perimeter 
to the east of China. China certainly understands how important 
islands can be. But right now, China is actually creating 
islands where none existed before.
    So, I am very glad to see in the Department of the Interior 
budget a proposal to cement that relationship between the 
United States and the island nation of Palau. There is an 
agreement negotiated by the United States and Palau in 2010 to 
extend the Reagan-era Compact for 15 years. The Department has 
budgeted for that agreement and says legislation will be sent 
up to Congress to make it happen.
    I think we do need to approve that Compact in this 
Congress, with the aggressive assistance of this 
Administration. In fact, I have legislation already introduced 
and referred to this committee for that purpose. So, Mr. 
Chairman, with all due respect I hope that we can find time to 
schedule the hearing on H.R. 4531, because we need to build on 
the strong defensive foundation in the Pacific created by 
President Reagan. China is not sitting back doing nothing, and 
neither should we.
    Last Thursday, this committee held a hearing featuring a 
representative of the Treasury Department on the Obama 
administration's assessment of the Puerto Rico debt crisis. It 
was the third formal legislative action taken by this committee 
since Speaker Paul Ryan's public pronouncement instructing 
House committees of jurisdiction to come up with a responsible 
solution to the fiscal, economic, and demographic crisis in 
Puerto Rico by March 31, 2016.
    On February 4, Ranking Member Grijalva and Judiciary 
Committee Ranking Member John Conyers wrote to Chairman Bishop 
and Judiciary Committee Chairman Bob Goodlatte to request that 
we immediately begin bipartisan discussions on legislation to 
address Puerto Rico's fiscal crisis. While we still await your 
response, time is running out fast if we are to meet the 
Speaker's deadline, as well as avoid what Treasury is warning 
could be a humanitarian crisis on the island of Puerto Rico.
    Thank you, Mr. Chairman, and I yield back my time.
    [The prepared statement of Mr. Sablan follows:]
   Prepared Statement of the Hon. Gregorio Kilili Camacho Sablan, a 
         Delegate in Congress from the Northern Mariana Islands
    Thank you, Mr. Chairman.
    Many of the questions I have for Secretary Jewell are local in 
nature: I am interested in programs that the Department funds in the 
Northern Marianas.
    But there is one concern I have that is national in scope. So let 
me make that my focus right now, and I will be brief.
    The relationship between the United States and the Republic of 
Palau is based on a Compact of Free Association, established during the 
administration of President Ronald Reagan. Today, with the expansion of 
China in the Pacific, Reagan's foresight in assuring that Palau would 
be an ally of the United States is more clear than ever.
    Palau, and the Northern Mariana Islands for that matter, are links 
in a chain of islands that form a strategic perimeter to the east of 
China. China certainly understands how important islands can be. Right 
now, China is actually creating islands, where none existed before.
    So I am very glad to see in the Department of Interior budget a 
proposal to cement the relationship between the United States and the 
island nation of Palau. There is an agreement, negotiated by the United 
States and Palau in 2010, to extend the Reagan-era Compact for 15 
years. The Department has budgeted for that agreement and says 
legislation will be sent up to Congress to make it happen.
    I think we do need to approve that Compact. In this Congress, with 
the aggressive assistance of this Administration.
    In fact, I have legislation, already introduced and referred to 
this committee, for that purpose. So, Mr. Chairman, with all due 
respect I hope that we can find time to schedule a hearing on my bill, 
H.R. 4531, because we need to build on the strong defensive foundation 
in the Pacific created by President Reagan. China is not sitting back 
doing nothing. Neither should we.
    Thank you, and I yield back my time.

                                 ______
                                 

    The Chairman. Thank you. With the close of the opening 
statements, we are now ready to hear testimony from the 
Secretary of the Department of the Interior, Ms. Sally Jewell, 
who will be accompanied here by Deputy Secretary Connor and the 
Principal Deputy Assistant Secretary of Policy, Management and 
Budget, Ms. Sarri.
    We thank you for coming here and taking your time to be 
with us. Your entire written testimony appears in the record, 
so now we would like to turn to you for an oral presentation. 
You have been here before; you know how the lights work. The 
time is yours. Thank you for being here.

 STATEMENT OF THE HON. SALLY JEWELL, SECRETARY, DEPARTMENT OF 
 THE INTERIOR, ACCOMPANIED BY MIKE CONNOR, DEPUTY SECRETARY OF 
  THE INTERIOR, AND KRISTEN SARRI, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY OF POLICY, MANAGEMENT AND BUDGET, UNITED STATES 
           DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Secretary Jewell. Chairman Bishop, Ranking Member Grijalva, 
and members of the committee, thank you for the opportunity to 
discuss the Department's Fiscal Year 2017 budget request. I 
would like to take a moment to mention the incident at the 
Malheur National Wildlife Refuge in Harney County, Oregon.
    Through tremendous patience and professionalism, the FBI, 
with support from state and local law enforcement, ended the 
occupation on February 11 as quickly and safely as possible, 
after more than 40 days. It was incredibly disruptive and 
distressing for our employees, their families, and the Harney 
County community. I am proud of our DOI law enforcement 
personnel who supported the response and helped keep our 
employees safe. We continue to cooperate with DOJ, the FBI, and 
others as the investigations move forward, and we remain 
committed to working with local communities on the management 
of public lands.
    Interior's Fiscal 2017 budget request is $13.4 billion, 
half a percent above the 2016 enacted level. It builds on the 
successes we are achieving through partnerships, the 
application of science and innovation, and balanced 
stewardship. It gives us the tools to help communities 
strengthen resilience in the face of climate change, conserve 
natural and cultural resources, secure clean and sustainable 
water, engage the next generation with the great outdoors, 
promote a balanced approach to safe and responsible energy 
development, and expand opportunities for Native American 
communities. These areas are core to our mission, and play a 
vital role in job creation and economic growth.
    The budget invests in our public lands, providing $5 
billion to support operation of our national parks, historic 
and cultural sites, wildlife refuges and habitat, and managing 
multiple-use and sustained yield on our Nation's public lands. 
It focuses investment on important working landscapes, like the 
western Sage Steppe and the Arctic, and proposes a 10-year, $2 
billion coastal climate resilience program to support at-risk 
coastal states and local governments, including funding for 
communities in Alaska, to prepare for and adapt to climate 
change.
    As the National Park Service begins its second century, the 
budget provides $3 billion, and includes a proposal to dedicate 
significant funding to reducing the deferred maintenance 
backlog. It calls for full and permanent funding of the Land 
and Water Conservation Fund, and extends the expired authority 
for the Historic Preservation Fund. It reflects the 
Administration's strategy to more effectively budget for 
catastrophic wildfires. And in response to drought challenges 
across the West, it continues to safeguard sustainable and 
secure water supplies.
    We continue to engage the next generation of Americans to 
play, learn, serve, and work outdoors, with $103 million for 
youth engagement. This includes mentoring and research 
opportunities at the USGS, urban community partnerships, 
scholarships and Job Corps training for tribal, rural, and 
urban youth, and work opportunities in our bureaus.
    There is $20 million for the Every Kid in a Park 
Initiative, which introduces America's fourth-graders to their 
public lands, providing education programs across the country 
and transportation support for low-income students.
    We continue to promote a balanced approach to safe and 
responsible energy development that maximizes a fair return for 
taxpayers with $800 million for renewable and conventional 
energy development, a $42 million increase.
    We are on track to meet the President's goals of permitting 
20,000 megawatts of renewable energy capacity on public lands 
by 2020, with nearly $100 million for renewable energy 
development and infrastructure. Offshore, this budget supports 
the Bureau of Ocean Energy Management and the Bureau of Safety 
and Environmental Enforcement with funding to reform and 
strengthen responsiveness, oversight, and safety of oil and gas 
development.
    Onshore, $20 million supports BLM's efforts to develop a 
landscape-level approach to oil and gas development, modernize 
and streamline permitting, and strengthen inspection capacity.
    We are expanding educational and job opportunities for 
Native American communities, with $3 billion for Indian 
Affairs, a 5 percent increase to support Native youth 
education, American Indian and Alaska Native families, public 
safety, and building resilience to climate change.
    The President's budget calls for a $1 billion investment in 
Indian education as part of Generation Indigenous, and $278 
million to fully fund contract support costs, a cornerstone of 
tribal self-determination.
    The budget supports our commitment to resolve Indian water 
rights settlements and support sustainable water management in 
Indian Country, with $215 million, a $5 million increase.
    The budget includes funding to strengthen cyber security 
controls across all agencies. It invests in science and 
innovation with $150 million for natural hazards at the USGS, 
an $11 million increase, and $5 million increase for 3D 
elevation mapping in Alaska and nationwide. Funding will 
continue development of Landsat 9, a critical new satellite 
expected to launch in 2021.
    This is a smart budget, and it builds on previous successes 
and strengthens partnerships to ensure we balance the needs of 
today with opportunity for future generations. Thanks, and I am 
happy to take questions.
    [The prepared statement of Secretary Jewell follows:]
    Prepared Statement of Sally Jewell, Secretary of the Interior, 
                             Washington, DC
    Mr. Chairman, Ranking Member Grijalva, and members of the 
committee, I am pleased to present the 2017 President's Budget for the 
Department of the Interior providing $13.4 billion for the Department's 
programs with $290 million available in the event of catastrophic 
fires.
    This is a strong budget that builds on our accomplishments. Our 
request enables us to carry out our important missions--maintain our 
core capabilities, meet commitments, and invest in key priorities. The 
investments in this request show the Administration remains focused on 
meeting the Nation's greatest challenges looking forward and ensuring 
our economy works for all.
    Our budget is part of the President's broader strategy to make 
critical investments in domestic and national security priorities while 
adhering to the bipartisan budget agreement signed into law last fall, 
and lifts sequestration in future years to continue investment in the 
future. This budget recognizes the importance of Interior's programs to 
the overall strength of the Nation's economy. To put this into 
perspective, in 2014, Interior-managed lands and activities contributed 
about $360 billion in national economic output, supporting an estimated 
2 million jobs. Of this, energy and mineral development on Interior-
managed lands and offshore areas generated more than $241 billion in 
economic activity and supported nearly 1.1 million jobs.
    At the same time, our 2017 proposed investments lay the groundwork 
for promoting renewable energy development, managing the Nation's lands 
responsibly, helping to protect communities in the face of climate 
change, and investing in science to inform natural resource management. 
Our budget features investments to launch the second century of the 
national parks and expand public accessibility to and enjoyment of 
America's public lands. It supports tribal priorities in Indian 
Country, including a $1.1 billion investment to transform Indian 
schools and education, and provides full funding for tribal contract 
support costs. This request addresses significant resource challenges 
for the Nation, including water availability, particularly in the arid 
West, and makes important investments in America's water 
infrastructure.
    The 2017 budget includes $1.0 billion for research and development 
activities throughout the Department, an increase of $84.5 million from 
the 2016 enacted level. Activities supported include scientific 
analysis of natural systems and applied field research to address 
specific problems, such as thawing permafrost, invasive species, and 
flooding. With multiple science programs across the Department's 
bureaus and offices, science coordination remains a critical component 
in the process of effective science application. Interior is well 
served by the deployment of science advisors in each bureau. These 
advisors serve critical roles within the organizations and across the 
Department by sharing information concerning new research efforts, 
identifying and evaluating emerging science needs, and ensuring 
effective science delivery and application. The Interior 2017 budget 
reflects high priority needs identified for scientific research across 
the Department.

            The 2017 Budget Advances a Record of Achievement

    This budget builds on a record of achievement across Interior's 
diverse mission. For the past several years, the Department led an 
unprecedented proactive strategy to develop land use plans with 
Federal, state, and local partners to address the deteriorating health 
of America's sagebrush landscapes and the declining population of the 
greater sage-grouse. This landscape scale conservation effort is an 
extraordinary collaboration to significantly address threats to the 
greater sage-grouse across 90 percent of the species' breeding habitat. 
These efforts enabled the U.S. Fish and Wildlife Service to conclude 
the charismatic rangeland bird does not warrant protection under the 
Endangered Species Act. This collaborative, science-based strategy is 
the largest land conservation effort in U.S. history, and helps to 
protect the species and its habitat while also providing certainty 
needed for sustainable economic development across millions of acres of 
Federal and private lands throughout the western United States. The 
2017 budget includes $89.7 million for Sage Steppe conservation, an 
increase of $22.9 million over 2016 enacted.
    This budget continues to advance development of renewable energy. 
Over the summer of 2015, Interior's offshore wind energy leasing 
efforts led to beginning construction of the first offshore wind farm. 
This first of its kind project will provide a model for future 
development of offshore wind energy. Since 2009, Interior has approved 
56 wind, solar, and geothermal utility scale projects on public or 
tribal lands. When built, these projects could provide about 14,600 
megawatts--enough energy to power nearly 4.9 million homes and support 
more than 24,000 construction jobs. The 2017 budget includes $97.3 
million for clean energy programs, an increase of $3.1 million over 
2016 enacted.
    The 2017 budget sustains President Obama's strong commitment to 
tribal self-determination, strengthening tribal nations, and investing 
in the future of Native youth. Interior established the Land Buy Back 
Program which, in only 2 years of active land purchases, invested more 
than $730 million in Indian Country to restore nearly 1.5 million acres 
of land to Indian tribes. The effort to improve and transform the 
Bureau of Indian Education to better serve American Indian and Alaska 
Native youth is building the foundation for improved student outcomes 
and enduring traditions and native cultures. In 2016, work will begin 
to replace the final 2 of 14 Bureau of Indian Education schools 
identified in 2004 as requiring the greatest need for replacement 
construction. Also, in 2016, Interior will finalize the next list of 
replacement schools determined through a negotiated rulemaking process. 
This budget includes $138.3 million for education construction and 
maintains a commitment to continue to invest in improving educational 
opportunities and quality from the earliest years through college.
    Interior continues to engage in innovative efforts to leverage 
youth engagement and partnerships to advance the Department's 
extraordinary mission. Interior set the goal to provide 40,000 work and 
training opportunities during 2014 and 2015 for young adults, toward a 
goal of 100,000 by 2017. Interior met its priority goal--providing 
52,596 work and training opportunities over the past 2 fiscal years by 
collaborating across all levels of government and mobilizing the 21st 
Century Conservation Corps. From Denali to the Everglades, members of 
the youth conservation corps are gaining work experience, helping 
improve the visitor experience, and mobilizing entire communities in 
the stewardship of our parks, refuges, waters and heritage. The 2017 
budget includes a total of $102.5 million, an increase of $37.6 million 
over 2016 enacted, for programs to advance youth engagement.
    Bureau of Reclamation projects funded from 2010 through 2015 
exceeded the cumulative water savings target of 910,000 acre-feet of 
water/year, achieving savings of over 970,000 acre-feet, roughly the 
amount of water needed for household use in Phoenix and the surrounding 
area each year. The budget keeps Reclamation on track to conserve 
1,040,000 acre-feet by the end of Fiscal Year 2017.
    Partnerships are critical to enhancing our public lands and 
providing additional recreational opportunities to the public. An 
example of the significant impact of these efforts is the CityArchRiver 
project is a public-private partnership building connections that 
enhance downtown St. Louis, the Gateway Arch grounds at the Jefferson 
National Expansion Memorial, and the Mississippi riverfront. This 
partnership includes the National Park Service, Missouri Department of 
Transportation, Great Rivers Greenway District, city of St. Louis, Bi-
State Development Agency, CityArchRiver Foundation, and others. In 
January, the Foundation completed a $250 million capital campaign which 
means the Foundation has raised $221 million in private funding for 
construction of the $380 million CityArchRiver project and an 
additional $29 million to seed an endowment that will help maintain and 
operate the park moving forward.

   Promotes the Conservation and Protection of America's Natural and 
                           Cultural Resources

    This year, the National Park Service celebrates 100 years of 
preserving and sharing America's natural, cultural, and historic 
treasures. Interior's 2017 budget makes investments to connect a new 
generation to ``America's Best Idea,'' and to care for and maintain our 
national parks for the next 100 years. Last year, the National Park 
Service's 410 units welcomed 307 million visitors--setting a new 
visitation record. Every tax dollar invested in a park returns more 
than $10 to the U.S. economy.
    The budget includes a discretionary increase of $190.5 million to 
invest in the next century of the National Park Service. This includes 
a $20.0 million increase for the Every Kid in a Park initiative, a 
$20.0 million increase to the Centennial Challenge program providing a 
Federal match to leverage partner donations for projects and programs 
at national parks, and a $150.5 million increase to address high 
priority deferred maintenance needs across the national park system.
    This current funding is complemented by a legislative proposal to 
provide new mandatory funding, The National Park Service Centennial Act 
includes $100.0 million a year, for 3 years, for Centennial Challenge 
projects to provide the Federal match in support of signature projects 
at park units; $100.0 million a year for 3 years for the Public Lands 
Centennial Fund, a competitive opportunity for public lands agencies to 
support conservation and maintenance projects; and $300.0 million a 
year, for 3 years, for Second Century Infrastructure Investment 
projects to make a meaningful and lasting impact on the NPS deferred 
maintenance backlog. The Act also provides authority to collect and 
retain additional camping or lodging fees and funds collected from 
purchases of the lifetime pass for citizens 62 years of age or older. 
Receipts for this Second Century Fund will be matched by donations to 
fund visitor enhancement projects.
    Together, the discretionary and mandatory funding proposals will 
allow the National Park Service to make targeted, measurable upgrades 
over the next 10 years to all of its highest priority, non-
transportation assets, restoring and maintaining them in good 
condition.
    America's public lands and waters offer space to get outside and 
get active, and provide living classrooms with hands-on opportunities 
to build skills. The Administration launched the Every Kid in a Park 
Initiative to inspire the next generation to discover all America's 
public lands and waters have to offer. Starting with the 2015-2016 
school year, all fourth grade students and their families are able to 
receive free admission to all national parks and other Federal lands 
for a full year. The National Park Service budget for 2017 includes 
$20.0 million for Every Kid in a Park to introduce at least 1 million 
fourth grade students from elementary schools serving disadvantaged 
students in urban areas to nearby national parks and provide park 
programs tailored for young people and their families, especially at 
high visitation and urban parks.
    Investments in America's great outdoors create and sustain millions 
of jobs and spur billions of dollars in national economic activity 
through outdoor recreation and tourism. An estimated 423 million 
recreational visits to Interior lands contributed $42 billion to the 
economy and supported about 375,000 jobs nationwide. The 2017 budget 
proposes full funding for Land and Water Conservation Fund (LWCF) 
programs at Interior and the Department of Agriculture. This 
innovative, highly successful program reinvests royalties from offshore 
oil and gas activities into public lands across the Nation. Starting in 
2017, the budget will invest $900.0 million annually into conservation 
and recreation projects, equal to the amount of receipts authorized for 
deposit into the LWCF each year, through a combination of $475.0 
million in current discretionary funding and $425.0 million in 
mandatory funding. These investments will conserve public lands in or 
near national parks, refuges, forests and other public lands, and 
provide grants to states for close-to-home recreation and conservation 
projects on non-Federal lands.
    The budget continues efforts to manage and promote the health and 
resilience of ecosystems on a landscape scale, including a continued 
focus in priority landscapes such as the California Bay-Delta, the 
Everglades, the Great Lakes, Chesapeake Bay, and the Gulf Coast. The 
request includes a total of $79.2 million for Bureau of Land Management 
efforts, to protect and restore America's vast sage steppe landscape 
supporting abundant wildlife and significant economic activity, 
including recreation, ranching and energy development. This investment 
reflects Interior's continued support of the unprecedented Federal and 
state collaboration to conserve the imperiled sage steppe landscape in 
the face of threats from fire, invasive species, expanding development, 
and habitat fragmentation. The budget also invests $160.6 million in 
landscape scale efforts to address the complex natural resource issues 
facing the Arctic.

             Implements the President's Climate Action Plan

    As manager of roughly 20 percent of the land area of the United 
States and a partner with tribal, Federal, state, local, and 
territorial government land managers, the Interior Department works to 
address the challenges of natural hazards brought on by a changing 
climate as an integral part of its mission. The budget includes funding 
to improve the resilience of communities and ecosystems to changing 
stressors, including flooding, severe storm events, and drought as part 
of the Administration's effort to better understand and prepare for the 
impacts of a changing climate.
    The budget proposes $2.0 billion in mandatory funding for a new 
Coastal Climate Resilience program, to provide resources over 10 years 
for at-risk coastal states, local governments, and their communities to 
prepare for and adapt to climate change. This program would be paid for 
by redirecting roughly half of the savings that result from the repeal 
of offshore oil and gas revenue sharing payments that are set to be 
paid to only four states under current law. A portion of these program 
funds would be set aside to cover the unique impacts of climate change 
in Alaska where rising seas, coastal erosion, and storm surges are 
threatening Native Villages that must prepare for potential 
relocations.
    Population growth near forests and rangelands and a changing 
climate are increasing wildfire risk and resulting costs. The budget 
calls for a new funding framework for wildland fire suppression, 
similar to how other natural disasters are addressed. The budget 
includes base level funding of 70 percent of the 10-year average for 
suppression costs and an additional $290.0 million through a cap 
adjustment, available in the event of the most severe fire activity, 
which comprises only 2 percent of the fires but 30 percent of the 
costs. This framework allows for a balanced suppression and fuels 
management and restoration program, with flexibility to accommodate 
peak fire seasons, but not at the cost of other Interior and U.S. 
Department of Agriculture missions.
    Healthy communities require secure, sustainable water supplies. 
This is particularly challenging with record drought conditions and 
increasing demand taxing watersheds throughout the country, especially 
in the arid West. To help increase the security and sustainability of 
Western watersheds, the budget continues investment in the Department's 
WaterSMART program to promote water reuse, recycling, and conservation, 
in partnership with states, tribes, and other partners. Funding is also 
included for research, development, and challenge competitions to find 
longer term solutions through new water technologies. The budget 
invests in the Nation's water infrastructure to ensure millions of 
customers receive the water and power that are the foundation of a 
healthy economy.

         Powers the Future Through Balanced Energy Development

    To enhance national energy security and create jobs in new 
industries, the budget invests in renewable energy development programs 
to review and permit renewable energy projects on public lands and in 
offshore waters. Under the President's Climate Action Plan, these funds 
will allow Interior to continue progress toward its goal of increasing 
approved capacity authorized for renewable--solar, wind, geothermal, 
and hydropower--energy resources affecting Interior managed lands, 
while ensuring full environmental review, to at least 16,600 Megawatts 
(since the end of FY 2009). The budget includes an increase of $2.0 
million for the Office of Insular Affairs to provide assistance to 
implement energy projects identified by the territories in their 
comprehensive sustainable energy strategies.
    To address the continuing legacy of abandoned mine lands on the 
health, safety, environment, and economic opportunity of communities, 
the budget proposes $1.0 billion to states and tribes over 5 years from 
the unappropriated balance of the AML Trust Fund, administered by the 
Office of Surface Mining Reclamation and Enforcement. As part of the 
President's POWER+ Plan, the AML funding will be used to target the 
reclamation of mine land sites and associated polluted waters in a 
manner that promotes sustainable redevelopment in economically 
distressed coalfield communities. The budget includes legislative 
reforms to strengthen the health care and pension plans that provide 
for the health and retirement security of coal miners and their 
families.
    The budget provides support for onshore energy permitting and 
oversight on Federal lands, with the Bureau of Land Management's 
discretionary and permanent oil and gas program receiving a 17 percent 
increase in funding compared to the 2016 enacted level. The funding 
increase will enhance BLM's capacity to oversee safe, environmentally 
sound development and ensure a fair return to taxpayers, with increases 
targeted to improve leasing processes, implementation of new 
regulations and rules, and a modernized automated permitting process. 
The BLM's costs would be partially offset through new inspection fees 
totaling $48 million in 2017, requiring the onshore oil and gas 
industry to share in the cost of managing the program from which it 
benefits, just as the offshore industry currently does.
    The budget also supports reforms to strengthen oversight of 
offshore industry operations following the 2010 Deepwater Horizon oil 
spill, with an additional emphasis on risk management. The budget 
includes $175.1 million for the Bureau of Ocean Energy Management and 
$204.9 million for the Bureau of Safety and Environmental Enforcement, 
which share responsibility for overseeing development of oil and gas 
resources on the Outer Continental Shelf.

                      Strengthening Tribal Nations

    The President's budget maintains the Administration's strong 
support for the principle of tribal self-determination and 
strengthening tribal communities across Indian Country. This commitment 
is reflected in a nearly 5 percent increase for the Bureau of Indian 
Affairs over the 2016 enacted level. The budget calls for full funding 
for contract support costs that tribes incur from managing Federal 
programs, complemented by a proposal to secure mandatory funding in 
future years. The budget provides significant increases across a wide 
range of Federal programs that serve tribes; proposes a ``one-stop'' 
approach to improve and coordinate access to Federal programs and 
resources; seeks to improve the quality of data by partnering with the 
Census Bureau; supports sustainable stewardship of land, water, and 
other natural resources; provides funds for communities to plan, 
prepare, and respond to the impacts of climate change; and expands 
resources to promote tribally based solutions and capacity building to 
strengthen tribal communities as a whole. The budget continues to 
address Indian water rights settlement commitments and programs to 
support tribes in resolving water rights claims, developing water 
sharing agreements, and supporting sustainable water management.
    The budget includes key investments to support Generation 
Indigenous, an initiative addressing barriers to success for American 
Indian and Alaska Native children and teenagers. In addition to 
Interior, multiple agencies--including the Departments of Education, 
Housing and Urban Development, Health and Human Services, Agriculture, 
and Justice--are working collaboratively with tribes on new and 
increased investments to implement education reforms and address issues 
facing Native youth. The budget provides over $1 billion for Interior 
investments in Indian education.

             Improves Oversight and Use of Federal Dollars

    Interior has several multi-year efforts underway to reduce its 
nationwide facilities footprint, and improve the efficiency and 
effectiveness of its information technology infrastructure and 
financial reporting capabilities. The budget includes $6.4 million to 
consolidate building space and reduce costs to the taxpayer for 
privately leased space. Interior achieved a 4.6 percent reduction--2.1 
million square feet--in office and warehouse space between FY 2012 and 
FY 2015. This represents a net annual cost avoidance of approximately 
$8 million. In 2016, the modernization of the sixth and final wing of 
the Main Interior Building will be completed, including infrastructure 
upgrades that improve energy efficiency and sustainability and 
reconfigured space to support higher occupancy.
    The budget includes $3.0 million for Interior's Digital Services 
team to increase the efficiency and effectiveness of the agency's 
highest impact digital services. The budget continues to optimize the 
Department wide Financial and Business Management System with targeted 
investments to improve reporting and increase data quality and 
transparency, as envisioned in the DATA Act.
    The budget includes an increase of $2.6 million to support 
implementation of Federal Information Technology Acquisition Reform 
Act, to improve standardization of information technology investments 
by strengthening the role of the Department's Chief Information Officer 
in strategic planning, budget formulation and execution, and 
acquisition of information management and technology activities. The 
budget includes $34.7 million in the appropriated working capital fund 
to continue the Department's remediation of its cybersecurity systems 
and processes, an increase of $24.7 million above the 2016 enacted 
level. The additional funding will allow the Department to secure its 
valuable information on behalf of our employees, customers, partners 
and the American public.
    The U.S. Treasury received $7.2 billion in 2015 from fees, 
royalties and other payments related to oil and gas development on 
public lands and waters. A number of studies by the Government 
Accountability Office and Interior's Office of Inspector General found 
taxpayers could earn a better return through policy changes and more 
rigorous oversight. The budget proposes a package of legislative 
reforms to bolster administrative actions focused on advancing royalty 
reforms, encouraging diligent development of oil and gas leases, and 
improving revenue collection processes. The Administration is committed 
to ensuring American taxpayers receive a fair return from the sale of 
public resources and benefit from the development of energy resources 
owned by all Americans.
    The budget includes legislative proposals related to Reforms of 
Hardrock Mining. To increase safety and minimize environmental impacts, 
the budget proposes a fee on hardrock mining, with receipts to be used 
by states, tribes and Federal agencies to restore the most hazardous 
sites--similar to how coal Abandoned Mine Lands funds are used. In 
addition, to ensure taxpayers receive a fair return from mineral 
development on public lands, the budget proposes a royalty on select 
hardrock minerals--such as silver, gold and copper--and terminating 
unwarranted payments to coal producing states and tribes that no longer 
need funds to clean up abandoned coal mines.

                           Bureau Highlights

    Bureau of Land Management--The 2017 request is $1.3 billion, $7.1 
million above 2016. This includes $1.2 billion for BLM operations, an 
increase of $2.1 million above the 2016 enacted level, with $1.1 
billion for Management of Lands and Resources and $107.0 million for 
Oregon and California Grant Lands programs. The change in total program 
resources from 2016 and 2017 is larger, as the budget proposes 
offsetting user fees in the Rangeland Management and Oil and Gas 
Management programs which reduce the total request by $64.5 million.
    The budget also includes $44.0 million in current appropriations 
for LWCF land acquisition, including $8.0 million to improve access to 
public lands for hunting, fishing, and other recreation. BLM's LWCF 
land acquisition investments promote the conservation of natural 
landscapes and resources by consolidating public lands through 
purchase, exchange and donation to increase management efficiency and 
preserve areas of natural, cultural, and recreational importance. The 
BLM estimates 23 million acres (or 9 percent) of BLM-managed public 
lands lack public access or have inadequate public access, primarily 
due to checkerboard land ownership patterns. The BLM's proposed land 
acquisition project within the Rio Grande del Norte National Monument 
in New Mexico illustrates the many benefits of land acquisition to 
BLM's mission. An investment of $1.3 million would allow BLM to acquire 
1,186 acres of private inholdings within the monument to preserve 
traditional uses, secure connectivity to the Rio Grande Wild & Scenic 
Corridor, preserve avian and wildlife habitat, protect prehistoric 
human habitation sites, and improve recreation and tourism.
    Complementing the second century of the parks, the BLM budget 
includes investments in the National Conservation Lands, which recently 
celebrated their 15th anniversary. Thirteen new National Conservation 
Lands units were designated during the current Administration and 
visitation and visitor expectations and demands have consistently 
increased for the whole National Conservation Lands system during this 
period. The 2017 budget features a $13.7 million increase to meet basic 
operating requirements and support critical and overdue investments to 
effectively safeguard the cultural, ecological, and scientific values 
for which they were designated and provide the quality of recreational 
opportunities intended with the National Conservation Lands 
designation. A program increase of $1.1 million in Cultural Resources 
Management will enhance BLM's capacity to preserve and protect the vast 
treasure of heritage resources on public lands and a program increase 
of $2.0 million in Recreation Resources Management will further 
implement a National Recreation Strategy to facilitate access to public 
lands.
    The BLM continues to support the President's broad energy strategy, 
with significant increases requested in 2017 to strengthen its ability 
to effectively manage onshore oil and gas development on Federal lands. 
The 2017 budget for oil and gas management activities, including the 
request for direct and fee funded appropriations and estimated 
permanent appropriations totals $186.6 million, an increase of $27.6 
million in total program resources over the 2016 enacted level.
    For direct appropriations, the oil and gas request is a net program 
increase of $19.9 million. Within this net total, $13.1 million will 
support implementation of rules and regulations to ensure oil and gas 
operations are safe, environmentally responsible, and ensure a fair 
return to the taxpayer. These include new oil and gas measurement and 
site security regulations, hydraulic fracturing regulations, and 
venting and flaring regulations. A $2.1 million increase will complete 
modernization of the Automated Fluid Minerals Support System. The 
development work associated with Phase II of AFMSS modernization 
includes new functionality supporting new proposed rules and those 
currently expected to be finalized in 2016. Overall, the AFMSS 
modernization project also will support greater efficiencies in oil and 
gas permitting and inspection activities.
    The Oil and Gas Management request also includes a program increase 
of $2.6 million for oil and gas special pay costs to improve BLM's 
ability to recruit and retain high caliber oil and gas program staff to 
provide effective oversight and meet workload and industry demand. 
Finally, the BLM budget request includes a program increase of $2.8 
million to enhance BLM's capability to address high priority legacy 
wells in the National Petroleum Reserve-Alaska to supplement permanent 
funds provided in the Helium Security Act of 2013. The 2017 budget 
continues to request authority to charge inspection fees similar to 
those in place for offshore oil and gas inspections. Such authority 
will reduce the net costs to taxpayers of operating BLM's oil and gas 
program and allow BLM to be more responsive to industry demand and 
increased inspection workload in the future. A $48.0 million decrease 
in requested appropriations reflects shifting the cost of inspection 
activities to fees.
    In 2017, BLM will continue to invest heavily in the Greater Sage 
Grouse Conservation Strategy and the budget includes a program increase 
of $14.2 million to protect, improve, or restore sage steppe habitat. 
Funds will also assist states in implementing GSG conservation plans. 
The BLM's efforts to implement the Greater Sage Grouse Conservation 
Strategy are also reliant upon successful execution of the National 
Seed Strategy, which is also integral to the Administration's wildland 
fire rehabilitation efforts and the success of the Secretary's 
Integrated Rangeland Fire Management Strategy. The budget includes a 
$5.0 million program increase within Wildlife Management to more 
aggressively implement the National Seed Strategy.
    Other budget highlights include program increases totaling $16.9 
million in the Resource Management Planning, Assessment, and Monitoring 
subactivity. This includes $4.3 million to expand the BLM Assessment, 
Inventory, and Monitoring program for increased data collection and 
monitoring central to the success of high priority landscape management 
efforts such as the Western Solar Energy Plan, as well as 
implementation of the Department's plan for the National Petroleum 
Reserve-Alaska, the Greater Sage Grouse Conservation Strategy, and the 
broader landscape mitigation strategy. The request also includes an 
increase of $6.9 million to accelerate implementation of the BLM 
enterprise geographic information system, which aggregates data across 
boundaries to capture ecological conditions and trends; natural and 
human influences; and opportunities for resource conservation, 
restoration, development, and partnering. The remaining $5.7 million 
increase will support high priority planning efforts that could include 
the initiation of new plan revisions in 2017, as well as plan 
evaluations and implementation strategies.

    Bureau of Ocean Energy Management--The 2017 President's budget for 
BOEM is $175.1 million, including $80.2 million in current 
appropriations and $94.9 million in offsetting collections. This is a 
net increase of $4.3 million in current appropriations above the 2016 
enacted level.
    The total 2017 estimate of $94.9 million for offsetting collections 
is a net decrease of $1.7 million, including reductions in rental 
receipts partially offset by a new $2.9 million cost recovery fee for 
the Risk Management Program. An increase in direct appropriations of 
$6.0 million makes up for the projected decrease in rental receipts.
    The budget provides $23.9 million for offshore renewable energy 
activities. To date, BOEM has issued 11 commercial wind energy leases 
offshore; conducted 5 competitive wind energy lease sales for areas 
offshore Maryland, Massachusetts, New Jersey, Rhode Island, and 
Virginia; and approved the Construction and Operations Plan for the 
Cape Wind project offshore Massachusetts. Additionally, BOEM is in the 
planning stages for wind leasing offshore New York, North Carolina, and 
South Carolina. In 2015, BOEM executed the first wind energy research 
lease in U.S. Federal waters with the Commonwealth of Virginia's 
Department of Mines, Minerals, and Energy.
    The 2017 budget provides $64.2 million for conventional energy 
development, a programmatic increase of $4.2 million above 2016. These 
funds support high priority offshore oil and gas development 
activities, including lease sales outlined in BOEM's Five-Year OCS Oil 
and Gas Leasing Program for 2012-2017. Under this program, BOEM's eight 
sales generated over $2.97 billion in high bids. Five lease sales 
remain on the lease sale schedule through mid-2017. The next lease 
sales are Eastern Gulf of Mexico Lease Sale 226, Central Gulf of Mexico 
Lease Sale 241, and Western Gulf of Mexico Lease Sale 248, all 
scheduled to be held during 2016.
    The 2017 provides $68.4 million for BOEM's Environmental Programs. 
These funds support world class scientific research to provide critical 
information informing policy decisions regarding energy and mineral 
development on the OCS.

    Bureau of Safety and Environmental Enforcement--The 2017 
President's budget for the Bureau of Safety and Environmental 
Enforcement is $204.9 million, including $96.3 million in current 
appropriations and $108.5 million in offsetting collections. The 2017 
budget is a net $196,000 increase above the 2016 enacted level, 
reflecting an increase of $7.9 million in current appropriations and a 
$7.7 million decrease in offsetting collections. The total 2017 
estimate of $108.5 million in offsetting collections assumes decreases 
from 2016 of $11.5 million for rental receipts, $2.2 million for cost 
recoveries, and a $6.0 million increase for inspection fee collections. 
Funding for Oil Spill Research is maintained at the 2016 enacted level 
of $14.9 million. The 2017 budget supports continued safe and 
responsible offshore energy development.

    Office of Surface Mining Reclamation and Enforcement--The 2017 
budget request is $157.9 million, $82.6 million below the 2016 enacted 
level.
    The 2017 budget for Regulation and Technology is $127.6 million, 
$4.3 million above 2016. The request includes $10.5 million, $1.8 
million above 2016, to improve implementation of existing laws and 
support state and tribal programs. The 2017 budget includes $65.5 
million for state and tribal regulatory grants, this level of funding 
supports state requirements.
    The budget includes program increases of $2.5 million to advance 
the Bureau's GeoMine Project; $1.2 million for applied science to 
conduct studies to advance technologies and practices specific to coal 
mined sites for more comprehensive ecosystem restoration; $1.0 million 
to expand the use of reforestation techniques in coal mine reclamation 
and provide opportunities for youth and community engagement; $2.3 
million to support Technical Assistance; and $1.6 million for National 
Environment Policy Act compliance document preparation, legal review, 
and program monitoring.
    The 2017 budget for the Abandoned Mine Reclamation Fund is $30.4 
million, $86.9 million below 2016. The 2016 enacted level included a 
$90.0 million increase for grants to three states for the reclamation 
of abandoned mine lands in conjunction with economic and community 
development activities. The 2017 budget proposes a broader legislative 
effort to support reclamation and economic and community development as 
part of the Administration's POWER+ Plan. POWER+ would provide $200 
million per year to target the cleanup and redevelopment of AML sites 
and AML coal mine polluted waters in a manner that facilitates 
sustainable revitalization in economically depressed coalfield 
communities. The budget includes a $1.5 million program increase for 
technical assistance to states, tribes, and communities to address AML 
technological advances and issues for AML site reclamation. The budget 
also includes program increases of $525,000 for applied science studies 
pertaining to abandoned mines, $799,000 to enhance and expedite current 
OSMRE efforts in digitizing underground mine maps, and $287,000 for 
support within the Office of the Solicitor.

    Bureau of Reclamation and Central Utah Project Completion Act--The 
2017 budget for Reclamation and CUPCA totals $1.1 billion and focuses 
on investments in Indian water rights settlements, ecosystem 
restoration, healthy watersheds and sustainable, secure water supplies.
    Funding for Water and Related Resources shows a reduction of $305.6 
million from 2016, reflecting the shift of $106.2 million to the 
requested new Indian Water Rights Settlements account and $36.0 million 
for a separate discretionary account within the San Joaquin River 
Restoration Fund.
    Reclamation requests establishment of an Indian Water Rights 
Settlements account in 2017 to assure continuity in the construction of 
the authorized projects and to highlight and enhance transparency in 
handling these funds. The budget includes $12.8 million to implement 
the Crow Tribe Rights Settlement Act, $6.4 million for the Aamodt 
Litigation Settlement Act, and $87.0 million for the Navajo-Gallup 
Water Supply Project.
    The extreme and prolonged drought facing the western states affects 
major U.S. river basins in virtually every western state. The effects 
of the current drought on California water, its agrarian economy, and 
its communities are particularly acute. The estimated cost of the 2015 
drought on California agriculture-crop production, livestock, and 
dairies is $2.7 billion with a total loss of 21,000 seasonal and part-
time jobs. The Colorado River Basin--crucial for seven states and 
several tribes, in addition to two countries--is also enduring historic 
drought. Nearly 40 million people rely on the Colorado River and its 
tributaries for some, if not all, of their municipal needs. The Basin 
is experiencing the worst drought in recorded history; the period of 
2000-2015 was the driest 16-year period in more than 100 years of 
record keeping.
    Reclamation's WaterSMART program, requested at $61.5 million, is 
helping to address the drought and other water supply issues across the 
West. WaterSMART Grants, Water Conservation Field Services, and Title 
XVI Programs, along with other Reclamation activities are enabling the 
West to better adapt to the impacts of a changing environment by 
helping to conserve tens of thousands of acre-feet of water each year 
in urban and rural settings, and on both large and small scales. The 
Drought Response Program will implement a comprehensive new approach to 
drought planning and will implement actions to help communities manage 
drought and develop long-term resilience strategies. Reclamation 
continues to promote research and development through its Science and 
Technology and Desalination and Water Purification Research Programs to 
produce new clean water technologies, reduce costs, and decrease 
environmental impacts while converting unusable water into viable water 
supplies. The 2017 budget includes $8.5 million for an X-Prize 
competition to encourage innovative water purification and treatment 
technologies.
    Separately, the budget includes $5.6 million for the Central Utah 
Project Completion Account program, $4.4 million below 2016. The 
request provides funding to complete construction of the North Pipeline 
component of the Utah Lake System; provides for recovery of endangered 
species; and implements fish, wildlife, and recreation mitigation and 
water conservation projects.

    U.S. Geological Survey--The 2017 budget is $1.2 billion, $106.8 
million above 2016, to advance our national commitment to research and 
development that supports economic growth, balances priorities on 
resource use, addresses climate change, and ensures the security and 
well-being of the Nation. The budget improves response to and warning 
of natural disasters, responds to drought and other water challenges, 
supports sustainable domestic energy and minerals development, and 
advances scientific understanding of land use, land change, and the 
effects of resource decisions to assist communities and land managers 
in making choices informed by sound science.
    The 2017 budget invests in the USGS's capabilities for science and 
innovation to monitor and respond to natural disasters with increases 
for priority science to help stabilize and rehabilitate ecosystems 
after fires and provide geospatial information, monitoring strategies, 
and other relevant scientific information faster for real-time fire 
response. Related increases build USGS' capability to respond to 
landslide crises, and expand the use of flood inundation mapping and 
rapidly deployable streamgages to meet urgent needs of flood-threatened 
communities lacking a permanent streamgage.
    The budget continues $8.2 million to develop the West Coast 
Earthquake Early Warning system to complete a production prototype 
system, expand coverage, and beta-test alerts. The budget continues 
funding of $3.0 million to repair and upgrade monitoring stations on 
high-threat volcanoes. The budget includes funding to assume long-term 
operations of the Central and Eastern United States Seismic Network 
from the National Science Foundation and allows USGS to continue a 5-
year effort to deploy, install and improve the Global Seismic Network, 
ensuring that the Network continues to provide global earthquake and 
tsunami monitoring, nuclear treaty research and verification, and earth 
science research.
    The budget provides an increase of $18.4 million for science to 
support sustainable water management, nearly doubling the investment 
made in 2016. As climate models forecast increasingly frequent and more 
intense droughts, improving water management science is a paramount 
concern for land and water management agencies, states, local 
governments, and tribes. The budget would improve water use information 
and research, provide grants to state water resource agencies, and 
create hydrologic models and databases for better decision support. The 
budget also includes $3.9 million for drought science and $4.0 million 
to develop methods to assess regional and national water use trends 
during drought. Innovation is critical to address the severe threats to 
water supply posed by drought and climate change.
    The budget provides increases across several programs to advance 
understanding of conventional and unconventional energy, critical 
minerals such as rare earth elements, and the environmental health 
effects of resource development. These investments include $3.6 million 
to provide decision ready information to support safe and prudent 
unconventional oil and gas development, $2.0 million to study the 
environmental impacts of uranium mining in the Grand Canyon, and $1.0 
million to identify and evaluate new sources of critical minerals and 
continue criticality analysis for mineral commodities.
    The USGS budget increases science investments for changing 
landscapes, including $9.8 million in the Arctic, $3.0 million for the 
vulnerable sagebrush habitats of the Intermountain West, and $3.9 to 
improve coastal science that will help communities build resilient 
coastal landscapes and improve post-storm contaminant monitoring 
network along the Atlantic coast. The budget also establishes a Great 
Lakes Climate Science Center to focus on the many natural resource 
challenges in the distinct bio-geographic Great Lakes region. As with 
the eight existing Climate Science Centers, the Great Lakes CSC will 
help address regional concerns associated with climate change, 
providing a pathway to resilience and supporting local community 
priorities.
    The budget includes increases of $2.1 million to address research 
on pollinator health and expand the small group of USGS researchers 
working on this critical component of agricultural and ecosystem 
health, $1.4 million for tribal climate science partnerships, and $2.5 
million for better tools to detect and control invasive species, 
particularly new and emerging invasive species. The budget continues a 
commitment to priority ecosystems including the Chesapeake Bay, the 
Everglades, Puget Sound, the Upper Mississippi River, the California 
Bay-Delta, and the Gulf Coast.
    The USGS plays a pivotal role in providing research, analysis, and 
decision support tools. The budget supports these efforts and includes 
investments to extend the four-decade long Landsat satellite program 
with the development of Landsat 9, and provide information to better 
understand and respond to changes in the environment. The 2017 budget 
provides an increase of $17.6 million for satellite operations, funding 
the development of Landsat 9 ground systems and satellite operations 
and an investment to retrieve and disseminate data from the European 
Space Agency's Sentinel-2 earth observation satellite. The budget 
provides an increase of $4.9 million to expand the three-dimensional 
elevation program and leverage partnerships across the Nation, 
accelerate Alaskan map modernization, and provide coastal imaging to 
help communities make infrastructure resilience investments. The budget 
also provides $3.0 million to develop the computing resources necessary 
to produce and disseminate Landsat-based information products.
    High-quality science depends on a strong science infrastructure. 
The budget makes necessary investments to continue the USGS legacy of 
reliable, valuable scientific information and monitoring. These 
investments fund science support, facilities and equipment, including 
laboratories, and the administrative support that is the backbone of 
science production and delivery. The 2017 budget also includes program 
increases to enhance the Mendenhall post-doctoral program, support 
tribal science coordination, enhance science education, and engage 
youth in underserved communities in earth and biological sciences 
through outreach activities and science camps.

    Fish and Wildlife Service--The 2017 budget for FWS includes current 
appropriations of $1.6 billion, an increase of $54.5 million compared 
to the 2016 enacted level.
    The 2017 request for FWS includes $1.3 billion for FWS operations, 
of which $506.6 million supports National Wildlife Refuge System 
operations and maintenance. A feature of the 2017 FWS budget is support 
to expand opportunities for all Americans to access public lands and 
experience the great outdoors, regardless of where they live. With 80 
percent of the U.S. population currently residing in urban communities 
near more than 260 wildlife refuges, Interior is leveraging the 
National Wildlife Refuge System to encourage urbanites to rediscover 
the outdoors. The request includes $10.0 million for the Refuge 
System's Urban Wildlife Conservation Partnerships to expand 
opportunities for urban populations including an increase of $2.0 
million for additional Refuge System law enforcement officers to ensure 
the safety of visitors, natural and cultural resources, and Federal 
employees and facilities. The budget includes $40.7 million for general 
Refuge Law Enforcement operations.
    The request also includes funding within Law Enforcement and 
International Affairs to combat wildlife trafficking. The budget 
provides $75.1 million for the law enforcement program to investigate 
wildlife crimes, enforce the laws governing the Nation's wildlife 
trade, and continue cooperative international efforts to prevent 
poaching and trade in illegal wildlife products. The request includes 
$15.8 million for the International Affairs Program, an increase of 
$1.1 million above 2016. This includes increases of $500,000 to provide 
technical support for international efforts to reduce illegal wildlife 
trafficking and develop innovative conservation activities. Also within 
International Affairs, is $550,000 to support the U.S. Chairmanship of 
the Arctic Council.
    The budget invests in resources for the Refuge System which has 
lost more than 400 staff positions since 2010. The request for the 
Refuge System is $506.6 million, an increase of $25.2 million above 
2016. This includes increases of $1.0 million for pollinator 
conservation, $3.7 million for wildlife and habitat inventory and 
monitoring, $2.0 million to establish management capability across 418 
million acres of submerged land and water within the Pacific Marine 
National Monuments, and $4.4 million to begin rebuilding capacity 
within the Refuge System to improve the condition of refuge system 
facilities and resources, improve the visitor experience and manage 
natural resources.
    The budget emphasizes improving the resilience of communities and 
wild landscapes, enabling them to better adapt to a rapidly changing 
environment, and uses smart investments in conservation and landscape-
level planning to improve the Service's ability to facilitate economic 
growth, while avoiding and mitigating the impacts on wildlife and 
habitat.
    Within the FWS main operating account, the request provides $252.3 
million for Ecological Services to conserve, protect, and enhance 
listed and at-risk species and their habitat, an increase of $18.3 
million. Since 2008, FWS has downlisted or delisted 15 species, more 
than in any other administration. The increases within Ecological 
Services include $5.7 million to support conservation, restoration and 
economic development across the Gulf Coast region and other parts of 
the country.
    The budget includes $152.8 million for Fish and Aquatic 
Conservation, a program increase of $4.6 million. Within this request 
is $53.8 million for operation of the National Fish Hatchery System and 
$7.9 million to combat the spread of Asian carp in the Missouri, Ohio, 
upper Mississippi Rivers, and other high priority watersheds. The 
request also includes an increase of $1.5 million to support fish 
passage while improving the resilience of communities to withstand 
flooding.
    The budget funds Cooperative Landscape Conservation at $17.8 
million, an increase of $4.8 million above 2016. The approach employed 
by Landscape Conservation Cooperatives to identify landscape scale 
conservation solutions fosters collaboration across a wide variety of 
partners and builds capabilities beyond the scale any single state, 
tribe, Federal agency, or community could achieve alone. The requested 
increase will support landscape planning and design, and partner 
cooperation that will improve the condition of wildlife habitat and 
enhance the resilience of communities.
    The 2017 budget for Science Support is $20.6 million, an increase 
of $3.6 million above 2016. The request includes an additional $1.0 
million to expand application of Strategic Habitat Conservation, an 
approach to conservation that, in cooperation with stakeholders, 
identifies priority species and habitat, desired biological outcomes, 
and develops conservation strategies to achieve these outcomes. This 
approach supports the design of successful management strategies that 
deliver measureable improvements to wildlife populations and habitats. 
The FWS will use a program increase of $2.6 million to obtain high 
priority data and scientific tools needed by on-the-ground resource 
managers.
    The FWS budget includes $137.6 million for LWCF Federal land 
acquisition, composed of $58.7 million in current funding and $79.0 
million in permanent funding. Within the request for current funding, 
is $19.9 million for high priority acquisition projects focused on FWS 
specific needs, including $16.0 million for collaborative projects in 
coordination with partners and other Federal agencies, and $2.5 million 
to support increased access to FWS lands for sportsmen and 
recreationists. The FWS requests $2.5 million in discretionary funding 
for the Everglades Headwaters National Wildlife Refuge and Conservation 
Area, one of the great grassland and savanna landscapes of eastern 
North America, to acquire nearly 1,000 acres to help protect high-
quality habitat for 278 Federal and state listed species. Acquisition 
of this property would protect the headwaters, groundwater recharge, 
and watershed of the Kissimmee Chain of Lakes, Kissimmee River, and 
Lake Okeechobee region, and improve water quantity and quality in the 
Everglades watershed, supporting the Comprehensive Everglades 
Restoration Plan goals and protecting the water supply for millions of 
people.
    Supporting the Administration's America's Great Outdoors initiative 
objectives is $106.0 million for grant programs administered by FWS. 
The 2017 budget maintains 2016 funding levels for grants through the 
Cooperative Endangered Species Conservation Fund, North American 
Wetlands Conservation Fund, Multinational Species Conservation Fund, 
and the Neotropical Migratory Bird Conservation Fund. Funding for the 
State and Tribal Wildlife grant program on which many states and tribes 
rely to fund non-game animal conservation, is an increase of $6.4 
million.

    National Park Service--The 2017 President's current budget request 
for NPS of $3.1 billion is $250.2 million above the 2016 enacted level. 
Highlights of the 2017 budget include $190.5 million in increases for 
the NPS Centennial, as well as a focus on the stewardship of natural 
and cultural resources, including a $20.0 million increase for the 
Historic Preservation Fund grant programs to document and preserve 
stories and sites related to the Civil Rights Movement.
    The NPS budget request for operations is $2.5 billion, an increase 
of $154.8 million from 2016. A $2.2 million programmatic reduction to 
refocus operations funding partially offsets the following increases: 
$49.2 million for additional repair and rehabilitation projects, $46.6 
million for additional cyclic maintenance projects, $20.0 million for 
the Every Kid in a Park initiative, $10.7 million for new parks and 
responsibilities, $8.1 million for healthcare insurance for seasonal 
employees, $3.0 million for climate change adaptation projects, $2.6 
million for increased communications bandwidth at parks, $2.0 million 
for the Vanishing Treasures program, $1.2 million to address energy 
development near parks, $1.1 million for Arctic science and monitoring, 
and $1.0 million for uranium mining studies in the Grand Canyon.
    The 2017 budget provides a total of $35.0 million for the 
Centennial Challenge matching program, an increase of $20.0 million. 
These funds will provide a Federal match to leverage partner donations 
for signature projects and programs at national parks into the NPS' 
second century. All Federal funds must be matched on at least a 50:50 
basis. In 2016, Congress appropriated $15 million for projects which 
will be matched by almost $33 million from more than 90 park partners. 
This program is bolstered by the Administration's legislative proposal 
to fund an additional $100.0 million a year for 3 years for this 
program as a permanent appropriation.
    The 2017 request for the Historic Preservation Fund is $87.4 
million, an increase of $22.0 million from 2016. Of this total, $46.9 
million is requested for grants-in-aid to states and territories, which 
is level with 2016. A total of $12.0 million is requested for grants-in 
aid to tribes, an increase of $2.0 million. The remaining $20.0 million 
increase is for grants to document and preserve the sites and stories 
of the Civil Rights Movement; of which $17.0 million is for competitive 
grants, and $3.0 million is for grants to Historically Black Colleges 
and Universities.
    The 2017 budget includes $54.4 million for National Recreation and 
Preservation programs that support local community efforts to preserve 
natural and cultural resources. This is a decrease of $8.2 million 
compared to 2016. These changes consist of a program reduction of $10.4 
million to Heritage Partnership Programs; and programmatic increases of 
$0.9 million for modernization and digitization in the National 
Register program, $0.8 million for the Preservation Technology and 
Training grants program, $0.3 million for the Federal Lands to Parks 
program, and fixed costs increases.
    Construction funding totals $252.0 million, $59.1 million above 
2016. This request provides funding critical to the implementation of 
the Centennial initiative to make a meaningful impact on the NPS 
deferred maintenance backlog. The budget includes $153.3 million for 
line-item construction projects, a $37.1 million increase, which will 
fund projects such as the $13.2 million rehabilitation of the Paradise 
Inn Annex and snow bridge connection at Mount Rainier National Park in 
Washington, and $13.9 million for the final phase of the rehabilitation 
of the El Portal sanitary sewer to prevent raw sewage spills at 
Yosemite National Park in California.
    The 2017 current funding request for LWCF Land Acquisition and 
State Assistance is $178.2 million, an increase of $4.6 million from 
2016. This includes $110.0 million for State Assistance grants, 
maintaining the increase provided in 2016. The budget requests $68.2 
million for Federal Land Acquisition, an increase of $4.6 million. This 
provides $26.6 for projects addressing NPS specific needs, $10.8 
million for collaborative acquisition projects, $2.0 million for 
projects to improve recreation access, and $10.0 million for American 
Battlefield Protection Program acquisition grants. A high priority for 
NPS, the Hawaii Volcanoes National Park is also part of the Island 
Forests at Risk collaborative landscape proposal. An investment of $6.0 
million would allow NPS to begin acquisition of a parcel which protects 
the hawksbill and Green turtles, and island monk seal habitat, and 
contains anchialine pond communities and coastal strands of endangered 
plants. Significant archaeological sites, cultural landscapes, 
petroglyphs and ancient trails are also present. Time is a concern as 
the area faces potential rezoning from conservation to medium density 
urban and resort development.

    Indian Affairs--The 2017 President's budget for Indian Affairs is 
$2.9 billion in current appropriations, $137.6 million above the 2016 
level. Funding for the main operating account for Indian Affairs, 
Operation of Indian Programs is $2.4 billion, $127.9 million above 
2016. The 2017 request for Construction is $197.0 million, $3.0 million 
above 2016.
    The 2017 budget supports continuing efforts to advance self-
governance and self-determination, improve educational outcomes for 
American Indian children, support human services activities, prudently 
manage tribal natural resources, build stronger economies and self-
sufficiency, and maintain safer Indian communities.
    Key to self-governance and self-determination is full funding for 
Contract Support Costs. The 2017 request includes $278.0 million for 
Contract Support Costs, $1.0 million above 2016, which will fully fund 
these costs based on the most recent analysis. As in the 2016 enacted 
bill, the budget requests funding for Contract Support Costs in a 
separate dedicated current account. To further stabilize long-term 
funding, the 2017 budget includes a legislative proposal to reclassify 
these costs as permanent funding beginning in Fiscal Year 2018.
    The Interior budget proposes a $1.1 billion investment in Indian 
education and construction to continue to support the transformation of 
the BIE to support tribes in educating their youth, and deliver an 
improved and culturally appropriate education across Indian Country. 
The budget includes $49.3 million in increases across a number of 
programmatic areas in BIE related to the transformation.
    The budget includes $138.3 million for Education Construction, 
maintaining the $63.7 million increase provided in 2016. The request 
will provide the funding stability necessary to develop an orderly 
education construction pipeline and properly pace projects. The 2016 
enacted appropriation will replace two remaining BIE school campuses on 
the 2004 priority list--Little Singer Community School and Cove Day 
School, both in Arizona--and support planning for the schools 
identified on the new school replacement construction list nearing 
finalization. The 2017 funding will be applied to construction costs 
for projects chosen from the new list.
    To further higher education, the budget includes increases of $9.4 
million for scholarships, adult education and tribal colleges and 
universities; and $3.6 million for Johnson O'Malley education grants to 
provide additional resources to tribes and organizations to meet the 
unique and specialized educational needs of American Indian and Alaska 
Native students.
    To foster public-private partnerships to improve the student 
experience at BIE-funded schools, the 2017 budget again proposes 
appropriations language enabling the Secretary to reactivate the 
National Foundation for American Indian Education. The proposed bill 
language will initiate a foundation focused on fundraising to create 
opportunities for Indian students in and out of the classroom.
    As part of the President's commitment to protect and promote the 
development of prosperous tribal communities, Indian Affairs proposes 
to expand the Tiwahe ``family'' initiative. This effort takes an 
integrated approach to address the inter-related challenges impacting 
the lives of youth, families, and communities in Indian Country--
including poverty, violence, and substance abuse. The Tiwahe approach 
seeks to empower individuals and families through health promotion, 
family stability, and strengthening communities as a whole.
    The 2017 budget expands the Tiwahe initiative with increases 
totaling $21.0 million for programs in social services, Indian Child 
Welfare Act, housing, tribal courts, and job placement and training. To 
better focus funding and evaluate outcomes in meeting social service 
needs in Indian Country, the Department will evaluate social service 
and community development needs in Indian Country in 2016. The 
evaluation will inform programmatic design, assessments, management, 
and budgeting.
    The budget contains a number of increases to support tribal nation-
building and economic development. The budget includes $4.0 million for 
a Native One-Stop Support Center to make it easier for tribes to find 
and access hundreds of services available to tribes across the Federal 
Government. The 2017 budget includes $1.0 million to help tribes adopt 
uniform commercial codes which help build the legal infrastructure on 
reservations to promote credit and other capital transactions. The 
budget provides $12.0 million to enable Interior to work with American 
Indian/Alaskan Native communities to improve Federal data quality and 
availability, to create a reimbursable agreement with the Census Bureau 
to address data gaps in Indian Country, and to create an Office of 
Indian Affairs Policy, Program Evaluation, and Data to support 
effective, data-driven, tribal policymaking and program implementation. 
The budget also proposes $1.3 million increase for the Small and Needy 
Tribes program to assist eligible tribes in expanding and sustaining 
tribal governance.
    The 2017 budget strongly supports sustainable stewardship of trust 
lands, natural resources, and the environment in Indian Country. These 
priorities include the protection and restoration of ecosystems and 
important landscapes; stewardship of land, water, ocean, and energy 
resources; resilience in the face of a changing climate; and clean and 
sustainable energy development.
    The budget provides a $15.1 million program increase over 2016 
across eight natural resource programs to support tribes in developing 
science, tools, training, planning, and implementation of actions to 
build resilience into resource management, infrastructure, and 
community development activities. Funding will be set-aside to support 
Alaska Native Villages in the Arctic and other critically vulnerable 
communities to evaluate options for the long-term resilience of their 
communities. The budget also includes $2.0 million to address 
subsistence management in Alaska to better prepare for the impacts of 
climate change, as part of an ongoing commitment to improve the 
Nation's resilience. In addition, the budget includes a total increase 
of $8.7 million for trust real estate service activities to reinforce 
the stewardship of trust resources. The expanded capacity will address 
the probate backlog, land title and records processing, geospatial 
support needs, and database management in addition to providing 
expanded technical and legal support for authorized settlements 
involving tribal water rights.
    The 2017 budget request for Indian Land and Water Claim Settlements 
is $55.2 million, a $5.7 million increase over the 2016 enacted level 
for payments on enacted settlements.
    The budget includes $25.0 million for the final payment to the 
Aamodt settlement and $10.0 million in one-time funding to provide the 
Yurok Tribe, located in Northern California, funds to acquire lands as 
authorized in the Hoopa-Yurok Settlement Act. This acquisition supports 
efforts by the Yurok Tribe, state of California, private foundations 
and individual donors to conserve over 47,000 acres of the Klamath-
Siskiyou ecoregion to ensure the long-term health of temperate forests, 
rare wildlife, and extraordinary runs of wild salmon. The land, to be 
conserved as a salmon sanctuary and sustainable community forest, will 
restore the Yurok Tribe's historic connection to the land, support the 
Yurok economy through jobs in forestry and restoration, and provide 
revenue to the tribe through sustainable timber and salmon harvests and 
the sale of carbon credits. The budget also includes increases totaling 
$12.9 million in the Operation of Indian Programs account to provide 
expanded technical and legal support for tribal water rights settlement 
negotiations and implementation. A reduction of $29.2 million in the 
settlement account reflects completion of the Taos Pueblos water 
settlement in 2016.
    The 2017 budget request for the Indian Guaranteed Loan Program is 
$7.8 million, the same as 2016, which will provide loan guarantee and 
insurance authority for $106.0 million in loan principal to support 
Indian economic development.

    Departmental Offices--The 2017 budget request for Departmental 
Operations is $278.4 million, a decrease of $443.4 million below the 
2016 enacted level. The decrease reflects a reduction of $452.0 million 
associated with the Payments in Lieu of Taxes program. In 2017, the 
budget proposes to fund PILT as permanent funding not subject to 
appropriation. State and local governments depend on PILT funding to 
finance such vital services as firefighting and police protection, 
construction of public schools and roads, and search and rescue 
operations. Providing a mandatory source of funding will create greater 
certainty that PILT investments will be available in future years. The 
budget proposes mandatory PILT funding for 1 year, while a sustainable 
long-term funding solution is developed for the program.
    The budget proposes program increases of $1.5 million for work with 
the National Invasive Species Council to develop an Early Detection 
Rapid Response framework. Early detection and rapid response (EDRR) has 
the potential to result in significant cost savings, as compared to 
battling invasive species such as Asian carp, cheatgrass, and emerald 
ash borer once established. The EDRR request support multiple pilot 
projects to demonstrate early detection and rapid response approaches, 
as well as conducting assessments to identify current capacities and 
gaps in capacities to implement EDRR.
    The budget includes $1.0 million for Native Hawaiian community 
development through capacity building and technical assistance. This 
request will allow the Department to provide support to Native 
Hawaiians similar to the capacity building and technical assistance the 
Department provides to other Native Americans, and the Insular areas 
consistent with the Hawaiian Homes Commission Act and Hawaiian Homes 
Land Recovery Act. The Department will work with the Native Hawaiian 
community on a variety of economic, social, and cultural projects.
    The 2017 Budget includes critical investments to ensure 
effectiveness and compliance of Interior information technology 
investments. The request includes $3.0 million to develop a Digital 
Service Team responsible for driving the efficiency and effectiveness 
of the Department's highest-impact digital services. Additional 
information technology investments are proposed under the Working 
Capital Fund appropriated account.
    Within the request for Departmental Operations is $129.3 million 
for Office of Natural Resources Revenue's receipts management programs, 
$3.8 million above 2016. The increase includes $968,000 to fully fund 
Osage Trust Accounting responsibilities in compliance with the Osage 
settlement agreement; $1.0 million to expand Geospatial Information 
Systems; and $1.2 million to strengthen ONRR's audit and compliance 
mission activities.
    The 2017 request for the Office of Insular Affairs is $102.7 
million, $12.4 million above the 2016 level excluding Palau Compact 
Extension funding of $13.1 million. The 2017 budget proposes $149.0 
million in permanent funding to support enactment of a new Compact with 
Palau. The appropriated funding request includes increases of $4.0 
million for community, landscape and infrastructure adaptation and 
resilience initiatives; $3.9 million to improve health and safety 
conditions in insular school facilities; $2.0 million to implement 
energy projects; $2.0 million for Coral Reef Initiative and Natural 
Resources; $1.6 million for direct technical assistance grants; and 
$1.0 million to support invasive species eradication efforts, including 
the coconut rhinoceros beetle and little fire ant. Brown Treesnake 
Control is funded at $3.0 million, a program decrease of $500,000, 
reflecting completion of an automated aerial bait system in 2015. The 
budget requests $3.3 million for Compact of Free Association, level 
with 2016, excluding $13.1 million provided for Palau Compact Extension 
in 2016.
    The budget includes $69.4 million for the Office of the Solicitor, 
$3.6 million above 2016 to support additional personnel and necessary 
legal services for delivering the Department's mission. The Office of 
the Solicitor's ability to provide early and continuous legal counsel 
in new priority areas to ensure that developing programs are grounded 
in established legal principles and precedents is absolutely vital. The 
requested increase will allow the Office of the Solicitor to provide 
the much needed preventive assistance that is lost to the demands of 
non-discretionary litigation. The additional funding will also be used 
to restart the Honors Program, where recent law graduates are hired at 
the entry level and trained to assume senior positions. This program 
will ensure DOI has experienced lawyers as many senior staff becomes 
eligible for retirement.
    The request for the Office of the Inspector General is $55.9 
million, $5.9 million above 2016 to support audits concerning Offshore 
Energy Oversight, Indian Country, and Cybersecurity, and Offshore 
Energy Investigations.
    The Office of the Special Trustee request is $140.4 million, $1.4 
million above 2016. The budget includes increases of $1.5 million to 
provide additional estate planning opportunities to Indian Trust 
beneficiaries; $1.3 million for an appraiser training program to 
address the shortage of qualified appraisers and the resulting delays 
in completing appraisal evaluations; $1.5 million to enhance talent 
management capabilities and systems automation; and less than $400,000 
to modernize and improve business processes and enhance the Trust Funds 
Accounting System. These increases are partially offset by a $3.4 
million reduction in funding for Historical Trust Accounting based on 
anticipated workload levels.

    Department-wide Programs--The 2017 request for the Department's 
Wildland Fire Management program is $824.6 million without the proposed 
fire cap adjustment, and $1.1 billion including the adjustment. The 
base budget includes $276.3 million for fire suppression, which is 70 
percent of the 10-year suppression average spending. The cap adjustment 
of $290.0 million covers the remaining 30 percent of the 10-year 
average and provides a contingency. The cap adjustment would only be 
used for the most severe fires, since it is 2 percent of the fires that 
cause 30 percent of the costs. The new budget framework for Wildland 
Fire Management eliminates the need for additional funds through the 
FLAME Act.
    The 2017 budget includes $179.1 million for Fuels Management and 
Resilient Landscapes subactivities, $9.1 million above 2016 enacted. Of 
this, $30.0 million is proposed in a new Resilient Landscapes 
subactivity to build on resilient landscapes activities supported by 
Congress in 2015 and 2016. This equates to a $20.0 million increase for 
the program to take better advantage of the shared goals of bureau 
resource management programs to treat large landscapes to achieve and 
maintain fire-adapted ecosystems that both reduce the threat of 
catastrophic wildfire and achieve restoration and other ecological 
objectives. The increase for Resilient Landscapes is partially offset 
with a program realignment of $21.7 million in the Fuels Management 
program from 2016.
    Other highlights in the Wildland Fire Management budget include an 
increase of $6.9 million in Preparedness to maintain or strengthen 
initial and extended attack capacity. Specific increases include $2.8 
million to enhance the initial attack capability of rural fire 
departments and rural fire protection associations. The budget includes 
program increases of $1.6 million to purchase replacement vehicles for 
the BIA fire program and $1.5 million to cover utility costs for the 
Alaska Fire Service's leased space. The budget includes $20.4 million 
for Burned Area Rehabilitation, a $1.5 million increase to address 
greater post-fire rehabilitation needs caused by the 2015 and 2016 fire 
seasons; and $10.0 million for Facilities Construction and Deferred 
Maintenance, a $3.6 million increase to address the deferred 
maintenance backlog.
    The 2017 budget request for the Central Hazardous Materials Fund is 
$13.5 million, $3.5 million above 2016, to fund the remedial design for 
the Red Devil Mine cleanup in Alaska. The 2017 request for Natural 
Resource Damage Assessment and Restoration is $9.2 million, $1.5 
million above 2016 to increase restoration activities.
    The 2017 budget proposes $111.5 million for the appropriated 
portion of the Department's Working Capital Fund, $44.4 million above 
2016. The majority of the increase, $24.7 million, continues 
cybersecurity remediation in the wake of the serious cyber intrusions 
experienced during 2015. Other increases include: $10.2 million to 
support the Department's multi-year effort to implement requirements 
identified under the Digital Accountability and Transparency Act, known 
as the DATA Act, and monitor compliance; $5.2 million for the 
Department's Office Consolidation Strategy; $2.6 million to fund 
Federal Information Technology Acquisition Reform Act coordination and 
reporting activities for the Department; $1.0 million for Cultural and 
Scientific Collections; and $702,000 for Service First activities.

                         Legislative Proposals

    The 2017 President's budget includes a suite of legislative and 
offsetting collection proposals affecting spending, revenues, and 
available budget authority that require action by the congressional 
authorizing committees. These mandatory proposals address a range of 
Administration priorities, from investing in high-priority conservation 
and recreation programs to achieving a fair return to the American 
taxpayer from the sale of Federal resources and reducing unnecessary 
spending. The 2017 budget includes seven spending proposals with an 
estimated $18.0 billion in outlays over the next decade. This spending 
is partially offset by revenue and savings proposals to reduce outlays 
from the Treasury by an estimated $4.5 billion over the next decade.

    Gulf of Mexico Energy Security Act and the Coastal Climate 
Resilience Program--The Administration is committed to ensuring 
American taxpayers receive a fair return from the sale of public 
resources and taxpayers throughout the country benefit from the 
development of offshore energy resources owned by all Americans. The 
Gulf of Mexico Energy Security Act of 2006 opened some additional areas 
in the Gulf of Mexico for offshore oil and gas leasing, while 
maintaining moratoria on activities east of the Military Mission Line 
and within certain distances from the coastline of Florida. The Act 
provides that 37.5 percent of Outer Continental Shelf revenues from 
certain leases be distributed to just four coastal states--Alabama, 
Louisiana, Mississippi, and Texas--and their local governments based on 
a complex allocation formula. The Administration proposes to repeal 
GOMESA revenue-sharing payments to these select states from Gulf of 
Mexico oil and gas leases, which are set to expand substantially 
starting in 2018.
    More than half of the savings, $2.0 billion, from the repeal of 
GOMESA revenue sharing payments to states will be redirected to a new 
Coastal Climate Resilience Program to provide resources for at-risk 
coastal states, local governments, and their communities to prepare for 
and adapt to climate change. A portion of these program funds would be 
set aside to cover the unique impacts of climate change in Alaska where 
some native villages are so threatened by rising seas, coastal erosion, 
and storm surges, that they must prepare for potential relocation.

    Historic Preservation Fund--The budget includes a legislative 
proposal to extend the authority to deposit $150.0 million in receipts 
from offshore oil and gas revenues annually into the Historic 
Preservation Fund.

    Bureau of Indian Affairs Contract Support Costs--The budget 
includes a legislative proposal to reclassify funding for the existing 
Contract Support Costs program from discretionary to mandatory 
beginning in Fiscal Year 2018. The budget proposes to adjust the 
discretionary budget caps to reflect the reclassification to mandatory 
funding. New contract support cost estimates will be provided on a 3-
year cycle as part of the reauthorization process.

    POWER+ Accelerate AML Distribution for Mine Cleanup and Economic 
Recovery--The budget proposes to allocate a portion of the remaining 
unappropriated balance of the Abandoned Mine Lands Fund to target the 
cleanup and redevelopment of AML sites and AML coal mine polluted 
waters in a manner that facilitates sustainable revitalization in 
economically depressed coalfield communities. The proposal will provide 
$1.0 billion over 5 years to states based on AML program and economic 
eligibility factors--such as the unemployment rate of coal mining 
regions--and remaining priority coal problems, including abandoned mine 
drainage, where reclamation linked to job creating economic development 
strategies will help revitalize impacted communities.

    United Mineworkers of America Pension Reform--The budget proposes 
to better provide for retired coal miners and their families by 
revising the formula for general fund payments to the 1993 UMWA Health 
Benefit Plan. The new formula will consider all beneficiaries enrolled 
in the plan as of enactment, as well as those retirees whose health 
benefits were denied or reduced as the result of a bituminous coal 
industry bankruptcy proceeding commenced in 2012. Additionally, the 
proposal will transfer funds through the Pension Benefit Guaranty 
Corporation to the trustees of the 1974 UMWA Pension Plan to ensure the 
plan's long-term solvency. The plan, which covers more than 100,000 
mineworkers, is underfunded and approaching insolvency. The new formula 
will provide an additional $375.0 million to the UMWA in 2017 and $4.2 
billion over 10 years.

    Land and Water Conservation Fund--The budget proposes $900.0 
million in combined current and mandatory funding in 2017, and starting 
in 2018, the budget proposes permanent authorization of $900.0 million 
in mandatory funding for LWCF programs in the Departments of the 
Interior and Agriculture. During a transition to mandatory funding in 
2017, the budget proposes $425.0 million for mandatory funding and 
$475.0 million for current funding, to be shared by Interior and 
Agriculture.

    National Parks Centennial Act--The budget proposes enactment of 
legislation, the National Park Service Centennial Act, to honor the 
Park Service's 100th anniversary. The Act specifically authorizes the 
following: $100.0 million a year for 3 years for the Centennial 
Challenge to leverage private donations; $300.0 million a year for 3 
years for NPS deferred maintenance; and $100.0 million a year for 3 
years for a Public Lands Centennial Fund, which will competitively 
allocate funds for projects on public lands to enhance visitor services 
and outdoor recreation opportunities, restore lands, repair facilities, 
and increase energy and water efficiency. The availability of mandatory 
funding to address deferred maintenance and other conservation projects 
will allow NPS to plan ahead more efficiently to achieve significant 
results. Stable and predictable funding streams will allow projects to 
be appropriately scheduled and phased for more effective project 
delivery and completion. The proposal includes the authority to collect 
additional camping or lodging fees, and funds from purchases of the 
lifetime pass for citizens 62 years of age or older. Receipts for this 
Second Century Fund will be matched by donations in order to fund 
visitor enhancement projects. The impact of this new revenue source is 
estimated at $40.4 million in 2017. Also included is a proposal to 
establish a program to allow a Visitor Services Management Authority to 
award and manage contracts for the operation of commercial visitor 
services programs and activities.

    Federal Land Transaction Facilitation Act--The budget proposes to 
reauthorize this Act which expired on July 25, 2011, to allow lands 
identified as suitable for disposal in recent land use plans to be sold 
using this authority. The sales revenue will be used to fund the 
acquisition of environmentally sensitive lands and administrative costs 
associated with conducting the sales.

    Recreation Fee Program--The budget proposes legislation to 
permanently authorize the Federal Lands Recreation Enhancement Act, 
authorized through September 30, 2017. The program currently brings in 
an estimated $335 million in recreation fees annually under this 
authority that are used to enhance the visitor experience on Federal 
land recreation sites.

    Federal Oil and Gas Reforms--The budget includes a package of 
legislative reforms to bolster administrative actions to reform 
management of Interior's onshore and offshore oil and gas programs, 
with a key focus on improving the return to taxpayers from the sale of 
these Federal resources and on improving transparency and oversight. 
Proposed statutory and administrative changes fall into three general 
categories: advancing royalty reforms, encouraging diligent development 
of oil and gas leases, and improving revenue collection processes. 
Collectively, these reforms will generate roughly $1.7 billion in 
revenue to the Treasury over 10 years, of which $1.2 billion will 
result from statutory changes. Many states also will benefit from 
higher Federal revenue sharing payments as a result of these reforms.

    Palau Compact--On September 3, 2010, the United States and the 
Republic of Palau successfully concluded the review of the Compact of 
Free Association and signed a 15-year agreement that includes a package 
of assistance. The budget assumes authorization of mandatory funding 
for the Compact in 2017 to strengthen the foundations for economic 
development in Palau by developing public infrastructure and improving 
health care and education. The cost for this proposal for 2017-2024 is 
$149.0 million.

    Payments in Lieu of Taxes--The budget proposes to extend PILT 
mandatory funding for an additional year with the current PILT payment 
formula based on the amount of Federal land within an eligible unit of 
local government, its population, and certain other Federal payments 
the local government may receive. The cost of a 1-year extension of the 
PILT program is estimated to be $480.0 million in 2017.

    Reclamation of Abandoned Hardrock Mines--The budget proposes to 
create an Abandoned Mine Lands Program for abandoned hardrock sites 
financed through a new AML fee on hardrock production on both public 
and private lands. The fee is estimated to generate $1.8 billion 
through 2026 to reclaim the highest priority hardrock abandoned sites 
on Federal, state, tribal, and private lands.

    Reform Hardrock Mining on Federal Lands--The budget proposes to 
institute a leasing program under the Mineral Leasing Act of 1920 for 
certain hardrock minerals, including gold, silver, lead, zinc, copper, 
uranium, and molybdenum, currently covered by the General Mining Law of 
1872. Half of the receipts will be distributed to the states in which 
the leases are located and the remaining half will be deposited in the 
U.S. Treasury. The proposal is projected to generate revenues to the 
U.S. Treasury of $80.0 million over 10 years, with larger revenues 
estimated in following years.

    Return Coal Abandoned Mine Land Reclamation Fees to Historic 
Levels--The budget proposes legislation to modify the 2006 amendments 
to the Surface Mining Control and Reclamation Act, which lowered the 
per-ton coal fee companies pay into the AML Fund. The proposal would 
return the current fee of 28 cents per ton of surface mined coal to 35 
cents a ton, the same level companies paid prior to the 2006 fee 
reduction. The additional revenue, estimated at $258 million over 10 
years, will be used to reclaim high priority abandoned coal mines and 
reduce a portion of the estimated $6.0 billion needed to address 
remaining dangerous coal AML sites nationwide.

    Termination of AML Payments to Certified States--The 2017 budget 
proposes to discontinue unrestricted payments to states and tribes 
certified for completing their coal reclamation work. This proposal 
terminates all such payments with estimated savings of $520.0 million 
over the next 10 years.

    Termination of EPAct Geothermal Payments to Counties--The 2017 
budget proposes to repeal Section 224(b) of the Energy Policy Act of 
2005 to permanently discontinue payments to counties and restore the 
disposition of Federal geothermal leasing revenues to the historical 
formula of 50 percent to the states and 50 percent to the Treasury. 
This results in estimated savings of $41.0 million over 10 years.

    Bureau of Land Management Foundation--The budget proposes to 
establish a congressionally chartered National BLM Foundation to 
leverage private funding to support public lands, achieve shared 
outcomes, and focus public support on the BLM mission.

    National Foundation for American Indian Education--The budget 
proposes appropriations language enabling the Secretary to reactivate a 
foundation created by Congress in 2000 to generate private donations in 
support of the mission of the Bureau of Indian Education. The proposal 
will allow the foundation to start anew to obtain nonprofit tax exempt 
status, with a new Board of Directors focused on making the foundation 
a successful fund raising entity.

    Migratory Bird Hunting and Conservation Stamp Act--Duck Stamp--The 
budget includes a legislative proposal to provide limited authority to 
increase the price of a Duck Stamp, with the approval of the Migratory 
Bird Conservation Commission, to keep pace with inflation.

    Wildland Fire Suppression Disaster Cap Adjustment--The budget 
proposes to amend the Balanced Budget and Emergency Deficit Control Act 
to establish a new framework for funding Fire Suppression Operations to 
provide stable funding, while minimizing the adverse impacts of fire 
transfers on the budgets of other programs. Under this new framework, 
the 2017 budget request covers 70 percent of the 10-year suppression 
average within the domestic discretionary cap or $276.3 million for the 
Department of the Interior. This base level ensures the cap adjustment 
will only be used for the most severe fire activity as 2 percent of the 
fires incur 30 percent of the costs. Only extreme fires that require 
emergency response or are near urban areas or activities during 
abnormally active fire seasons--which rightly should be considered 
disasters--will be permitted to be funded through the adjustment to the 
discretionary spending limits. For 2017, the request for the budget cap 
adjustment for the Department is $290.0 million. The cap adjustment 
does not increase overall spending, as the ceiling for the existing 
disaster relief cap will be reduced by the same amount as the increase 
required for fire suppression.

                    Offsetting Collections and Fees

    Bureau of Ocean Energy Management Risk Management Fee--The budget 
proposes appropriations language for a new cost recovery fee to recoup 
funds for services rendered by the Risk Management Program. The program 
is critical to protecting the American taxpayer from becoming 
financially responsible for liabilities associated with oil and gas and 
renewable energy operations on the Outer Continental Shelf. This 
proposed fee will generate an estimated $2.9 million annually, fully 
offsetting the requested risk management programmatic increase in 2017.

    Bureau of Safety and Environmental Enforcement Inspection Fee--The 
budget includes appropriations language modifying and expanding the 
enacted inspection fee language to clarify that facilities subject to 
multiple inspections are subject to additional fees for each 
inspection. The BSEE estimates the inspection fees will generate $65.0 
million in 2017.

    Fee for Onshore Oil and Gas Inspections--Through appropriations 
language, Interior proposes to implement inspection fees in 2017 for 
onshore oil and gas activities subject to inspection by BLM. The 
proposed inspection fees are expected to generate $48.0 million in 
2017, level with 2016. The fees are similar to those already in place 
for offshore operations and will support Federal efforts to increase 
production accountability, safety, and environmental protection.

    Grazing Administrative Fee--The budget proposes a grazing 
administrative fee to offset costs to administer the program. The 
budget proposes to implement a fee of $2.50 per animal unit month 
through appropriations language on a pilot basis. Interior estimates 
the fee will generate $16.5 million in 2017 to support the Rangeland 
Management program at the 2016 level. During the period of the pilot, 
BLM will work to promulgate regulations to continue this cost recovery 
fee administratively, once the pilot expires.

    National Wildlife Refuge Damage Cost Recovery--The budget includes 
appropriations language to authorize the Fish and Wildlife Service to 
retain recoveries for the cost to restore or replace damaged habitat 
from responsible parties.

                               Conclusion

    Thank you for the opportunity to testify on the President's 2017 
budget request for the Department of the Interior. This budget is 
responsible, and proposes to maintain core capabilities with targeted 
investments to advance the stewardship of lands and resources, 
renewable energy, oil and gas development and reforms, water 
conservation, youth employment and engagement, and improvements in the 
quality of life in Indian communities. I thank you again for your 
continued support of the Department's mission. I look forward to 
answering questions about this budget. This concludes my written 
statement.

                                 ______
                                 

Questions Submitted for the Record to the Hon. Sally Jewell, Secretary, 
                       Department of the Interior
       Questions Submitted by Subcommittee on Federal Lands Staff
    Question 1. How much collectively, are your agencies requesting to 
address deferred maintenance? With that requested amount, will the 
backlog go up, down, or stay the same? Why?

    Answer. The Department of the Interior owns and operates over 
110,000 buildings and structures, more than 100,000 miles of public 
roads, and a wide variety of other constructed assets such as dams, 
irrigation systems, and trails. These facilities serve nearly 500 
million visitors annually, provide schooling for approximately 46,000 
Native American children, and are a place of work for Interior 
employees. The current replacement value of these assets exceeds $240 
billion. As the steward of these assets, Interior is committed to 
improving the condition of these existing facilities and making the 
capital investments in facilities that are critical to its mission.
    In the 2017 President's Budget, the Department requested a total of 
over $1.4 billion in discretionary funding for maintenance needs across 
Interior's bureaus and offices. The budget estimates that an additional 
$133.2 million in recreation fees will be directed toward maintenance 
in 2017.
    Roughly half of the deferred maintenance backlog is attributable to 
roads, bridges and tunnels--critical infrastructure that has been 
historically funded through Interior's discretionary appropriation and 
through Title 23 mandatory funding. The recently authorized Fixing 
America's Surface Transportation Act (FAST Act) will provide this 
mandatory funding from 2016 through 2020 for federally owned roads 
through the Federal Lands Transportation Program. In 2017, this equates 
to $276 million for the National Park Service, $30 million for the Fish 
and Wildlife Service, and $22 million in competitively awarded funds 
for other agencies, including the Bureaus of Land Management and 
Reclamation. In addition, the Tribal Transportation Program, operated 
jointly by the Federal Highway Administration and the Bureau of Indian 
Affairs (BIA), will provide $475 million for roads that provide access 
to tribal lands or are owned by tribes or the BIA.
    While these represent significant investments in maintenance 
funding across the Department, the magnitude of the need is high as 
well. At the beginning of FY 2015, deferred maintenance for all DOI 
bureaus was reported as $15.6 billion. At the end of FY 2015, this had 
grown to $16.1 billion. While Interior employs strategies such as a 5-
year capital planning process to ensure that funding is directed toward 
the highest priority projects, we do not foresee a reduction in the 
total amount of deferred maintenance in the near future.

    Question 2. According to DOI, over the last 5 years 99 percent of 
the Department's acquisitions were inholdings, already within existing 
park or wildlife refuge units.

    2a. What percentage of the total acquisitions over the last 5 years 
using LWCF money have been inholdings, meaning a parcel that directly 
abuts Federal land on at lease majority of its border?

    Answer. Over the last 5 years, 99 percent of the Federal lands 
acquired by with LWCF funds were inholdings, lands within the 
authorized boundaries of a conservation unit, such as a national park 
or wildlife refuge. Acquisition of inholdings can reduce maintenance 
and management costs by decreasing boundary conflicts, simplifying 
resource management activities, and facilitating access to and through 
public lands. Since 2011, Congress has appropriated funding for four 
projects where acquisitions did not lie completely within the boundary 
of an existing conservation unit at the time of the appropriation, but 
were adjacent to or bisected by the boundary (known as 
``edgeholdings''). In all instances, acquisitions using LWCF funding 
were authorized by the LWCF Act and by congressional appropriations.

    2b. What percentage of the total acquisitions using LWCF money have 
been used to acquire land that does not border existing Federal land at 
all, but is within a Federal management area, like a Park Service Unit 
or Wildlife Refuge?

    Answer. As noted above, over the last 5 years, 99 percent of the 
Federal lands acquired by with LWCF funds were inholdings, lands within 
the authorized boundaries of a conservation unit, such as a national 
park or wildlife refuge. Acquisition of inholdings can reduce 
maintenance and management costs by decreasing boundary conflicts, 
simplifying resource management activities, and facilitating access to 
and through public lands. Since 2011, Congress has appropriated funding 
for four projects where acquisitions did not lie completely within the 
boundary of an existing conservation unit at the time of the 
appropriation, but were adjacent to or bisected by the boundary (known 
as ``edgeholdings''). In all instances, acquisitions using LWCF funding 
were authorized by the LWCF Act and by congressional appropriations.
    We also note that land within a conservation unit need not adjoin 
existing Federal land to achieve resource protection goals. For 
example, certain federally listed species occur only on specific sites, 
and do not require large contiguous blocks of habitat. A FWS refuge's 
acquisition boundary might contain 10 different sites that support 
self-sustaining or potentially self-sustaining populations of a 
federally listed species, and the FWS may want to acquire all of these 
separate sites, in fee or easement. In such instances, it may not be 
necessary or cost-effective to acquire even more land simply to connect 
these sites to existing Federal land.

    2c. If land, purchased with LWCF funding, is acquired by the 
Federal Government for recreational purposes, does DOI commit to 
building trailheads, infrastructure, and other recreational facilities 
on that parcel?

    Answer. If the Department purchases land for recreational purposes 
using LWCF funds, there is an implicit commitment that we will develop 
the appropriate infrastructure needed for public use and enjoyment of 
the land. However, land purchased for passive recreational purposes may 
not need much infrastructure. Locally developed management plans for 
each park or refuge determine the future use of the acquired lands and 
what, if any, visitor facilities should be placed on the land.

    2d. Does DOI have any ability to account for and assure 
recreational use of a parcel or easement after it has been acquired 
using LWCF dollars? If no, how can you be sure that it is being used 
for that purpose?

    Answer. Yes. If land or an easement has been acquired for 
recreational purposes, Department will manage the lands in accordance 
with the local management plans of the BLM, FWS and NPS.
    In fact, when considering a parcel for acquisition, FLPMA requires 
that the acquisition be consistent with any approved land use plan and 
the LWCF evaluation process seeks to build on recreational 
opportunities for the public in the use and enjoyment of their public 
lands. Through BLM's record notation system, LR2000 and Master Title 
Plats, BLM flags parcels that are acquired with LWCF and therefore, not 
available for disposal.
    Similarly, when the FWS, with a mission to work with others to 
conserve, protect, and enhance fish, wildlife, and plants and their 
habitats for the continuing benefit of the American people, acquires 
land in fee, the land becomes part of the fabric of the refuge, and is 
managed in accordance with the refuge's overall Comprehensive 
Conservation Plan. If the stated purpose of a refuge is compatible with 
wildlife-dependent recreation, the refuge is typically open to the 
public. While the vast majority of refuges are open to the public for 
wildlife-dependent recreation, there are instances where portions of a 
refuge or an entire refuge cannot be opened for recreation because 
recreational activity would be unsafe or would jeopardize fragile 
wildlife habitat. Furthermore, the FWS acquires the minimum interest 
necessary to reach management objectives. Therefore, acquisition of 
conservation easements may be the best option for the FWS and the 
community. However, easements may not permit public recreation if 
property owners do not wish to have people on their land, especially if 
the landowners are still actively farming the land or using the land 
for livestock.
    And finally, the NPS provides for visitor enjoyment of the 
resources located within each of the units of the National Park System. 
If a national park unit includes lands that were purchased with LWCF 
funds specifically for recreational purposes, the management plan would 
reflect that. NPS maintains records of visitation for each unit.

    2e. How much of DOI's deferred maintenance backlog can be 
attributed to lands acquired using LWCF funding?

    Answer. Acquisition of land utilizing LWCF funding does not 
significantly contribute to the Department's deferred maintenance 
backlog. For example in the FY 2016 NPS request, only 11 of the 40 
line-item land acquisition requests anticipate costs for operations and 
maintenance of the lands, while 9 project savings and 20 are neutral. 
In the FY 2017 NPS request, 1 of the 32 requests has structures that 
will be maintained. Furthermore, acquisition of inholdings can reduce 
maintenance and management costs by decreasing boundary conflicts, 
simplifying resource management activities, and facilitating access to 
and through public lands.

    2f. When DOI agencies purchase land using LWCF money, does it 
commit to performing short- or long-term maintenance on that parcel?

    Answer. When the Department's agencies acquire land by any means, 
those agencies become responsible for the acquired lands. The 
Department is committed to the long-term management of Federal lands. 
We also note that BLM generally avoids acquisition of land encumbered 
with facilities, and, more often than not, the parcels acquired within 
specially designated areas require no additional maintenance and 
provide the ability to more efficiently manage the landscape. 
Similarly, when FWS acquires property in fee, it manages the property 
as wildlife habitat and typically incurs no annual maintenance costs. 
And, for the NPS, the need to protect and preserve the resources and 
enhance visitor safety and satisfaction within units of the National 
Park System will determine what, if any, maintenance will be performed.

    2g. What percentage of lands and easements acquired with LWCF money 
in the last 15 years was purchased from a land trust or other non-
governmental organization?

    Answer. For the NPS, from January 1, 2000, through March, 2016, 
9,690 tracts were acquired by all methods. Of that, 539 tracts (or 5.5 
percent) were purchased from non-governmental organizations.
    For the FWS, purchases from non-governmental organizations 
represent approximately 30 percent of total acres (169,574 of 571,255 
acres) and 39 percent ($241,272,046 of $620,329,745) of the LWCF 
project funding over the last 15 years.

    2h. What percentage of lands and easements acquired with LWCF money 
in the last 15 years was purchased in tandem with funds provided by a 
land trust or other non-governmental organization?
    Answer. The Department does not separately track the percentage of 
lands and easements acquired with LWCF that are purchased in tandem 
with funds provided by a land trust or other non-governmental 
organization. In many cases, non-governmental organizations purchase 
lands that may otherwise be lost for conservation purposes and hold 
those lands until Federal agencies secure appropriations to acquire the 
land.

    Question 3. The ESA requires the Secretary to conduct, at least 
once every 5 years, a review of all species included on the list of 
threatened and endangered species and determine whether any such 
species should be delisted, downlisted, or uplisted.
    How many status reviews has the Service budgeted for Fiscal Year 
2017, and what is the estimated cost?

    Answer. The Service conducts 5-year reviews in every fiscal year, 
but the number of reviews completed varies based on workload and 
priorities. Recovery planning, implementation, and monitoring, as well 
as proposed and final downlisting and delisting rules are funded with 
the same recovery subactivity in the budget; in some years, those 
activities may take priority over 5-year reviews. We do not budget for 
5-year reviews separately and thus have not developed an estimate of 
the number of reviews or total cost for this particular activity.

    Question 4. According to you, this Administration has delisted more 
``recovered'' species than any other since the ESA was enacted. 
According to the Fish & Wildlife Service's FY 2017 budget 
justification, approximately 49 species have 5-year reviews that 
recommend downlisting or delisting. Millions of dollars have been 
allocated to the Service for conservation and restoration activities in 
previous years, which covers de-listing and downlisting activities.

    4a. Why haven't those de-listings and downlisting taken place?

    Answer. One of the major goals of the Endangered Species Act is to 
minimize or remove the threats that led to a species listing so that it 
can be delisted or reclassified--or downlisted--from ``Endangered'' to 
``Threatened.'' The development of a recovery plan is one of the first 
steps toward meeting that goal. Recovery plans help guide and measure 
the progress of the recovery process. The Endangered Species Act, 
directs FWS to develop and facilitate implementation of recovery plans 
for listed species, monitor the implementation and effectiveness of 
recovery actions, review the status of each species at least every 5 
years, develop rules for reclassification and delisting of species 
whose status has improved, and evaluate and respond to petitions to 
delist or reclassify species. All of these require close coordination 
with our partners as well as sufficient time to monitor and implement 
adaptive management. Given the growing number of listed species and the 
resources available, the Recovery Program must make difficult trade-
offs among the activities identified above, all of which are important 
for achieving recovery of listed species. The Service's FY 2017 budget 
request would direct additional funds toward the proposed or final 
rules based on the 5-year review recommendations.

    4b. When will the Service take action on those 49 species?

    Answer. The Service plans to pursue downlisting or delisting for 
the 49 species as soon as possible within available resources and based 
on the trade-offs among the varying priority recovery actions.

    4c. How does the Service define the backlog of delistings and 
downlistings? For instance, how much time has to pass before a 
potential delisting or downlisting is considered backlogged?

    Answer. ``Backlog'' is a term of art, not one derived from the 
language of the Act. In this context, it refers to the species for 
which a 5-year review has recommended that a delisting or downlisting 
proposal is warranted, but for which the Service has yet to initiate 
such a rulemaking.

    Question 5. Your department recently finalized rules under the ESA 
that would allow it to designate critical habitat in areas that are not 
only unoccupied, but that never have been occupied, with the 
supposition that you would designate them because they may be needed in 
the future for the species based upon climate change related 
expectations. The rule essentially allows the Service to designate 
critical habitat in areas where a species has never lived. It appears 
as if the rule asserts authority that is entirely untethered from the 
authority granted by Congress in the Act itself.

    5a. Do you believe Congress ever intended the Secretary to have the 
authority to designate habitat where a species has never lived simply 
because you may believe that at some future point that area might be 
needed because of climate change or habitat adaptation?

    Answer. The Act expressly allows for the consideration and 
inclusion of unoccupied habitat in a critical habitat designation if 
such habitat is determined to be essential for the conservation of the 
species. The FWS determines whether unoccupied areas are essential for 
the conservation of the species by considering the best available 
scientific data regarding the life-history, status, and conservation 
needs of the species.
    There have been specific circumstances, as discussed in our final 
rule, where data show or predict a shift in habitat availability or use 
by a species in response to the effects of climate change. An example 
might be a landward shift in tidal marsh habitat as a result of 
predicted sea level rise. In cases where the best scientific data 
available indicate that a species may be shifting habitats or habitat 
use, it is permissible to include specific areas accommodating these 
changes in a designation, provided that the Services can explain why 
the areas meet the definition of ``critical habitat.'' The data and 
rationale on which such a designation is based will be clearly 
articulated in our proposed rule designating critical habitat.

    5b. Do you believe that these rules will lead to a significant 
increase in the amount of critical habitat designated by the Service?

    Answer. No, the changes to the regulation are not expected to 
significantly expand the areas included in any particular critical 
habitat designation. We expect that the concurrent evaluation of 
occupied and unoccupied areas for a critical habitat designation will 
allow us to develop better designations that can serve as more 
effective conservation tools, focusing conservation resources where 
needed and minimizing regulatory burdens where not necessary.

    5c. Does the Service have the resources to manage an upsurge in the 
amount of overall critical habitat for listed species?

    Answer. As stated above, we do not expect the changes to the 
regulation to significantly expand the area included in any particular 
critical habitat designation.

    Question 6. Despite the fact that the Service has requested over 
millions of dollars to acquire thousands of acres of land, the agency 
has proposed to eliminate the discretionary portion the National 
Wildlife Refuge Fund, which provides revenue sharing payments to 
counties with National Wildlife Refuge System (NWRS) lands. According 
to the Service's budget justification, ``[r]efuges often generate tax 
revenue for communities far in excess of that which was lost with 
Federal acquisition of the land.''

    6a. How much economic development is generated from NWRS lands per 
acre?

    Answer. The Service has not done a per acre analysis, however, 
according to the Service's 2013 Banking on Nature Report, 47 million 
people who visited refuges in 2012 contributed a total of $2.4 billion 
of sales to nearby local economies.

    6b. What is the return on investment of the NWRS, in terms of money 
appropriated to manage the system and revenue generated?

    Answer. The Service's 2013 Banking on Nature Report estimated that 
refuge visitors generated $342.9 million in tax revenues and $2.4 
billion of sales in 2012 in a year that the NWRS was appropriated 
$485.7 million. This represents a [5:1] return on investment for every 
Federal dollar expended. The 2016 appropriation to manage the National 
Wildlife Refuge System was $481.4 million, but at this time, there is 
no estimate of what the return on that investment will be.

    Question 7. Currently, there are over 64,000 wild horse and burros 
on Federal lands with nearly 50,000 in long-term holding facilities. In 
FY 2015, the BLM spent $75.2 million on the horse and burro program. 
Taxpayer dollars were used to remove a small number of horses from the 
rangelands ($1.8 million), adopt out approximately 2,000 horses ($6.3 
million), and care for horses and burro in long- and short-term holding 
facilities ($49.4 million). Costs continue to increase every year, as 
horse and burro populations continue to grow.

    7a. Does the BLM have a plan to address the unsustainable horse and 
burro program and return population levels to the appropriate 
management level (AML) of 27,000 animals as established in law?

    7b. Why is BLM not keeping up with required appropriate management 
levels?

    7c. Is BLM removing a sufficient number of animals from the range 
to keep up?

    7d. Does BLM have capacity at its short- and long-term holding 
facilities?

    7e. If so, why are more animals not being removed from the range 
and placed in holding? BLM has received substantial funding level 
increases in the last several years to do so.

    Answer. BLM faces many challenges in managing wild horse and burro 
populations on public rangelands, including a rapid population growth 
rate and no natural predators. Costs also continue to increase, for 
both pasture and holding facilities, and adoptions have steadily 
declined since the early 2000s, increasing the number of animals in 
off-range holding corrals.
    BLM is now managing more than twice as many horses on the western 
rangelands as is recommended for a healthy balance between horses, 
wildlife, cattle, and other resources. Horses that are removed from the 
range, but remain in the care of the agency at a cost to the American 
taxpayer of nearly $50,000 per animal over the animal's lifetime; put 
simply, the costs of this program are substantial and unsustainable.
    On-range annual population increases are substantially greater than 
the number that the BLM removes each year. The Program is currently 
limiting removals to 3,500 per year, about the same number that leave 
holding facilities annually through adoptions, sales, and mortality 
attrition. Financial resources are not adequate to care for greater 
numbers of animals than are currently in off-range facilities.
    With more than 100,000 horses in BLM's care both on and off the 
range, the agency is redoubling its efforts to reduce the number of 
horses in holding facilities. The BLM aims to reduce that cost by 
moving more animals from long-term corrals to contracted pasture 
spaces, which are more cost effective and would reduce the lifetime 
cost of caring for an unadopted animal. However, we recognize that this 
is only part of the solution. The FY 2017 budget request supports new, 
innovative efforts to secure safe and cost-effective placement for 
unadopted animals, which will work in tandem with more proactive 
efforts beginning in 2016 to better manage the overpopulation problem. 
In addition to expanding use of contraceptives and spay and neuter 
treatments, the BLM is proposing legislation to better facilitate the 
transfer of animals to other public entities, including local, state, 
and Federal Government agencies.

    Question 8. Just a few weeks ago, the Federal grazing fee was 
raised by the maximum 25 percent allowed by law in any given year.

    8a. Please provide the data that was used to support this price 
increase.

    8b. How old is the livestock price, cost of livestock production, 
and private leasing rate data used in the equation?

    Answer. Grazing fees are set yearly under authority of the Public 
Rangelands Improvement Act of 1978. The formula used for calculating 
the fee has been continuously applied under a Presidential Executive 
Order issued in 1986. The fee is computed by using a 1966 base value of 
$1.23 per animal unit month/head month and is calculated according to 
three market-driven factors--current private grazing land lease rates, 
beef cattle prices, and the cost of livestock production. The fee 
adjusts up or down based on market conditions.

    Question 9. In this budget request, the Department has proposed a 
$2.50 fee for grazing on Federal lands, which is in addition to the 
annual grazing fee, according to the formula set by law. How did the 
Administration come up with the $2.50 amount for this additional fee?

    Answer. The goal of the fee is to recover some of the costs of 
administering the permits and leases of the grazing program from 
parties who benefit from the use of the public lands and resources. In 
2017, the administrative fee would generate $16.5 million, which would 
fully offset a reduction of $16.5 million in requested appropriations 
for the Rangeland Management program.

    Question 10. We understand that land management agencies are 
working to refurbish the Federal Government's campsite booking Web 
site, Recreation.gov, which hosts virtually all online booking for the 
National Park Service, U.S. Fish and Wildlife Service, Bureau of 
Reclamation, and U.S. Forest Service campgrounds, and even many of the 
Army Corps of Engineers facilities.

    10a. What is the Department of the Interior doing to ensure that 
any improvements to the online reservation system do not risk ending up 
with missed deadlines and rollout delays caused by mismanagement and 
untested products or custom created software?

    Answer. The Recreation.gov contract is funded entirely by revenues 
generated from the recreation fees and reservation fees charged to 
visitors who make reservations. The current contract that provides the 
reservation and trip planning service for Recreation.gov is nearing the 
end of the period of performance. The current contract will be extended 
as needed to ensure that there is no disruption of service.
    The Recreation One-Stop (R1S) program has been conducting market 
research for over 2 years in order to identify emerging technologies 
and additional vendors who can provide the kind of service that meets 
modern customer expectations.
    The R1S program has adopted the tenets laid out in the U.S. Digital 
Services Playbook in which we will employ `Agile' software development 
principles and processes. Agile development is the new norm in the 
private sector and, by following its best practices, we aim to provide 
a superior service and user-friendly customer experience. This will 
entail face-to-face meetings with the contractor's program management 
and software development teams. We intend to work in short `sprints' to 
write, test, and deploy usable code that will provide all of the tools 
for trip planning, reservations, financial processing, reporting, 
design and customer service. As sprints are completed, we will test 
each portion of the code to ensure that it meets the government's needs 
and public expectations. Code that does not pass testing will be 
immediately returned to the backlog for correction. By using this 
method, the R1S program will be involved at every step to ensure that 
we do not end up with an unusable product when it is time to 
transition. The public and many other stakeholders will be involved in 
the development and testing throughout this process to ensure that we 
are able to deliver what the public wants. The contract requirements 
include the highest levels of information security, privacy protection, 
secure financial processing, and compliance with all applicable laws 
and regulations pertaining to government IT services.

    10b. As a way to ensure data security indeed does meet the highest 
standard, will you be using vendors who are Payment Card Industry Data 
Security Standard (PCI) compliant?

    Answer. Payment Card Industry Data Security Standard (PCI) 
compliance is an absolute requirement in the new (and current) 
contract. With the number of credit card transactions processed, the 
contractor's system is required to meet the highest level of PCI 
compliance. The contractor must also deliver security that ensures 
compliance with Federal Risk and Authorization Program (FedRAMP), 
Federal Information Processing Standards (FIPS), Federal Information 
Security Management Act (FISMA), and the Privacy Act.

    Question 11. While many land management agency units are available 
as part of Recreation.gov, we know there are additional units that 
could benefit from additional exposure. What are doing to make sure 
more of your units are able to be part of the Recreation.gov system and 
what are the time frames for bringing them online?

    Answer. Recreation.gov currently hosts reservation services for 
over 3,200 locations which include campgrounds, picnic shelters, 
cabins, lookouts, yurts, tour ticketing, event lotteries, and a variety 
of wilderness permits. More locations continue to be added every year. 
When the system was launched in 2006, the primary focus was to provide 
reservations for basic front country campgrounds. Since that time, the 
R1S program recognized the need to expand the service to cover many 
different types of facilities and activities. This was one of the 
driving factors in moving to a more agile approach that affords the 
agencies the flexibility to use the platform for a wide variety of 
facilities and activities.
    The R1S program expects that, upon launch of a new contract, the 
service will be able to support many more operations; this should 
facilitate the incorporation of reservation services more broadly. The 
new contract also requires that the contractor proactively `market' the 
service to all agencies where it is appropriate. This includes offering 
Web services which can improve the efficiency and effectiveness of 
local operations.

    Question 12. In September 2015 there was a paid ticketed for-profit 
music event held on the National Mall called the Landmark Music 
Festival. The event was marketed as an event to raise awareness and 
revenue to support the restoration and preservation of the National 
Mall. As noted in a Washington Post article, dated September 22, 2015, 
questions were raised about how this for-profit event was developed and 
structured. We know that the National Park Service is seeking to expand 
its use of public-private partnerships to help reduce the deferred 
maintenance backlog and supplement funding for the National Mall, which 
is something we support. However, we also believe it is essential that 
the Park Service creates those partnerships in a fair and transparent 
manner that maximizes return to the Parks for the use of the National 
Mall.

    12a. As this was the first event of its kind, can you describe the 
bidding process that occurred for this event?

    12b. How many vendors competed to host the event?

    12c. Who at the Park Service gave permission to hold a for-profit 
event on the National Mall?

    12d. How does the Park Service intend to manage these types of for-
profit events on the National Mall in the future?

    Answer. The 2015 Landmark Music Festival was organized and 
sponsored by the Trust for the National Mall (the Trust), the primary 
philanthropic partner of the National Mall and Memorial Parks. While it 
was a paid ticketed event, it was not a ``for-profit'' event. The 
intent of the event was to connect a younger and diverse population to 
national parks, and for the Trust to raise funds to support their 
mission to preserve and revitalize the National Mall. As this event was 
held by the Trust, the Trust retained responsibilities associated with 
its implementation, including any bidding or competitive process to 
organize or promote the event. The NPS was not involved in any of these 
activities.
    The Trust applied for and received a special event permit as 
outlined in the process described by 36 C.F.R. Sec. 7.96(g) and NPS' 
Management Policies 2006: A ticketed event may be permitted in 
specially designated locations if the superintendent determines that 
(1) there is a meaningful association between the park and the event, 
and (2) the event will contribute to visitor understanding of the 
significance of the park. In this case, it was determined by the park 
superintendent that West Potomac Park could be used for a ticketed 
music event because the event satisfied the above criteria. As the 
primary partner responsible for raising awareness and funds for the 
National Mall and Memorial Parks, the Trust was in a unique position to 
satisfy these criteria.
    While it was deemed appropriate in this instance for the concert to 
occur in West Potomac Park, we believe that activities on the Mall and 
within the memorial core must remain free and open to the public. 
Future applications for special event permits will be reviewed against 
the criteria listed above.

    Question 13. The National Park Service and the Department of 
Interior are in the process of planning for the 2017 Presidential 
Inauguration. Unfortunately, there has been a lack of real progress on 
a permanent installation of a distributed antenna system on the 
National Mall to ensure cell phone connectivity during large events. 
The Pope's recent visit to DC again highlighted the failure of the 
telecommunications system on the National Mall and despite best efforts 
by the wireless carriers to boost capacity by bringing in temporary 
antennas, or Cell on Wheels, the National Mall continues to be a dead 
zone during large events. The lack of cell coverage is more than merely 
an inconvenience as most Americas now rely on cell connectivity to 
communicate, download information and learn about their surroundings 
and lack of coverage could be disastrous in an emergency situation. I 
think we can all agree that Americans should be able to use their cell 
phones in their Front Yard.

    13a. As such, how is the Department of Interior and the National 
Park Service planning to ensure cell connectivity during the 2017 
Inauguration?

    Answer. The NPS recognizes the complications with cellular service 
that arose during the 2009 Presidential Inauguration. In an effort to 
avoid lapses in service for park visitors, the NPS took additional 
steps during the 2013 Inauguration as well as during the Pope's visit 
in 2015 to ensure adequate cellular service coverage. The NPS will 
continue to use strategic placement of COWs (Cell on Wheels) as an 
interim strategy that can be used to serve park visitors until a 
comprehensive Distributed Antenna System (DAS) can be permanently 
installed.
    In addition, the NPS is working with multiple partners to provide 
free Wi-Fi service at several locations on the Mall, including the 
World War II Memorial, the Korean War Veterans Memorial, and the 
Washington Monument. The Wi-Fi systems provide less expansive coverage 
and less bandwidth than a DAS system but they require less substantial 
infrastructure and installation is virtually invisible. The first of 
these systems should be functioning within a few months.

    13b. What is the status of the Distributed Antenna System for the 
National Mall?

    Answer. The NPS issued a Request for Information (RFI) in 2014 so 
that it might better understand the potential benefit of deploying a 
Distributed Antenna System (DAS) and the likely impact of its 
installation on the treasured landscape of the National Mall. The NPS 
is reviewing the multiple responses to the RFI, and it is evident that 
installation of a DAS will require an exacting design effort, 
substantial environmental and historic preservation compliance, and 
approvals from the Commission of Fine Arts and the National Capital 
Planning Commission.
    In concert with the technical review of RFI submissions, the NPS is 
working to address several critical issues for the installation of a 
DAS, including determination of the appropriate method of authorization 
(lease, concession, permit, or commercial use authorization), and 
coordination with Mall ``neighbors'' (the Smithsonian Institution and 
the Architect of the Capitol). A survey of potential equipment 
locations on the Mall has been undertaken to assist in the 
identification of feasible locations for equipment installation. The 
NPS is also exploring cooperation with the District of Columbia 
Government to leverage the District's existing and substantial fiber 
optic infrastructure.
Questions Submitted by Subcommittee on Oversight & Investigations Staff
    Question 14. The recent proposal to down list of the Florida 
manatee from endangered to threatened creates the possibility for the 
Fish and Wildlife Service (FWS) to use section 4(d) of the Endangered 
Species Act to create a rule that would allow the taking of manatees.
    Given that the Environmental Protection Agency (EPA) concluded that 
the Clean Power Plan would not have any effect on the Florida manatee, 
can you commit to not issuing a 4(d) rule that would allow for harming 
or otherwise ``taking'' manatees under the ESA as a result of the loss 
of warm water sanctuaries caused by the closure of coal-fired power 
generation facilities?

    Answer. It is correct that the ESA provides greater flexibility 
when it comes to authorizing incidental take for threatened species. 
Should the Service reclassify the West Indian manatee to threatened, 
the agency currently has no plans to publish an accompanying 4(d) rule.

    Question 15. On November 3, 2015 the President issued a memorandum 
on mitigation of resource impacts related to development and 
permitting. The memorandum instructs the Interior Department and other 
agencies to issue new regulations emphasizing compensatory mitigation 
as well as a new standard of a ``net benefit or at minimum, no net 
loss'' for resources that are ``important, scarce, or sensitive'' or 
possess ``irreplaceable character.'' The Administration has stated that 
one goal of this policy is consistency across agencies regarding 
mitigation. However, officials from the Council on Environmental 
Quality and the Department of Interior told committee staff during a 
recent briefing that each agency will define the parameters of terms 
like ``important,'' ``scarce,'' ``sensitive,'' or ``irreplaceable'' in 
each of their respective regulations and be allowed to define the terms 
as they see fit.
    Are you concerned that each agency writing its own parameters or 
definitions could result in inconsistent parameters or definitions?

    Answer. A main objective of updating mitigation policies is to 
promote more consistency across and within the Department's bureaus as 
to how the steps of the mitigation hierarchy are implemented and in the 
development of mitigation recommendations and requirements. These 
documents create consistency in how bureaus implement mitigation in a 
number of important ways, including the use of a compensatory 
mitigation goal; a clear and stated preference when selecting between 
compensatory mitigation providers; use of standardized definitions and 
terms; and adherence to a consistent set of standards to ensure 
equivalency among compensatory mitigation providers.
    One area where standardization was not intended is when determining 
what resources require mitigation. The Department's bureaus are 
responsible for managing different resources, for different uses, under 
a range of specific authorities. The use of terms such as 
``importance,'' ``scarcity,'' ``sensitivity,'' or ``irreplaceable'' are 
meant as parameters to guide bureaus and offices in making similar 
decisions about what types resources may require mitigation, not what 
specific resources should be targeted. Where multiple bureaus and 
offices have responsibility in managing a particular resource, the use 
of a landscape-scale approach to planning and permitting allows for 
more integrated and consistent management, including in the application 
of mitigation.

    Question 16. In 2012, the OIG issued a report highlighting critical 
problems with BLM's management of its wind and solar programs, 
specifically with regards to the adequacy and management of the bonds 
BLM requires for those projects on Federal land. Three years later, GAO 
looked at the same program and found that many of the same problems 
still had not been addressed. Addressing findings in the GAO report, it 
is sufficient to say that BLM is not ensuring that the bonds it 
receives are adequate to cover reclamation costs if a renewable project 
is abandoned, BLM is not reviewing bonds regularly, and BLM is not 
responsibly tracking the bonds to make sure they're not lost--or 
accidentally shredded, as GAO reported.
    The Oversight and Investigations Subcommittee held a hearing when 
the GAO report came out to shine a light on these problems and prompt 
BLM to address them. However, over 6 months later, BLM still has not 
fully implemented GAO's recommendations. Additionally, the same 
official who was responsible for implementing the OIG's recommendations 
back in 2012 is still in his post as BLM's Assistant Director for 
Energy, Minerals, and Realty.
    Why has the person responsible for fixing these problems not been 
held accountable after almost 4 years and when will BLM fully comply 
with GAO's recommendations on this issue?

    Answer. As BLM has indicated to the subcommittee, the bureau has 
made significant progress in ensuring that its bonding policies and 
procedures are being followed. It has issued a series of instruction 
memoranda to address GAO recommendations and initiated a field office 
review of all solar and wind energy authorizations that require bonds 
to ensure adequate bonds are in place to cover up-to-date reclamation 
cost estimates. Moreover, finalization and implementation of the 
competitive solar and wind leasing rule, anticipated to take place in 
2016, will address the last of GAO's recommendations for the program.

    Question 17. During a Senate Energy and Natural Resources Committee 
hearing in February, you were was asked about OSM's need to re-engage 
states and local stakeholders in the rulemaking process for the Stream 
Protection Rule. Your answer to this question was that ``OSM is 
engaging with states at that point'', that ``states were engaged 
early'', and that ``[the states'] input was taken.'' One hearing this 
testimony would think nothing at all was the matter with OSM's 
rulemaking process even though it has repeatedly excluded the states.
    Last year, the Oversight and Investigations Subcommittee held a 
hearing on that very topic, where we heard from multiple states who had 
attempted to participate in the draft EIS process. All of them were 
extremely frustrated with the process and believed that OSM could do a 
better job coordinating with them. This is in addition to the many 
public letters the states sent to Director Pizarchik expressing their 
complaints, and in some cases, terminating their MOUs as cooperating 
agencies with OSM. They specifically complained about OSM's ``piecemeal 
approach, lack of adequate time for review and comment, the overall 
quality of the [draft EIS], major deficiencies, inconsistencies, and 
missing reference material evidenced in the draft documents.''
    The Director of the Alabama Surface Mining Commission testified 
that ``the cooperating states have essentially been shut out of the 
process and been relegated to the sidelines as OSMRE moved forward with 
the EIS.''
    How can you claim that OSM truly engaged with the states, when so 
many of them felt it necessary to terminate their MOUs and revoke their 
``cooperating agency'' status?

    Answer. The Department has actively engaged, and continues to 
engage, with states regarding the proposed stream protection rule. The 
rulemaking process began with an Advance Notice of Proposed Rulemaking, 
stakeholder outreach meetings, nine public scoping meetings and two 
public comment periods on the scoping for the draft environmental 
impact statement (DEIS), generating over 50,000 comments. A number of 
state agencies, including state SMCRA regulatory authorities, 
participated as cooperating agencies in the early development of the 
DEIS, and provided meaningful input and numerous comments that were 
used to prepare the DEIS.
    The DEIS was also made available to cooperating agencies and the 
public for review and comment during the public comment period, which 
was extended to provide interested parties more time and opportunity to 
review and comment on the document. Moreover, OSM conducted six public 
hearings in Colorado, Kentucky, Missouri, Pennsylvania, Virginia and 
West Virginia during the public comment period and received 
approximately 95,000 comments, including hundreds of pages of comments 
from state SMCRA regulatory authorities, on the DEIS and the proposed 
stream protection rule. In October 2015 OSM also offered all former 
cooperating state agencies the opportunity to reengage in the 
development of the final EIS, and has continued to engage in 
discussions with the states to better understand their comments on the 
proposed rule.
           Questions Submitted by Representative Jeff Denham
    Question 18. In California's Statewide Proposition 48, the citizens 
formally rejected the California Governor's and State Legislature's 
approval of a Class III Indian gaming Compact between the North Fork 
Rancheria of Mono Indians and the state of California that authorized 
Class III gaming on lands that the North Fork Band acquired into trust 
after 1988 in Madera, California. Are you prepared to recognize the 
decision rendered by the California electorate in Proposition 48 and 
the state's own interpretation of California State law? If not, why?

    Answer. The Department must follow the compact review requirements 
set out by Congress in the Indian Gaming Regulatory Act (IGRA). IGRA 
sets out a process for the Department to follow when tribes and states 
agree to a compact. IGRA also sets out a process the Department will 
follow when a tribe and a state cannot agree on a compact. In reviewing 
any submitted compact, the Department will adhere to IGRA's process. 
However, as it pertains to this specific question, the Department 
cannot comment on matters currently in litigation but as stated above, 
will continue to adhere to IGRA.

    Question 19. Are you prepared to refuse to approve a Class II 
Gaming Compact submitted to you by North Fork or a mediator which 
authorizes Class III gaming on this Madera site? If not, why not?

    Answer. On April 26, 2016, the court-appointed mediator transmitted 
the selected compact to the Department. The Department will adhere to 
IGRA's requirements in reviewing the mediator's selected compact.
          Questions Submitted by Representative Paul A. Gosar
    Question 20. Are you aware that the Forest Service conducted a 
comprehensive study in 2010 and released a Finding of No Significant 
Impact for the bipartisan exchange signed into law in 2014 stating and 
I quote, ``The selected action will not cause loss or destruction of 
significant scientific, cultural or historical resources? ''

    Answer. Yes, however, the listing is based on the documentation 
included in the certified National Register Nomination form submitted 
to the Keeper in 2015 by the Federal Preservation Office of the U.S. 
Forest Service in accordance with the provisions of the National 
Historic Preservation Act of 1966, as amended and the National Register 
Program Regulations (36 CFR, Part 60). The documentation submitted to 
the Keeper does not include or reference the ``comprehensive study in 
2010'' cited in the question.

    Question 21. Oak Flat has never been a sacred site, yet the Park 
Service is intent on opposing this project and trying to list this 
rundown campground as a historic site, potentially delaying the 
creation of 3,700 new jobs and $60 billion in associated economic 
impact that will come from the mine.
    Did you know that a poll found that the majority of the San Carlos 
Tribe actually supports the mine?

    Answer. The Keeper listed the property in the National Register 
based on the documentation provided and certified by the U.S. Forest 
Service. The Keeper's decision did not support or oppose any specific 
project; rather, it was based solely on the site's significance as a 
Traditional Cultural Property. The Keeper found that the documentation, 
much of which was derived through government-to-government 
consultations with the San Carlos Apache and other tribes, justified 
the listing of Chi' chil Bildagoteel (Oak Flat) in the Natural Register 
for its significance as a Traditional Cultural Property. Based on this 
finding, and in accordance with the provisions of the NHPA and 36 CFR, 
Part 60, the Keeper had no legal alternative to listing the property.

    Question 22. What would you like me to tell tribal members who are 
in dire need of these jobs and have seen unemployment numbers as high 
as 70 percent when they ask me why Secretary Jewell opposes this mine 
project and good-paying jobs for their family?

    Answer. The Secretary is committed to helping American Indian and 
Alaska Native communities find opportunities that will enhance long-
term economic development and promote near-term economic opportunities. 
The Keeper's decision to list Chi' chil Bildagoteel did not support or 
oppose any specific project; rather, it was based solely on the site's 
significance as a Traditional Cultural Property.

    Question 23. The day before the House passed my Grand Canyon Bison 
Management Act as part of the Sportsmen's Act, the Park Service ditched 
a plan it had been doing environmental studies on for more than 2 
years, in order to undermine my bipartisan bill.
    Two years wasted and now the Park Service intends to pursue a 
short-sighted and costly proposal for managing invasive bison within 
Grand Canyon National Park that utilizes expensive sharpshooters.
    Our bipartisan and bicameral bill meanwhile, puts state licensed 
Arizona hunters to work accomplishing this important task for free.
    What's the typical cost to the agency when utilizing sharp shooters 
to reduce a big game heard by 400-600 animals?

    Answer. The cost of culling operations depends on the environments 
where they take place and the means through which they were contracted. 
Here are a couple of examples:

  <bullet> Channel Islands National Park: Culling operations cost 
            approximately $519,000 ($1000/animal)

  <bullet> Catoctin Mountain Park: Culling operations cost 
            approximately $571,000 ($525/deer)

    Question 24. How much money did the Park service spend on the long-
term EIS for bison management in the Grand Canyon before shifting gears 
to the short-term EA?

    Answer. The NPS has spent $125,762 on the contract for the long-
term EIS and EA to date. The total costs for the complete EIS was 
expected to be $341,412. Much of the work associated with the EA is the 
same as it would have been for the EIS; however, the NPS expects a 
savings of approximately $13,500 by switching to an EA.

    Question 25. A January 2, 2009 letter from more than 100 
environmental and conservation groups reported that USDA and DOI spend 
roughly $100 million on expensive sharpshooters each year.
    To make matters worse when sharpshooters have been used to kill big 
game previously, your agency has left these carcasses rotting in the 
park so natures other critters can feed on them. Do you believe leaving 
a big game carcass rotting in a National Park is the most humane and 
efficient way to dispose of this meat?

    Answer. Only in rare occasions has the NPS left carcasses in the 
field. In over 90 percent of ungulate culling situations in NPS units, 
the NPS requires the use of non-lead ammunition for safe meat 
consumption. Carcasses are removed and donated to various entities 
including local food banks, citizen volunteers, tribal members, or 
other groups. When carcasses are left in the field, it is for 
logistical reasons; for example, in some very remote locations it can 
be very costly to remove carcasses. In addition, when implemented, this 
practice supplements natural scavenging for wildlife.

    Question 26. On June 10, 2015, Victor Know stated, ``The NPS has 
typically used professional sharp shooters to cull whitetail deer in 
parks in the eastern United States, including at Rock Creek Park in 
Washington, DC, and Catoctin Mountain Park in Maryland. Professional 
sharp shooters were also used at Channel Island National Park in 
California to cull elk on Santa Rosa Island. In other cases, including 
Rocky Mountain National Park in Colorado and Theodore Roosevelt 
National Park in South Dakota, skilled volunteers have been used to 
cull elk.''
    What were the total costs to the Park Service for each of these 
efforts?

    Answer. It should be noted that the following examples vary greatly 
in the type of activities that were conducted, in the environments 
where they took place, and in the means through which they were 
contracted. Therefore, they should not be seen as representative of how 
the NPS funds or conducts culling operations across the National Park 
System.

    Catoctin Mountain Park: NPS used USDA/Wildlife Service (WS) as the 
contractor. The total cost (includes the contract and costs to 
administer the program) for the past 6 years (2010-2015) has been 
approximately $571,000 ($525/deer).

    Rock Creek Park: NPS used USDA/WS as the contractor. The total cost 
for the past 3 years (2013-2015) has been approximately $52,500 ($290/
deer). Rock Creek Park is located wholly within Washington, DC, and is 
surrounded by densely populated urban areas.

    Channel Islands National Park: The situation at Channel Islands 
differs from the above examples because it was not a culling operation 
to reduce populations, but a total elimination of non-native ungulates. 
These types of operations tend to be more expensive as the costs go up 
as the populations go down. In addition, the logistics of conducting 
this program on an island also raised costs significantly. NPS used a 
non-profit organization as the contractor at a cost of approximately 
$519,000 ($1,000/animal).

    Rocky Mountain National Park and Theodore Roosevelt National Park: 
In these parks, skilled volunteers were used to cull the elk herds. In 
Rocky Mountain National Park, 52 elk were removed from 2009-2011 at a 
cost of approximately $4,700/elk. In Theodore Roosevelt National Park, 
868 elk were removed from 2010-2011 at a cost of approximately $1,450/
elk.

    Question 27. How many carcasses were left within the Park for each 
of these efforts?

    Answer. During the elk culling operations at Rocky Mountain and 
Theodore Roosevelt National Parks, over 98 percent of the animals 
culled were removed from the field and donated. All of these operations 
utilized nonlead ammunition, so the NPS could donate the meat. Over 95 
percent of the animals at Rock Creek Park and Catoctin Mountain Park 
were removed from the field and donated. At Channel Islands National 
Park, animals culled in the first phase of the operation were removed 
and donated; however, due to lack of interest in the remaining 
carcasses and the cost and logistics associated with removing them from 
the islands, most of the animals from the second phase were left in the 
field for eagle and other scavengers to feed upon.

    Question 28. Last time you were before the committee you were 
answering questions about your Department's flawed report on EPA's mine 
spill. At that time I asked you about Good Samaritan cleanups as you 
failed to say anything substantive about Good Sam in your testimony. 
Shockingly, you told me you were not familiar with Good Samaritan 
cleanups. Did you take some time after that hearing to familiarize 
yourself with Good Samaritan cleanups?

    Answer. The Department stands by the Bureau of Reclamation's 
technical review and assessment of the factors that led to the 
incident. The incident highlights the significant and costly problem of 
abandoned mine lands, which are a threat on private, state, and Federal 
lands. As mentioned in the Department's statement and discussed at the 
hearing, we stand ready to work with the committee and Congress to 
address this issue in a meaningful way.

    Question 29. Do you think today that Good Samaritan cleanups should 
be an important part of the solution for cleaning up old abandoned 
mines?

    Answer. Addressing the reclamation and remediation of abandoned 
hardrock mine lands is a costly problem and one that requires a long-
term funding source. To better address the hardrock abandoned mine land 
problem and to ensure that an equitable share of the costs of 
reclamation of these abandoned mine lands (AML) sites are not solely 
borne by the taxpayer, the Administration has proposed legislation that 
would hold the hardrock mining industry responsible for the remediation 
of abandoned hardrock mines, just as the coal industry is responsible 
for remediating abandoned coal sites. The proposal would levy an AML 
fee on uranium and metallic mines on both public and private lands, and 
the receipts would be split between Federal and non-Federal lands. The 
proposed hardrock AML fee and reclamation program will operate in 
parallel with the existing coal AML reclamation program as part of a 
larger effort to ensure the most dangerous abandoned coal and hardrock 
AML sites are addressed by the responsible industries. The Department 
stands ready to work with the committee and Congress to take meaningful 
actions to address this issue, including consideration of authority to 
carry out Good Samaritan activities on public lands.

    Question 30. Your budget request asks for $195 million for new 
Federal land acquisition. The Department of Interior and the multiple 
agencies within cannot even manage the lands they currently own. Just 
last March, the Park Service said it has an estimated $11.5 billion 
maintenance backlog. Only 17 percent of land is privately held in 
Arizona and it is even worse in Nevada. The Federal Government already 
owns more than 650 million acres.

    Question 31. The Congressional Research Service has informed my 
office that they could only find one BLM report from 1997 entitled 
``Lands Potentially Available for Disposal.'' And that report was 
authored because of direction from Congress. How much land does DOI 
currently own that is potentially available for disposal?

    Answer to Questions 30 and 31. Congress has long recognized the 
national interest in preserving and conserving the public lands for 
present and future generations of Americans. Although the National Park 
Service and the U.S. Fish and Wildlife Service do not have land 
disposal authority, Section 203 of the Federal Land Policy and 
Management Act allows BLM to identify lands as potentially available 
for sale through the land use planning process, provided they meet one 
or more of the following criteria:

    <bullet> Lands consisting of scattered, isolated tracts that are 
            difficult or uneconomic to manage;

    <bullet> Lands that were acquired for a specific purpose and are no 
            longer needed for that purpose; and

    <bullet> Lands that could serve important public objectives, such 
            as community expansion and economic development, which 
            outweigh other public objectives and values that could be 
            served by retaining the land in Federal ownership.

    BLM oversees the public lands through approximately 160 Resource 
Management Plans (RMPs). Each RMP is unique and typically identifies 
lands as potentially available for disposal through sale, exchange, or 
for conveyance under the Recreation and Public Purposes Act (R&PP) for 
purposes such as schools, fire stations, and community parks. Lands 
identified for potential disposal may be available for any or all of 
these purposes. BLM may only dispose of lands identified for disposal 
in the appropriate land use plan, unless directed by Congress.
    Even when lands are identified for disposal in RMPs, there may be 
substantial impediments to disposal. The process of identifying these 
lands as potentially available for disposal typically does not include 
site-specific identification of impediments to disposal, like the 
presence of threatened or endangered species, cultural or historic 
resources, mining claims, mineral leases, rights-of-way, and grazing 
permits, or the need for an appraisal to establish market value or a 
specific survey of the lands. Furthermore, lands identified as 
potentially available for disposal at one point in time may be found 
later to be unsuitable because of new circumstances such as oil and gas 
leasing, the listing of threatened and endangered species, the 
establishment of rights-of-way, or other encumbrances.
    The BLM is making information regarding lands that have been 
identified as potentially available for disposal more accessible to the 
public through the recent launch a new page on its Web site to provide 
information in one central location. http: // www.blm.gov /wo / st /en 
/ prog / planning / planning_overview / lands_potentially 0.html.

    Question 32. On November 3, 2015 the President issued a new 
memorandum on mitigation of resource impacts related to development and 
permitting. The memorandum instructs the Interior Department and other 
agencies to issue new regulations emphasizing compensatory mitigation 
as well as a new standard of a ``net benefit or at minimum, no net 
loss'' for resources that are ``important, scarce, or sensitive'' or 
possess ``irreplaceable character.'' The Administration has stated that 
one goal of this policy is consistency across agencies regarding 
mitigation.
    However, officials from the Council on Environmental Quality and 
the Department of Interior told committee staff during a recent 
briefing that each agency will define the parameters of terms like 
``important,'' ``scarce,'' ``sensitive,'' or ``irreplaceable'' in each 
of their respective regulations be allowed to define the terms as they 
see fit. Are you concerned that each agency writing its own parameters 
or definitions could result in inconsistent parameters or definitions? 
Does the Department's budget request include an estimate of the 
additional funds and FTEs that will be required to carry out the 
directives of the mitigation memorandum?

    Answer. A main objective of updating mitigation policies is to 
promote more consistency across and within the Department's bureaus as 
to how the steps of the mitigation hierarchy are implemented and in the 
development of mitigation recommendations and requirements. These 
documents create consistency in how bureaus implement mitigation in a 
number of important ways, including the use of a compensatory 
mitigation goal; a clear and stated preference when selecting between 
compensatory mitigation providers; use of standardized definitions and 
terms; and adherence to a consistent set of standards to ensure 
equivalency among compensatory mitigation providers.
    The Department does not intend rigidity in determining what 
resources require mitigation. The Department's bureaus are responsible 
for managing different resources, for different uses, under a range of 
specific authorities. The use of terms such as ``importance,'' 
``scarcity,'' ``sensitivity,'' or ``irreplaceable'' are meant as 
parameters to guide bureaus and offices in making similar decisions 
about what types resources may require mitigation, not what specific 
resources should be targeted. Where multiple bureaus and offices have 
responsibility in managing a particular resource, the use of a 
landscape-scale approach to planning and permitting allows for more 
integrated and consistent management, including in the application of 
mitigation.
    As a general matter, additional resources are not required by the 
Department to specifically carry out the directives of the Presidential 
Memorandum. The BLM's 2017 budget request does however include $641,000 
(+4 FTE) to develop a National Mitigation Team.
    This team would be located in BLM state offices and at the 
Washington Office and would provide expertise necessary to support 
field staff, work with BLM partners to develop local and regional 
mitigation strategies, develop an all-lands program of work, oversee 
mitigation funds, interact with mitigation banks and exchanges, and 
integrate other restoration activities. Absent these funds, the BLM 
would likely have to curtail other important activities in order to 
fulfill the commitments made in the Western Solar Plan and the GRSG 
Conservation Strategy.

    Question 33. During the hearing, you answered one of my questions 
by noting that the designation of National Monuments is ``entirely up 
to the President of the United States,'' and that the President has not 
given you any detailed information about what, if any, areas he may be 
considering to designate for the rest of the year. You also noted that 
you have received requests from any number of outside organizations 
encouraging the designation of specific areas.
    Again, you made it clear in your response that the ultimate 
decisionmaking authority rests with the President, but have you, your 
staff, or any representative of any of the agencies you oversee made 
recommendations to act on any of the National Monument requests you 
have received from outside organizations to the President, his staff, 
CEQ or other officials in the Administration?

    Question 34. And, if so, what areas have you recommended should be 
designated as National Monuments, and which did you recommend not be 
designated?

    Answer to Questions 33 and 34. The Administration consistently 
strives to take into account the interests of a wide range of 
stakeholders both to protect America's public lands and to provide for 
economic development in a manner that is consistent with applicable 
laws and sound public policy. The Department participates in this 
consultation. Officials from the Department have attended many 
community meetings across the Nation, and have heard from stakeholders 
interested in protecting the places that they care about. These 
officials have also heard from stakeholders concerned with the impacts 
of any such designation.

    Question 35. What is the total estimated travel budget for the 
Department of Interior for Fiscal Year 2017?

    Answer. The Department has responsibilities across the Nation and 
travel is necessary to carry out our mission. The Department does not 
specifically budget for travel separately. However, the Department does 
monitor travel expenditures closely. In FY 2015, the Department spent 
$175 million on travel activities (including relocation costs), which 
represents less than 1 percent of the total FY 2015 expenditure 
activity of nearly $18 billion.

    Question 36. How much did the Department spend on total travel 
expenses in Fiscal Year 2016?

    Answer. FY 2016 is not yet complete but is on track for a level 
consistent with FY 2015 ($37 million as of 12/31/2015).

    Question 37. What is the total estimated budget that the Department 
of Interior will spend on conferences in Fiscal Year 2017 and how many 
conferences does the Department plan to hold this year?

    Answer. The Department does not specifically budget for conference 
activity and does not have an estimate for FY 2017.

    Question 38. How does this compare to last year?

    Answer. In FY 2015, the most recent year of completed execution, 
the Department spent $16 million ($16,001,465) on hosting or attending 
197 conferences. For FY 2016, which is not yet complete, as of 12/31/15 
Department personnel attended 41 conferences totaling $4.8 million 
($4,830,239). This includes amounts to be reimbursed to the Department 
from hosted conferences, so actual expenditures will be less.

    Question 39. Specifically, how many conferences did the Department 
hold in Fiscal Year 2016 and what were total conference expenditures 
for Fiscal Year 2016?

    Answer. In FY 2015, the most recent year of completed execution, 
the Department held 87 conferences and spent $6 million ($6,072,294).

    Question 40. How much money did the Department spend on bonuses for 
employee personnel in Fiscal Year 2016?

    Answer. At the end of FY 2015, the most current year of completed 
execution, the Department spent $61.2 million on awards and bonuses; 
when compared against 63,517 Full Time Equivalents (FTE) used in FY 
2015, this averages about $964 per FTE.

    Question 41. How much does the department estimate it will spend in 
Fiscal Year 2017?

    Answer. We do not have estimates at this time for FY 2016 and FY 
2017 as amounts will be determined by staffing levels and performance 
achieved.

    Question 42. How much money does the Department plan to spend in 
Fiscal Year 2016 on climate change policies?

    Answer. As part of the Administration's effort to better understand 
and prepare for the impacts of a changing climate, the budget includes 
$156.9 million for basic science related to climate and on-the-ground 
adaptive management efforts.
         Questions Submitted by Representative Raul M. Grijalva
    Question 43. Secretary Jewell, I am concerned about the National 
Park Service's deferred maintenance backlog. $12 billion is an 
intimidating number. For the nonroads half of the backlog, can you 
please outline what the total level is for the backlog for the most 
critical projects, how NPS determines what those projects are, and some 
examples throughout the country of projects that are most critical 
awaiting funds to be addressed? If possible, can you provide a full 
list of the most critical projects throughout the country outlining, at 
a minimum, the park, the project, and the cost?

    Answer. The National Park Service's $11.9 billion maintenance 
backlog is made up of $6.2 billion in transportation-related deferred 
maintenance (DM) and $5.7 billion in non-transportation DM. That $5.7 
billion consists of 7,186 non-transportation assets which are 
considered high priority resources. Of those, 4,300 need repairs which 
have been deferred; the deferred maintenance backlog on these assets is 
a total cost of $2.38 billion.
    The National Park Service uses the NPS Capital Investment Strategy 
(CIS) which is consistent with Departmental guidance to prioritize 
projects. The CIS focuses capital investments on the subset of NPS 
facilities that represent the highest priority needs with a commitment 
to long-term maintenance. The CIS helps to accomplish four objectives: 
protect cultural and natural resources and promote environmental 
sustainability; provide rewarding visitor experiences; protect health 
and safety of visitors and employees; and achieve a financially 
sustainable portfolio of constructed assets.
    Two cornerstones of the NPS Asset Management Plan are the Facility 
Condition Index (FCI) and the Asset Priority Index (API). An industry 
standard metric, the FCI indicates an NPS asset's condition. It is 
calculated by dividing a facility's deferred maintenance needs by the 
same facility's current replacement value. The API is an NPS calculated 
value that represents an asset's relative mission importance within the 
park unit's total asset portfolio. Improving or even maintaining the 
FCI for the entire NPS asset portfolio is difficult given current 
budgetary constraints. However, the FCI, in conjunction with the API of 
each asset, provides sufficient detail to prioritize the maintenance 
efforts and target the most critical assets in the portfolio, allowing 
the NPS to focus its capital strategically.
    The NPS, and all DOI bureaus, use the Departmental scoring method 
to score construction and maintenance projects, which works in 
conjunction with the Capital Investment Strategy. This score 
incorporates four categories: API vs. FCI; Scope of Benefits (SB); 
Investment Strategy (IS); and Consequences of Failure to Act (CFA).

    <bullet> API/FCI--Emphasizes projects that involved mission 
            critical assets in unacceptable condition with less 
            emphasis on non-mission critical assets. Weighted at 40 
            percent.

    <bullet> SB--Emphasizes projects that are clearly aligned with DOI, 
            bureau, office and program missions, initiatives, and 
            strategic goals. Weighted at 20 percent.

    <bullet> IS--Emphasizes projects that can clearly define a position 
            return on investment, leverage outside interests, or reduce 
            operation and maintenance costs. This element is structured 
            to de-emphasize projects that increase DOI operation and 
            maintenance costs. Weighted at 20 percent.

    <bullet> CFA--Emphasizes projects that have unacceptable risk 
            levels should the project not be completed. Weighted at 20 
            percent.

    The top scoring Line Item Construction project in FY 2017 is to 
replace the roof on the Lincoln Memorial, an extremely high priority 
asset. Other examples of high priority line item construction projects 
include rehabilitating the Paradise Inn Annex and connection snow 
bridge at Mount Rainier NP and completing the project to repair the 
historic Kennecott Mine structures and utilities at Wrangell-St. Elias 
NP&Pres in Alaska.
    Some of the highest scoring projects on the FY 2017 Repair and 
Rehabilitation project list include rehabilitating the doors on the 
visitor center at Tumacacori NM and making, roof repairs at parks 
including War in the Pacific NHP and Moores Creek NB, trail 
rehabilitation and improvements at parks such as Great Smoky Mountains 
NP and Mammoth Cave NP, and water system repairs and improvements at 
parks including Gateway NRA and Acadia NP.
    Other fund sources also contribute to addressing the DM backlog. 
Recreation fees and cyclic maintenance funding are essential fund 
sources for keeping those assets in good condition once improvements 
are made. And investments made in cyclic maintenance funding prevents 
deferred maintenance and therefore future additions to the backlog.
          Questions Submitted by Representative Tom McClintock
    Question 44. Under the Solicitor of the Interior's 2011 M-Opinion, 
a holder of a right-of-way granted under the General Railroad Act of 
1875 may authorize third parties activities within its ROW over public 
lands without BLM approval if the activity in question furthers, at 
least in part, a railroad purpose. Contrary to existing law and the 
controlling M-Opinion, in October 2015, BLM made a determination that 
found that any use in an 1875 Act ROW will now require Federal 
permitting and environmental review even if the use in question 
furthers a railroad purpose if the origin of the activity does not 
derive from a railroad purpose. BLM's erroneous determination will 
negatively impact the ability of railroads to authorize the use of 
their respective rights-of-way to third parties for critical 
infrastructure, such as water pipelines, power lines, and 
telecommunication lines.
    To complicate matters even further, BLM issued a 2014 Instruction 
Memorandum (IM), purporting to provide guidance on how to implement the 
2011 M-Opinion.
    The IM indicates that it will be publishing a Federal Register 
notice formally requesting information about all activities that are 
located in 1875 Act ROWs. Once it receives the requested information, 
it will make a determination whether each activity is in the scope of 
the ROW. Note, It is my understanding that there are currently 3,500 
plus individual instances of third-party uses of RR ROW over Federal 
lands.
    Under the IM, BLM must also be notified of all proposed new 
activities located within 1875 Act ROW's and will determine whether 
they are in the scope of the ROW before the activities may proceed. If 
BLM determines that the activities are not within the scope of the ROW, 
the proponent of the activity must receive BLM authorization.
    Is this accurate? Will BLM be reviewing all new and existing 
activities within 1875 Act ROWs to determine whether a BLM ROW is 
required?
    If so, how will BLM staff and pay for such reviews? When will these 
reviews take place?

    Answer. The November 2011 Solicitor's M-Opinion (M-37025) partially 
withdrew a prior 1989 Solicitor's Opinion (M-36964) concerning the 
scope of a railroad's authority to authorize activities within a 
railroad right-of-way granted under the Act of March 3, 1975 (1875 
Act). Opinion M-37025 concluded that a railroad's authority to 
undertake or authorize others to undertake activities within an 1875 
Act railroad right-of-way is limited to those activities that derive 
from or further a railroad purpose. The changes articulated in Opinion 
M-37025 were driven by the fact that the conclusions in the 1989 
Opinion were not consistent with the terms of the 1875 Act, its 
legislative history, or applicable judicial decisions interpreting the 
act.
    Based on the 2011 Opinion, BLM issued an instruction memorandum 
(IM) in August 2014 to describe how it will evaluate and authorize new 
and existing activities within those rights-of-way across BLM-managed 
public lands, including a process for determining whether such 
activities derive from or further a railroad purpose. If BLM determines 
the activity does not derive from or further a railroad purpose a 
project proponent must receive BLM authorization for the activity. The 
process outlined in BLM's IM applies to both new and existing 
facilities.
    BLM will use existing staff and appropriations to perform reviews 
of new and existing activities within 1875 Act railroad rights-of-way. 
Temporary staff may be added in instances where Master Agreements exist 
with large customers. In cases where project proponents apply for a BLM 
authorization, BLM will largely rely on cost recovery fees for 
processing and monitoring the authorization in accordance with existing 
regulations. BLM expects any necessary reviews to proceed based on an 
assessment of each BLM field office's overall workload priorities.
       Questions Submitted by Representative Alexander X. Mooney
    Question 45. The Consolidated Appropriations Act of 2016, enacted 
on December 18, 2015, includes language directing OSM to re-engage 
states in a meaningful manner before finalizing any Stream Protection 
Rule.

    45a. What is your schedule for supplying the states with the 
information listed in the Appropriations Act?

    45b. In a recent budget hearing in the Senate Energy and Natural 
Resources Committee, Michael Conner, Deputy Secretary of the Interior, 
said the documents specified in the report language would be ready for 
the states ``in a few weeks.'' What is your plan for meeting with 
states after they have had time to review the information you are 
required to provide them?

    45c. Presumably the states will be raising various concerns with 
the content of the proposal. How will you address those concerns?

    45d. When do you anticipate reopening the comment period so the 
public is place on notice of potential changes to the proposal so they 
can comment on those changes?

    Answer. OSM began responding to state requests for documents and 
information on March 2, 2016, and continues to engage with the states 
on the proposed rule. The Department is committed to meeting with the 
states as review of comments submitted on the proposed rule moves 
forward. The Department's Assistant Secretary for Land and Minerals 
Management, the Director of OSM, and other OSM officials remain 
available for engagement and discussion with the states and have 
continued to meet with representatives of states since the close of the 
comment period. Department of the Interior and OSM representatives have 
either met with or held telephone or video conferences with Wyoming on 
November 20, 2015, and January 8, 2016; Ohio and Maryland on December 
2, 2015; Oklahoma on December 3, 2015; Indiana and Pennsylvania on 
December 10, 2015; Virginia on December 11, 2015; Illinois on December 
16, 2015; Utah and Montana on December 17, 2015; Alaska on January 14 
and May 18-22, 2016; West Virginia on February 10, 2016; Colorado on 
April 11-14, 2016; and North Dakota on December 17 and May 2-4, 2016. 
In addition, OSM held six technical meetings in its regional offices 
during the month of April, which were attended by state regulatory 
authorities. There are no plans to reopen the comment period on the 
proposed rule.
       Questions Submitted by Representative Grace F. Napolitano
    Question 46. Many water agencies in the arid West are looking 
toward recycled water projects as the most cost effective solution to 
drought management; do you believe we should start to refocus our 
investments toward recycled water?

    46a. What does President Obama's budget do to support recycled 
water projects?

    46b. How can an increase in funding impact the amount of water 
projects that can be introduced in the drought-stricken West?

    46c. Do you have the average cost effectiveness of dam projects 
versus water recycling projects?

    Answer. The Department's FY 2017 budget request includes $21.5 
million for the Title XVI program, reflecting the Department's 
recognition that water reuse is an essential tool in stretching limited 
water supplies in the West and the need to prioritize limited budget 
resources. Federal investments in Title XVI projects, including all 
projects funded since 1992, made available an estimated 369,000 acre-
feet of water in 2015. An increase in funding would expedite the 
completion of authorized recycled water projects; however, it would not 
lead to an increase in the number of water projects in the West, as 
congressional authorization would be necessary to build any additional 
Title XVI projects.
    With regard to a comparison of cost effectiveness, it is difficult 
to isolate the variables that factor into the wide range of local 
conditions that affect cost. For example, in the state of California, 
the California Recycled Water Task Force (2003) estimated that water 
recycling projects would cost between $300 and $1,300 per acre-foot. 
Cost estimates for potential surface storage alternatives vary 
extensively by region and specific project design, depending on the 
cost-share among project beneficiaries; state or Federal cost-share 
component; and the anticipated project uses, such as new water supply, 
hydropower, flood management and water quality.

    Question 47. What does President Obama's budget do to address the 
ongoing drought in the West? Specifically Southern California?

    Answer. The President's Climate Action Plan, ``Preparing the United 
States for the Impacts of Climate Change,'' released in June 2013, 
highlights drought preparedness as a priority. As part of the 
Administration's broader drought response, the Department continues a 
proactive approach by emphasizing mitigation and planning to increase 
resilience to drought in advance of a crisis.
    A few highlights of the Department's budget pertaining to drought 
include an increase of $18.4 million in the USGS budget for science to 
support sustainable water management, nearly doubling the investment 
made in 2016. The USGS budget request includes $3.9 million for USGS to 
conduct drought science to quantify water availability, better 
understand how snowmelt factors into the hydrologic cycle, and 
investigate drought effects on reproduction and survival of species. In 
addition, $4 million is requested to develop methods to assess regional 
and national water use trends during drought periods that will lead to 
a near real-time assessment of water use during drought.
    The budget request for Reclamation emphasizes the need to develop 
new technologies and disseminate scientific information, including $5.8 
million for the Desalination and Water Purification Research program; 
$22.8 million for the Science and Technology program, of which $8.5 
million would fund a technology prize competition focused on next 
generation advanced water treatment technologies; and $2 million to 
support Reclamation's open water initiative to make important water 
information available to support innovation across the country.
    Specifically as it relates to Southern California, Reclamation 
released a spending plan for the additional $100 million provided by 
Congress in FY 2016 for western drought response, which includes $22.6 
million for WaterSMART Grants, Title XVI projects, Drought Response and 
Comprehensive Drought Planning, and the Cooperative Watershed 
Management Program. Funding was also directed toward the Lower Colorado 
River Basin Drought Response Action Plan ($11.5 million), the Salton 
Sea Research Project ($3 million) and the Colorado River Basin System 
Conservation Pilot Program ($5 million).
    The Department's FY 2017 budget request also includes $61.5 million 
for the Department's WaterSMART initiative, with $23.4 million for 
WaterSMART Grants, $5.2 million for the Basin Study Program, $21.5 
million for the Title XVI program, and $4 million for the Drought 
Response program.

    Question 48. In 2013, American Indians and Alaska Natives had the 
second highest overall suicide rate at 11.7 per 100,000 (American 
Foundation for Suicide Prevention). The White House Council on Native 
American Affairs released its ``Blueprint for Reform'' which is 
designed to restructure and redesign the Bureau of Indian Education. 
Does this redesign include the delivery on-site behavioral health 
services and inclusion of mental health services in general?

    Answer. Yes. The Bureau of Indian Education (BIE) reorganization 
has established a school health advisor position in Washington, DC that 
will address behavioral and mental health issues in BIE-funded schools. 
The school health advisor will work with the Associate Deputy Directors 
(ADDs), school staff, and the Indian Health Service (IHS) and 
Department of Health and Human Services to establish on the ground 
programs that address student issues, such as suicide.
    Currently, except for the smaller rural schools, BIE schools and 
dormitories have student support teams and refer students to outside 
organizations (e.g., Indian Health Service and Substance Abuse and 
Mental Health Services Administration), if they do not have a 
behavioral health or mental health employee on staff. When a student is 
identified as having ``suicidal ideation'' the school contacts their 
local health agency, assists with transporting the student to such an 
agency, contacts parents/guardians, and at the family's discretion 
stays apprised of the student's status. In the case of a student that 
has attempted suicide, after the student has returned to the school, 
and if the local health agency provides direction for support services 
to the school, then the school supplies such services. Unfortunately, 
due to the Healthcare Insurance Portability and Accountability Act, 
oftentimes the school is not informed of the needs of the student and, 
therefore, the support services the student may need when they return 
to their community are often times not fully met.
    The Department recently executed a Memorandum of Understanding 
(MOU) between the BIE and IHS which allows IHS mental health 
professionals to meet with students within BIE facilities on the Pine 
Ridge reservation. These professionals will visit schools on a regular 
rotation to better serve at-risk youth. The Department is interested in 
expanding this MOU to all interested tribes.
    In addition, since the Fiscal Year 2017 Native Youth Priorities 
guidance memo was issued in 2015, the White House Council on Native 
American Affairs and the Office of Management and Budget have been 
working with agencies to establish metrics around Native youth. As part 
of this effort, HHS is working to develop Native youth suicide metrics. 
Identifying these metrics and collecting data are critical to ensure 
that Federal investments in Indian Country are improving the lives of 
and opportunities for Native youth.

           Questions Submitted by Representative Dan Newhouse
    Question 49. A recent study by the U.S. Forest Service indicated 
that there may be significant positive fuel reduction benefits from the 
responsible harvest of salvage logs after wildfires. Unfortunately 
because of an increasing wildfire trend, we are likely to see even more 
blackened forests. Can you discuss the role salvage logging and 
reforestation could play in better preparing Federal, tribal, and 
private lands for catastrophic wildfires? What benefits does this 
practice provide, what are your thoughts on moving forward with 
responsibly planned logging and what steps is Interior taking to ensure 
the timely salvage logging on Federal lands?

    Answer. Salvage logging and reforestation are two important tools 
used by the Department to ensure the recovery and future sustainability 
of forests impacted by wildfire. Wildfires that burn through untreated, 
post-fire landscapes can exhibit increased fire intensity compared to 
treated landscapes. Increased fire intensity can severely impact 
recovering soils and vegetation. Intense fires also hamper suppression 
efforts by creating hazardous conditions for firefighters. Salvage 
logging may be used as a tool to reduce long-term fuel buildup through 
the removal of dead trees on the landscape. However, in some cases, it 
is more beneficial to treat the post-fire landscape without salvage 
logging, leaving the burned trees in place to preserve snag habitat and 
stabilize watersheds. Responsibly planned salvage logging balances the 
need for hazardous fuels reduction with the need to maintain valuable 
wildlife habitat features that are unique to the post-fire landscape.
    BLM uses the Forest Ecosystem Health and Recovery Fund to enable a 
rapid response to identified salvage and reforestation projects after 
disturbances. This fund is also used for planning and implementing 
proactive treatments such as timber sales, stewardship contracts, and 
hazardous fuel reduction projects that increase forest resiliency to 
wildfires. In 2014 and 2015, BLM used these funds to implement over 
12,000 acres of treatments to increase forest resiliency and/or harvest 
salvage timber, which yielded approximately 139 million board feet of 
timber valued at $18 million.

    Question 50. Western tribes have asked for $55 million for post-
fire rehabilitation over 5 years, to salvage some value from the fires. 
However, only 6 percent of this request is being funded by the 
Department's Burned Area Recovery program. The Colville Reservation, in 
particular, did not have enough staff or funding allocated to allow for 
the quick response necessary to take advantage of value of the dead 
trees. These fires have cost lives, and destroyed homes. The tribe lost 
almost a quarter of its forests--that's almost $1 billion of dead trees 
still standing--and I am deeply concerned that funds for the recovery 
of the areas that were burned on the Colville Reservation have been 
insufficient given the enormity of the restoration task ahead. The 
Administration is proposing a substantial increase in the Department of 
the Interior's Burned Area Recovery Program--a 17 percent increase. I 
assume that increase was proposed because of the shortfall we 
experienced last year?

    Answer. The FY 2017 budget request proposes an increase for the 
Burned Area Rehabilitation program of $1.5 million above the 2016 
enacted budget. Funding is intended to address greater post-fire 
rehabilitation needs caused by the 2015 and 2016 fire seasons. The 
additional funds will enable treatments to commence more quickly after 
damage occurs. This can help reduce project costs, as post-wildfire 
conditions can degrade, and are therefore more expensive to treat, the 
longer treatment initiation is delayed.

    Question 51. Additionally, I know the Burned Area Recovery program 
helps communities the first couple years after they experience a 
wildfire. Would some of that proposed increase be made available to 
help places that burned in last year's fires, like the Colville 
Reservation?

    Answer. The 2015 fire season created $55 million dollars of post-
wildfire rehabilitation need throughout the Northwest, including the 
Colville Reservation. Approximately 63 percent of the total $55 million 
dollar request would help the Colville Tribe with rehabilitation tasks 
such as preparing and administering timber salvage operations, growing 
and planting trees, repairing roads, repairing fire damaged fences, 
restoring burned wildlife habitat and anadromous fisheries, and 
controlling noxious weeds that come in after wildfires.
    The BIA-Division of Forestry and Wildland Fire Management has been 
working with the Office of Wildland Fire (OWF) on this issue since the 
end of the 2015 fire season, and BIA allocates Burned Area 
Rehabilitation funding it receives from OWF, $3.6M in FY 2016, to 
impacted tribes, including to the Colville Tribe. The FY 2016 post-
wildfire recovery funding will support tree seed collection and 
seedling growing operations. The FY 2017 budget request also proposes 
additional funding for tribal firefighting vehicles.

    Question 52. The National Indian Forests Resources Management Act 
(NIFRMA) requires the Secretary to manage Indian forest land with 
specific management objectives. Do you believe the requested amount 
fulfills the Department's trust responsibility for tribal forests?

    Question 53. The Department of the Interior is working on a ``Risk-
Based Wildland Fire Management Model.'' Do you believe the model 
treat's tribes fairly and recognizes the fiduciary obligations for 
protection of the lands held in trust for Indians?

    Answer to Questions 52 and 53. The National Indian Forest 
Management Act of 1990 directs the Secretary of the Interior to 
undertake forest management activities which ``. . . develop, maintain, 
and enhance Indian forest land in a perpetually productive state in 
accordance with the principles of sustained yield.'' To fulfill this 
trust responsibility for tribal forests, the Department ensures that 
tribal assets are protected and improved. The FY 2017 budget request 
for the NIFRMA reflects the priorities of the Department and the BIA, 
which include the sale of timber and the protection of habitats through 
thinning and replanting of understocked areas. The Department continues 
to evaluate the needs and make changes where necessary to improve 
management effectiveness.
    The OWF conducted both formal consultation and informal engagement 
with tribes on the risk-based approach, including:

    <bullet> Formal Consultation October 14, 2014-January 9, 2015; 
            teleconference on November 14, 2014

    <bullet> Formal Consultation July 20-August 3, 2015; field meetings 
            in Albuquerque, NM--July 21, 2015; Spokane, WA--July 23, 
            2015; Webinar--August 13, 2015

    <bullet> Informal updates on quarterly calls with Intertribal 
            Timber Council Fire Subcommittee (November 14, December 9--
            2014; February 10, April 21, September 15, December 8--
            2015)

    <bullet> Day-long session at National Indian Timber Symposium (June 
            8, 2015)

    Comments from the consultations were summarized and responses to 
commenting tribes were provided and posted on BIA's Web site. 
Additional background information about Risk-Based Wildland Fire 
Management was also made available on the same Web site, which can be 
accessed here: https://www.doi.gov/wildlandfire/government-government-
consultations.
    The Department remains committed to recognizing tribal sovereignty, 
promoting tribal self-determination, and fulfilling its Federal trust 
responsibility, and will continue to consult with tribes as its moves 
forward, including on development of the Risk-Based Wildland Fire 
Management Model.

    Question 54. The President's FY 2017 Budget does not include any 
funding for the ``wolf-livestock loss demonstration program,'' which 
assists livestock producers in undertaking proactive, non-lethal 
activities to reduce the risk of livestock loss from predation by 
wolves, and compensate producers for resulting livestock losses. The 
program received $1 million from Congress in the FY 2016 Omnibus bill 
and the grants it provides are critically important to Washington 
State. Why wasn't funding provided for this management program in the 
proposed FY 2017 budget?

    Answer. The goal of the Recovery Program is to minimize or remove 
the threats that led to a species listing so that it can be delisted or 
downlisted. In 2013, the U.S. Fish and Wildlife Service determined the 
gray wolf to be biologically recovered. The continued use of limited 
recovery funding on the Wolf Livestock Loss Demonstration Program to 
manage a recovered species is not a priority. The Service proposes to 
discontinue funding in FY 2017 for the Wolf Livestock Loss 
Demonstration Program within the Recovery subactivity because there are 
other programs that are better suited to deliver this funding and the 
wolf is biologically recovered.
    The 2014 Farm Bill makes the Livestock Indemnity Payments (LIP) a 
permanent program and provides retroactive authority to cover eligible 
livestock losses back to Oct. 1, 2011. LIP provides compensation to 
eligible livestock producers who have suffered livestock death losses 
in excess of normal mortality due to adverse weather and attacks by 
animals reintroduced into the wild by the Federal Government or 
protected by Federal law, including wolves and avian predators. Funding 
for recovery of listed species is limited and the Service is focused on 
preventing extinction and improving the status of species through on 
the ground conservation actions.

    Question 55. What statistics and information does the Bureau of 
Land Management keep on the ``back burning'' on BLM-administered lands? 
Can you tell me how many acres are burned on average each year?

    Answer. Backburns or backfires--as distinguished from prescribed 
fire--are commonly used tools to establish or reinforce containment 
lines to enable firefighters to more safely and effectively stop the 
advance of a rapidly spreading wildfire. Due to the common use of this 
tool, the BLM does not maintain statistics on the number of acres 
involved. When used, backburns are done only with consideration to 
safety, property, resource values, and coordination with others in the 
area. Backburns are not used when they would endanger lives, livestock, 
or property.
    The BLM does keep statistics on the more general method of 
controlled or prescribed fires, which are used to meet land management 
objectives, including wildfire management. BLM has completed an average 
of approximately 110,000 acres of prescribed fire per year for the past 
5 years (2011-2015), as reported in the National Fire Plan Operations 
Reporting System.
           Questions Submitted by Representative Jared Polis
    Question 56. Madam Secretary, I am proud to have introduced and co-
sponsored amendments and written letters fighting for full and 
permanent funding of the Land and Water Conservation Fund. As you know, 
The Land and Water Conservation Fund has had an unparalleled impact on 
our Nation's ability to recognize, protect and preserve its greatest 
natural treasures. For the past 50 years, the LWCF has been enormously 
successful in acquiring parcels of land and bodies of water. Not only 
has this enabled the protection of environmental health and the 
restoration of critical ecosystems nationally, it has secured 
recreational opportunities and access for hunters, fishermen, hikers, 
bikers and skiers nationwide. The LWCF is a smart investment--for every 
LWCF dollar spent, 4 dollars of economic value is generated from 
natural resource goods and services. Can you please speak to the 
importance of adequate and full funding of LWCF on the lands and waters 
you oversee, and whether you support a permanent reauthorization?

    Answer. The Administration proposes full, permanent, and mandatory 
funding of $900 million for the Fund's programs beginning in 2018. 
Mandatory funding will increase the financial certainty needed to build 
and enhance local and community conservation partnerships and optimize 
valuable investments by leveraging other Federal and non-Federal funds. 
It will enable efficiencies in managing LWCF programs and facilitate a 
more predictable, transparent, and inclusive process. Mandatory funding 
will also finally achieve the original intent of the LWCF Act: to use 
the benefits from the depletion of one natural resource for the 
protection and conservation of another--our public lands and waters--
for the enjoyment and benefit of all Americans, now and in the future.
    The LWCF enjoys widespread popularity, with more willing sellers 
than available funding; however, it is constrained by uncertainty about 
annual appropriations. Unpredictable funding allocations prevent 
Federal, state, and local partners from engaging in the multi-year 
planning that large-scale conservation and effective collaboration with 
local communities need to be successful. These challenges also impact 
partners who work with bureaus to protect critically important habitat 
and recreation areas. Chronic uncertainty and underfunding have made it 
increasingly challenging for local, state and Federal managers to use 
this tool to support vibrant outdoor economies, provide community 
recreation opportunities, and preserve American history.

    Question 57. Outdoor recreation is a vital use of our public lands 
that helps connect people with nature and results in benefits for the 
economy, public health, and overall awareness of public lands. 
Opportunities for outdoor recreation are one of the greatest resources 
that our public lands offer.

    57a. What is the return on investment that the American public gets 
for funds devoted to recreation-related spending on public lands 
managed by the Department of the Interior?

    Answer. In FY 2014, Interior's lands hosted an estimated 423 
million visits. The net economic value of a visit to Interior lands 
varies depending on the activity. For FY 2014, visitation to Interior 
sites provided an estimated $24 billion in value added, $42 billion in 
economic output, and supported about 375,000 jobs.

    57b. Could we be doing more to invest in outdoor recreation?

    Answer. The Department looks forward to working with Congress on a 
number of proposals to further invest in outdoor recreation. In 2016, 
the NPS will celebrate 100 years as the steward of the Nation's most 
cherished natural and cultural resources. The Administration's proposed 
National Park Service Centennial Act would provide new sources of 
funding and strengthen the ability of the National Park Service to 
manage and operate the national parks and programs that provide so many 
important natural, cultural, and recreational benefits to the Nation.
    The Administration has also proposed full, permanent, and mandatory 
funding of $900 million for the Land and Water Conservation Fund's 
programs beginning in 2018. Mandatory funding will increase the 
financial certainty needed to build and enhance local and community 
conservation partnerships and optimize valuable investments by 
leveraging other Federal and non-Federal funds.
    Finally we encourage Congress to provide a permanent 
reauthorization of the Federal Land Recreation Enhancement Act. The 
authority is scheduled to sunset September 30, 2017. A potential lapse 
in this authority will detrimentally impact the agencies' ability to 
support projects that improve visitor safety, experiences, and 
opportunities.

    57c. It is crucial to make sure that all Americans--including 
diverse populations, underserved communities, and youth--have 
opportunities to experience nature and to get out on our public lands. 
What is DOI doing to help connect people, especially diverse and 
underserved populations, with the outdoors and with our public lands?

    Answer. America's public lands and waters offer space to get 
outside and get active, and provide living classrooms with hands-on 
opportunities to build skills. The Administration launched the Every 
Kid in a Park Initiative to inspire the next generation to discover all 
America's public lands and waters have to offer. Starting with the 
2015-2016 school year, all fourth grade students and their families are 
able to receive free admission to all national parks and other Federal 
lands for a full year. Studies have shown that the fourth grade is the 
opportune time to impress upon children the importance of our natural 
resources and outdoor recreation. Now is a crucial time to inspire the 
next generation of conservationists. The National Park Service budget 
for 2017 includes $20 million for Every Kid in a Park to introduce at 
least 1 million fourth grade students from elementary schools serving 
disadvantaged students in urban areas to nearby national parks and 
provide park programs tailored for young people and their families, 
especially at high visitation and urban parks.
    Further, the NPS, in partnership with the National Park Foundation, 
has launched a campaign to engage the next generation and new audiences 
in life-enhancing and sometimes life-changing experiences at national 
parks. These efforts will draw new visitors, especially millennials and 
young families, to experience the national parks.

    57d. Madam Secretary, the President's budget includes a proposal 
similar to the bipartisan Wildfire Disaster Funding Act, of which I am 
a co-sponsor. This common-sense legislation would allow us to budget 
for wildfire suppression the same way we budget for every other natural 
disaster. Do you believe that restructuring would benefit the Interior 
Department, and how would the department prioritize funding for 
programs which would mitigate the cost and severity of future 
wildfires?

    Answer. Yes, restructuring the Wildland Fire Management budget to 
fund a portion of suppression costs through a cap adjustment would 
benefit the Department of the Interior by better assuring the 
availability of sufficient suppression funding in even the most severe 
fire seasons, thereby eliminating or reducing the potential need for 
reprogramming or transferring funds from other fire program budgets or 
non-fire accounts to cover suppression costs. If funds are borrowed 
from other programs within the Wildland Fire Management account in 
order to pay suppression costs, it can result in the bureaus having 
fewer resources available for hazardous fuels management and burned 
area rehabilitation projects, proven efforts for improving overall 
forest and rangeland health and reducing the risk of catastrophic 
wildland fires, and helping these areas recover from wildfire damage. 
Transfers from non-fire programs disrupt work in those programs 
notwithstanding supplemental appropriations to repay the transferred 
amount. The Administration's proposed cap adjustment allows for 
increased investments in priority programs in the 2017 DOI Wildland 
Fire Management budget, such as Preparedness, Resilient Landscapes, and 
Burned Area Rehabilitation, which will mitigate the cost and severity 
of future wildfires.

    Question 58. Madam Secretary, the agency is in charge of 
monitoring, inspecting and enforcing oil and gas safety standards on 
public lands. Reports have recently shown that the Department has not 
kept up with the pace necessary to ensure that public lands are 
protected from unintended consequences. What is the agency going to do 
to improve in this area?

    Answer. The BLM's FY 2017 budget request reflects the need to 
modernize BLM's oil and gas program to keep pace with development, 
technological advances, and evolving industry standards. The request 
includes $13.1 million to implement and administer recently promulgated 
and pending updates to BLM's rules governing onshore oil and gas 
production activities. These regulatory updates ensure that BLM's 
rules, which have not received a comprehensive update in over 25 years, 
reflect modern drilling technologies, practices, and standards.
    With respect to inspection and enforcement activities, the FY 2017 
budget request reiterates requests made in prior years to establish a 
new fee schedule to fund inspection and enforcement activities. The 
BLM's fee proposal is analogous to authority provided by Congress in 
the offshore oil and gas context. The funds such a fee generates would 
offset proposed reductions in appropriated funding.
    Finally, in order to increase efficiency and transparency of the 
leasing and permitting process, the BLM is working to automate many 
leasing functions through the development of the National Fluids Lease 
Sale System. It is also working to deploy updates to its Application 
for Permit to Drill processing system.

    Question 59. In an effort to reduce barriers for youth access, 
costs and regulatory requirements for many outfitters serving families 
have increased. For example, the latest National Park Service operating 
plan requirements for Dinosaur Monument require outfitters offering 
whitewater rafting trips to ``to ensure a safe and risk-free employee 
and client environment.'' (Exhibit B, Operating Plan, page 15). 
Concessioners are also required to collect medical and prescription 
drug information on their guests. While this may sound good, absolute 
standards such as the requirement to ``ensure a safe and risk-free 
employee and client environment'' is not feasible or possible on 
adventure trips in the backcountry. One of major insurance providers 
believes such a requirement could create unnecessary liability for the 
concessioner and result in higher insurance premiums. Will you apply 
similar standards to groups serving youth or will such standards be 
made more reasonable for all operating guiding and outfitting services 
on our public lands, and will there be an acknowledgement that the 
commercial groups are often important employers in gateway communities, 
providing safe and memorable experiences for Americans and 
international tourists in America's Great Outdoors?

    Answer. The National Park Service appreciates the important role 
guide and outfitters play in providing park visitors the ability to 
experience adventure in our parks as well as the key role these 
operators play in local communities. The NPS is actively engaged with 
the guide and outfitter community to share information and address 
industry concerns as they arise. For example, representatives of the 
NPS attend and participate in industry meetings including the annual 
America Outdoors Conference and the Wilderness Risk Management 
Conference and are represented on the Federal Interagency Council on 
Outdoor Recreation. Both of the issues you raised were identified 
through this collaboration and the NPS has already begun to take action 
on each.
    The NPS recognizes the inherent risk associated with backcountry 
activities such as whitewater rafting and that it is not reasonable to 
expect concessioners ``to ensure a safe and risk-free employee and 
client environment.''
    The NPS is working with the Park to amend the Operating Plan for 
Dinosaur National Monument. The Operating Plan will be revised to state 
that the ``Concessioner will develop and implement a Risk Management 
plan to comply with all applicable laws and to help provide for a safe 
and healthy environment for employees and visitors to the extent 
reasonably possible.'' This change will also be reflected in a template 
Operating Plan currently under development for use by all parks.
    The NPS is currently working with NPS concession management and NPS 
emergency response personnel as well as NPS concession guide and 
outfitters, to evaluate current contractual requirements and industry 
practices associated with visitor medical screening and collection of 
visitor medical and medication data for backcountry activities. Through 
this effort we are assessing how to facilitate a safe experience for 
visitors and provide the ability to effectively respond to visitor 
medical emergencies, while protecting the privacy of visitors and 
avoiding inappropriate liability for concessioners. The NPS will revise 
the Dinosaur National Monument Operating Plan regarding requirements 
for collection of medical information as appropriate based on the 
findings of this assessment.
          Questions Submitted by Representative Glenn Thompson
    Question 60. I am interested in learning more about the status of 
the cleanup of the Folcroft Landfill, a Pennsylvania property on the 
Superfund National Priorities List which is owned by the U.S. 
Department of Interior. According to the CERCLIS database, this is the 
only Superfund site in the state of Pennsylvania that is owned by the 
U.S. Department of Interior.
    Interior purchased this property in 1980, and it became part of the 
John Heinz National Wildlife Refuge under legislative authority 
provided by Congress. Congress initially provided $11 million for the 
development of the Refuge, and then increased funding to $19.5 million 
for expansion, including acquisition of the Folcroft property (PL 96-
315). The legislative history of the Refuge indicates that Congress 
intended for some of the authorized funds to be directed toward 
investigation of the Folcroft Landfill (PL 99-191). The record also 
indicates that DOI understood that by acquiring the property, the 
Agency was accepting an obligation to study and develop a remedy for 
pollution in the Folcroft Landfill. I am concerned that now almost 40 
years after acquisition of this property, little progress has been 
made. I believe it is important for us to understand what happened 
here, and I would appreciate your response to the following questions:

    60a. DOI testified before Congress that when the Folcroft property 
was acquired from a private property owner, the Landfill had been 
properly closed and capped, and no pollution was emanating from the 
property. What procedures and measures were put in place by DOI after 
the purchase of the property to preserve and maintain the cap and 
prevent erosion? What funds were spent on this effort? What reports 
were prepared by DOI for the period 1980-2015 documenting these 
procedures and measures?

    60b. The statute incorporating the Folcroft property into the 
Refuge (PL 96-315) directed FWS to work with EPA to ``investigate 
potential environmental health hazards resulting from the Folcroft 
Landfill . . . and to develop alternative recommendations as to how 
such hazards, if any, might best be addressed in order to protect the 
refuge and the general public.'' What investigations were conducted, 
and what was the cost of these investigations? What recommendations 
were developed based on this investigation? How were these 
recommendations implemented? What was the cost and timeline to 
implement these recommendations? What reports were prepared by DOI or 
EPA to document these investigations?

    60c. In 1983, the Folcroft property experienced a fire caused by a 
FWS vehicle parked on dry brush. Did the fire result in soil or 
groundwater contamination or otherwise cause damage to the refuge? What 
measures were taken to address any contamination or damage resulting 
from the fire? What was the cost and timeline of these measures? What 
testing was done afterwards to ensure that these efforts were 
sufficient to prevent the migration of contaminants or damage to the 
cap? What reports were prepared by FWS documenting the incident, the 
cause of the incident, the contamination or other damage caused by the 
incident, and the measures taken to prevent the migration of 
contaminants and/or to repair the cap?

    60d. The Folcroft property was added to the Superfund National 
Priorities List in 2001. As a property owned by the U.S. Department of 
Interior, the Folcroft property is subject to special rules and 
timelines under CERCLA Section 120 governing Superfund remediation on 
Federal facilities. Section 120 requires a Remedial Investigation/
Feasibility Study to commence within 6 months of listing. Was this 
deadline met and why/why not? Section 120 also calls for a timetable 
and deadlines for expeditious completion of the Remedial Investigation 
to be published. Was this information published? Is the Remedial 
Investigation being completed consistent with this timetable? What role 
has DOI played in the effort to complete the Remedial Investigation and 
Feasibility Study in an expeditious manner? What interaction does DOI 
have with EPA on this matter? What interaction does DOI have with the 
group of private parties that have been completing the Remedial 
Investigation and Feasibility Study?

    60e. What do you estimate it will cost to complete remediation of 
the Folcroft site? How is this liability reported on the DOI's 
financial reports? What appropriations have DOI requested for the 
Remedial Investigation and Feasibility Study and/or the Remedial 
Action?

    Answer. Much of the information you are seeking relative to the 
Folcroft Landfill dates back over 35 years and would require 
considerable time to compile. Additionally, the EPA is the lead Federal 
agency for the cleanup of the Folcroft Landfill under the Comprehensive 
Environmental Response, Compensation and Liability Act of 1980 (CERCLA) 
and therefore, best suited to respond to many of your specific 
questions. In an effort to provide you with a timely response, cleanup 
activities at the property and the role of the FWS in this process are 
summarized here.
    The Department, through the FWS, has been working closely with the 
EPA to manage the Folcroft Landfill since Congress added the property 
to the National Wildlife Refuge System in 1980. Congress directed EPA 
to investigate and make recommendations regarding any environmental 
health hazards caused by the Folcroft Landfill.
    EPA has a legal agreement with a group of potentially responsible 
parties (PRPs) requiring them to perform the Remedial Investigation and 
Feasibility Study (RI/FS) to determine the nature and extent of 
contamination. An updated RI is currently being developed. The role of 
the FWS in this process is limited to project oversight and land 
management activities, such as reviewing and commenting on project 
submittals and evaluating the appropriateness and effectiveness of 
recommendations made for any potential remedial actions.
    As per the MOU, the FWS employs a full-time Project Coordinator 
with responsibilities at the Folcroft Landfill and three other sites in 
New Jersey. This employee is the FWS's liaison with the EPA on all 
aspects of the CERCLA process.
    The Department and the FWS are committed to working with the EPA 
through the CERCLA process to implement a remedy that will clean up the 
site and make it suitable for fish, wildlife and public use.
        Questions Submitted by Representative Robert J. Wittman
    Question 61. As the Department begins to develop a final offshore 
leasing program for the 2017-2022 Five Year Plan, will you commit to 
taking into consideration the continued broad bipartisan support for 
offshore energy production in the Atlantic Ocean?

    Answer. The Department is committed to considering all comments 
from stakeholders in the development of a Five Year Oil and Gas Leasing 
Program. It was after an extensive public input process that the sale 
proposed in the Draft Proposed Program in the Mid- and South Atlantic 
area was removed from the Proposed Program. Many factors were 
considered in the decision to remove this sale from the 2017-2022 
Program including significant potential conflicts with other ocean uses 
such as the Department of Defense and commercial interests; current 
market dynamics; national energy needs; and opposition from many 
coastal communities. As noted at the time the Proposed Program was 
announced on March 15 of this year, ``We heard from many corners that 
now is not the time to offer oil and gas leasing off the Atlantic 
coast. When you factor in conflicts with national defense, economic 
activities such as fishing and tourism, and opposition from many local 
communities, it simply does not make sense to move forward with any 
lease sales in the coming 5 years.'' Specific to the 2017-2022 Program, 
proposed leasing in the Atlantic will not be included in the Final 
Program since it was removed from the Proposed Program.

    Question 62. I asked last year when do you expect permits to be 
granted so seismic acquisition can begin and so far I do not believe a 
permit has been issued? I continue to believe that it is paramount that 
we get this new information and premature for the Department of 
Interior to make any decisions until new information has been received. 
Once permits are granted, how will this new resource information feed 
into the Five Year leasing process?

    Answer. BOEM has worked extensively with the permit applicants, the 
public, states and other Federal agencies as it reviews the proposed 
Atlantic seismic permits. Prior to BOEM making a final decision on the 
seismic permits, which last 1 year, companies first need to receive 
individual Incidental Harassment Authorizations from the National 
Marine Fisheries Service (NMFS). Once a permittee receives the 
necessary approvals from NMFS, BOEM will complete its review of the 
permits.
    The seismic permit and Five Year Program processes are separate. 
New data and information will help in the analysis of resource 
estimates and geological characteristics, both of which are considered 
as part of the eight factors specified in Section 18 of the Outer 
Continental Shelf Lands Act. This information is important to BOEM to 
inform potential leasing decisions during the development of any Five 
Year Oil and Gas Leasing Program, now and in the future.
          Questions Submitted by Representative Ryan K. Zinke
    Question 63. Secretary Jewell, you allowed the Royalty Policy 
Committee's charter to lapse before embarking on changes to coal oil 
and gas royalty and leading policy, thereby ensuring the states had no 
input to policy. Do you believe it was appropriate to make such changes 
without input from the states and tribes affected? Will you re-
establish the committee as previously constituted? If not, why?

    Answer. Through the State and Tribal Royalty Audit Committee and 
the U.S. Extractive Industries Transparency Initiative Advisory 
Committee, a FACA committee chartered in 2014, the Department engages 
with states and tribes and receives input on mineral revenue 
collections; compliance work; and the Department's royalty management 
activities, policies, and procedures. Participants in these committees 
include states and tribes, the extractive industry, civil society 
organizations, government agencies, and tribal government and 
individual Indian mineral owner representatives. Coordination through 
these entities helps the Department to ensure the full and fair return 
to the American people for the utilization of public resources.

    Question 64. I would again like to address the question of your 
assertion that reform of the coal leasing program is required. Last 
year, at about this same time, you told me that changes to royalty 
valuation policy, to coal royalties, and to coal leasing were called 
for by the GAO and IG reports. My staff and I met with GAO shortly 
thereafter; when I asked if the GAO Report you referenced made such 
recommendations, he said no. Madame Secretary, one of you is being 
dishonest. Are you calling the Comptroller General of the United States 
a liar or would you like to rephrase your remarks about the GAO Report?

    Answer. As indicated in the recently issued Secretarial Order 3338 
and BLM's Notice of Intent, numerous parties have voiced concerns about 
the Federal coal program, including the Government Accountability 
Office, the Department's Inspector General, Members of Congress, and 
interested stakeholders. The concerns raised by GAO (Coal Leasing: BLM 
Could Enhance Appraisal Process, More Explicitly Consider Coal Exports, 
and Provide More Public Information, GAO 14-140 (Dec. 2013)) and the 
OIG (Coal Management Program, U.S. Department of the Interior, Report 
No. CR-EV-BLM-0001-2012 (June 2013)) center on whether taxpayers are 
receiving fair market value from the sale of Federal coal. This issue, 
along with concern that the coal program conflicts with the 
Administration's climate policy and national climate goals and concerns 
about the structure of the program in light of current market 
conditions, was one of the aspects of the coal program that received 
the most attention during public listening sessions carried out across 
the country, including in Billings, Montana. As a result, the 
Department is carrying out this review, through preparation of a 
Programmatic Environmental Impact Statement, which will identify, 
evaluate, and potentially recommend reforms to the coal program.

    Question 65. You have referred several times to the Headwaters 
Study as a justification for your actions against the Federal coal 
leasing program. This study was done by an NGO in my state funded 
almost entirely by environmental groups and foundations with close ties 
to the Democratic Party. Nevertheless, you have referenced this study 
as a basis for your actions. Are you then aware of the Energy Ventures 
Analysis peer review of the Headwaters Study, which concluded the study 
was based on flawed data and designed to reach predetermined 
conclusions? It has been sent to you by several people, entered into 
the official record of this committee by Representative Lamborn, and 
filed by several parties in official comments to the ``listening 
sessions'' on the Federal coal leasing program. Are familiar with the 
Energy Ventures Analysis peer review? If so, can you please expand upon 
the conclusions that were reached that discredit the Headwaters Study?

    Answer. The review of the coal program is not based solely on any 
one document and is being carried out instead following concerns about 
the Federal coal program voiced by a number of parties, including the 
Government Accountability Office, the Department's Inspector General, 
Members of Congress, and interested stakeholders.

    Question 66. Madame Secretary, none of the reports or studies that 
you have mentioned to this committee demand the changes to the Federal 
coal leasing program that you have initiated. Can you point to any 
credible reports or studies not initiated by private special interest 
groups or organizations tied directly to the Democratic Party that 
justify the changes to royalty valuations that you have pursued? Please 
provide exact information about these reports and studies.

    Answer. As indicated in response to a previous question, the 
programmatic review will identify, evaluate, and potentially recommend 
reforms to the coal program. A programmatic review of the coal program 
has not been undertaken in more than 30 years. As articulated in 
Secretarial Order 3338 and BLM's Notice of Intent, numerous parties 
have voiced concerns about the Federal coal program, including the 
Government Accountability Office, the Department's Inspector General, 
Members of Congress, and interested stakeholders. The concerns raised 
by GAO (Coal Leasing: BLM Could Enhance Appraisal Process, More 
Explicitly Consider Coal Exports, and Provide More Public Information, 
GAO 14-140 (Dec. 2013)) and the OIG (Coal Management Program, U.S. 
Department of the Interior, Report No. CR-EV-BLM-0001-2012 (June 2013)) 
center on whether taxpayers are receiving fair market value from the 
sale of Federal coal. This issue, along with concern that the coal 
program conflicts with the Administration's climate policy and national 
climate goals and concerns about the structure of the program in light 
of current market conditions, was one of the aspects of the coal 
program that received the most attention during public listening 
sessions.

    Question 67. In your time as Secretary, the agency has initiated 
several activities that impact coal, oil, and gas produced on Federal 
lands--activities which provide significant revenues and fair returns 
to the Federal Treasury and to states like my state of Montana. 
Specifically, the Agency is considering changes to the Federal Coal 
Leasing Program with regard to valuation and royalty rates, and now the 
Agency has instituted a moratorium on Federal coal leases while a 
Programmatic Environmental Impact Statement and comprehensive review, 
to analyze fiscal and environmental considerations, is completed in 
approximately 3 years. You told Senator Daines from Montana that you 
could not commit to a 3-year timeline because you will only be in 
office for another 11 months. I would say that your actions, 
specifically as they relate to the moratorium and PEIS are 
irresponsible and shortsighted. You put a 3-year moratorium in place, 
subject to the completion of a PEIS that could take more than 3 years 
when you will only be in office for less than a third of that time. To 
me, that's like a pilot parachuting out of a plane after takeoff and 
telling the passengers they should be fine. You mentioned that you 
hoped to complete an interim report by the time you are out of office. 
Will you commit that you will brief this committee on the contents of 
the interim report once it is ready?

    Answer. The Department is happy to provide the committee with a 
briefing on appropriate information after release of the interim 
report.

    Question 68. Why after having communicated that the PEIS and 
moratorium on Federal coal leasing would take 3 years did you refuse to 
commit to that time period in Testimony before the Senate last week? 
Why can you not commit to the time period that you yourself said was 
required to complete the study?

    Answer. The Department expects the review to take approximately 3 
years to complete, but it is impossible to know what factors or how a 
subsequent administration may impact the timing of that review. 
Regardless, the Department expects to release an interim report by the 
end of this year containing conclusions from the public scoping 
sessions and other, additional, information.

                                 ______
                                 

    The Chairman. Thank you very much. We will now turn to the 
Members for questions. I would remind them we have 5 minutes 
for questions.
    And also, one other thing. The Secretary is the only one 
who is down there answering all the questions. We get a chance 
to wait, gear up for it, and then go on the offensive. But I 
want you to be respectful of the time she has, which means if 
you want to ask a question, give her enough time left to answer 
the question or don't ask it in the first place.
    And because I want to go though everyone, I am going to cut 
it off at 5 minutes. So if I am cutting you off at 5 minutes, I 
may cut her off at 5 minutes, too. But we have to get everyone 
through here. So please be respectful of that.
    Mr. Young. Mr. Chairman, I have a parliamentary inquiry. We 
will cut our questions short, as long as she cuts her answers 
short.
    The Chairman. All right, you can argue that one with her as 
time goes on. I am only concerned about the total time. As soon 
as it goes to zero, that is it.
    And, unlike other traditions, I am going to start off with 
the first questions, if I could. And I will cut myself off at 5 
minutes, as well.
    I noted earlier in the opening statement that we received 
documents that were subpoenaed from the Gold King Mine 
disaster. As we review those documents, we are going to await 
your full response. But I do want to address at least one item 
that is up there.
    When you testified last December, you said the Gold King 
Mine disaster was an accident. Specifically, you stated, ``We 
do not see any deliberate intent to breach a mine.'' Before we 
go into that, do you want to amend that statement or retract it 
at all?
    Secretary Jewell. No, I completely agree with that. It was 
an accident.
    [Slide]
    The Chairman. Then look at the email that we have up on the 
screen. I want you to look at it. The email is dated August 7, 
2015. That is 2 days after the spill. The email was sent by the 
BLM's abandoned mine program lead in Colorado, who is working 
with the EPA on the Gold King Mine project. He sent the email 
to senior leadership within the BLM Colorado State staff. He 
wrote the email after talking to the EPA's on-scene 
coordinator.
    So, less than 48 hours after the blow-out, your employee in 
Colorado talks to the EPA official in charge, and then emails 
all senior leadership at BLM, and basically says EPA was 
deliberately removing a small portion of the plug to relieve 
pressure in the mine when the blow-out occurred. There was 
nothing unintentional about EPA's actions with regard to 
breaching the mine; they fully intended to dig out the plug and 
breach it. It was a major mistake and a lack of engineering 
planning, but it was done on purpose.
    So, once again, do you want to do anything about that 
before I go on?
    Secretary Jewell. The EPA work was preparation, as I 
testified when I was before this committee, and I stand behind 
that testimony and the conclusions of the Bureau of Reclamation 
study.
    The Chairman. Which don't actually go with this document or 
any others. And one of the most frustrating parts, when we 
actually subpoenaed documents, you gave us 6,000 pages, much of 
it redacted, of information. But this particular document we 
only got on the day we actually submitted the report from this 
committee that we had to go through and ferret our ourselves. 
This is one of the key emails that should have been there, and 
part of the information that was given to us, and one of the 
reasons why we eventually had to subpoena more.
    I am sorry. This we should have had well before the first 
hearing that we ever had. This should have been part of the 
information that was given to us, and it was not. I am sorry, 
your Department sat on it past the December hearing, until we 
actually gave it out. That is the first day we actually 
received this document, is the day we submitted our report. 
That is unacceptable.
    Let me move on. In the last 5 years, your Department said 
that 99 percent of the Department's acquisitions have been 
inholdings within existing parks and refuges. I doubt that. But 
what I would really like to know is what percentage of the 
total acquisitions using LWCF monies actually abut Federal 
lands on at least a majority of the borders, which should be a 
definition of inholdings. What percent of those come from LWCF 
funds?
    Secretary Jewell. I do not have that percentage. Kris, do 
you have it handy?
    Ms. Sarri. As we have mentioned, 99 percent of the 
properties are inholdings, and that includes what is in the 
National Park Services, BLM, and the Fish and Wildlife Service 
refuge boundaries.
    The Chairman. That is not what I am asking--we have a 
different definition of inholdings. I am asking how many of 
those LWCF lands are actually abutted by Federal lands on a 
majority of their sides?
    Ms. Sarri. That is something we will have to get back to 
you on.
    The Chairman. Well, I wish you would, because that is the 
key definition of an inholding. Anything else, we are spinning 
it again in something else.
    What percentage of land easements acquired by LWCF money 
were already owned by a land trust that had the land or land in 
easement?
    Ms. Sarri. Again, that is something that we will have to 
get back to you on. But it is very valid often to protect these 
lands via non-profit organizations or other stakeholders as we 
wait on funding to help with acquisition.
    The Chairman. Yes, but that does not help us in our efforts 
to try and figure out what our policy ought to be. If the 
definition of what an inholding is is different--and it is, 
from what you are saying--to what reality is, then we have a 
problem.
    I would like to know how many of these funds are actually 
going to lands that are already owned and protected by some 
other agency before we buy it. And then, how can we guarantee 
recreational opportunities on these lands, once you get hold of 
them?
    Let me say one last thing. In every monument--you knew this 
was coming, didn't you? In every national monument, you have at 
least had somebody in the local delegation dumb enough to 
support it. If you were doing something in Bears Ears, I want 
it very clear there is nobody in the Utah Delegation, the 
Senate or the House, who supports it. There is no one in the 
state administration who supports it. You cannot find a state 
legislator who represents that area who supports it.
    You cannot even find a commissioner who supports it, even 
though the only elected Navajo we have on a state or county 
level is in that particular county, and she is opposed to it. 
The chapters that live in that area are opposed to it. I am 
going to say there is going to be a different standard. If 
there is something that is done in Bears Ears in Utah, you do 
not have the same kind of local support as you do in other 
places.
    Mr. Grijalva, you are recognized.
    Mr. Grijalva. Thank you very much. Let me start off, Madam 
Secretary, with an easy question. A newspaper recently reported 
that the illegal occupation of the national wildlife refuge in 
Oregon has already cost the taxpayers $3.3 million in state and 
Federal law enforcement expenditures. While we have not seen an 
official estimate of costs incurred by the Fish and Wildlife 
Service, I understand that the costs will be significant, 
potentially in the tens of millions of dollars, once 
restoration of the refuge is complete.
    When can we expect a full estimate of those costs, Madam 
Secretary? And what can Congress do to ensure that the law 
breakers, not the taxpayers, bear these costs?
    Secretary Jewell. Thank you, Ranking Member Grijalva.
    Mr. Grijalva. That was the easy question.
    Secretary Jewell. Well, yes, the answer is we are only now 
just getting back into the refuge after the criminal sweep has 
been completed by the FBI, so I do not actually have a number 
for you yet, or a time frame. It is something that we are 
estimating right now, but it has cost a significant amount of 
money. We do not know the damage yet to the cultural resources 
or the natural resources.
    Mr. Grijalva. Thank you. Madam Secretary, is the 
Environmental Protection Agency in the Department of the 
Interior?
    Secretary Jewell. No, sir, it is not.
    Mr. Grijalva. OK. Some in the Majority seem to be a little 
confused about that when you were here a few months ago. Since 
EPA is not in the Interior Department, do you have any 
authority to compel documents from them?
    Secretary Jewell. No, sir, I don't.
    Mr. Grijalva. And, as you are aware, EPA was working at the 
Gold King Mine when they released 3 million gallons of 
wastewater. Of course, this is nothing compared to the 330 
million gallons of acid mine drainage the mines in the area 
leak almost every year, which is what EPA was trying to fix. 
But it is still something worth trying to understand.
    To my knowledge, is there anyone investigating what 
happened at the Gold King Mine that does have the authority to 
compel documents from them?
    Secretary Jewell. I believe that the EPA's own Inspector 
General is doing an assessment of the decisions made by the 
EPA. But the limitation of our review was strictly technical in 
nature and that was done by the Bureau of Reclamation.
    Mr. Grijalva. OK. If unaddressed, climate change will 
continue to make the American West dryer and hotter. Can you 
discuss the steps the Department is taking to address the 
threat of climate change as it relates to the West's water 
supplies?
    Secretary Jewell. Thank you. I am going to ask my 
colleague, Mike Connor, to take that question.
    Mr. Connor. Thank you for the question, Congressman. We are 
taking action on a number of different levels with respect to 
trying to build resiliency in our water systems to address 
ongoing droughts, as well as climate change for the long term. 
We are investing significant dollars through this budget and 
the previous year's budget in our WaterSMART program. We have, 
through that WaterSMART program, developed conservation 
actions, invested in water reuse opportunities, and overall 
have created or otherwise conserved almost 1 million acre-feet 
over the last 7 years.
    In addition to that, we continue to work with many 
different communities through our basin studies programs to 
identify integrated plans to look forward and evaluate supply 
and demand imbalance in individual river basins, work with 
stakeholders to develop long-term action plans that would, from 
a balance standpoint, look at environmental needs as well as 
water supply needs. The Yakima River Basin is an example of one 
of those integrated plans, in addition to the Colorado River.
    Those are just a sampling of the activities that we are 
looking at across the board, from a water supply, environmental 
storage, and conservation perspective.
    Mr. Grijalva. Thank you. The Land and Water Conservation 
Fund is an important tool from your perspective, Madam 
Secretary. What do we need to ensure that remains a successful 
tool well into the future?
    Secretary Jewell. I don't think there are very many pieces 
of legislation that have been as successful and important to 
the American people as the Land and Water Conservation Fund. It 
funded over 40,000 projects, in nearly every single county in 
the United States of America, from local ball fields to 
inholdings like some we are trying to put together in Grand 
Teton National Park right now that Congresswoman Lummis is well 
aware of. There are willing sellers and there is a desire of 
people to have easements for sportsmen's access, for hunting 
and fishing. LWCF has been a critical part----
    Mr. Grijalva. Madam Secretary, the designation of 
monuments, whether it is Bears Ears, Grand Canyon, or other 
areas that are being talked about, I would hope that that does 
not slow down at all.
    The Chairman. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. Madam Secretary, 
regarding the ONRR's proposed coal valuation rulemaking, the 
BLM's evaluation of royalty rate increases, and the coal 
leasing moratorium that was initiated by your agency, you are 
destroying my state's economy, and I am not exaggerating.
    Wyoming has the smallest population in the Nation, by far. 
Half of our state is controlled by the Department of the 
Interior. You initiated policies with regard to jacking up 
coal, oil, gas royalties and proposed to increase them, at a 
time when coal companies are going bankrupt, railroad workers 
are being laid off, and coal miners are being laid off. In the 
year just passed, there were coal mine jobs lost every single 
month.
    In the face of the desire of this Administration to 
literally destroy coal, oil, and gas industries, how is it 
consistent with getting a fair return on the value of Federal 
lands? Because no leasing means no financial return. That is my 
first question.
    Secretary Jewell. Congresswoman Lummis, Wyoming is blessed 
with many natural resources. They also are tied to worldwide 
commodity prices. Oil, gas, and coal are tied to commodity 
prices. You also have a situation in the case of coal where 
natural gas has become a competitor to coal for electricity 
generation.
    There is no question that coal has been an important part 
of our energy past, and will continue to be an important part 
of our energy future. But the prices for coal and how it 
interplays with natural gas and other sources of energy are 
based on worldwide commodity prices.
    Second, there is a 20-year supply of coal under lease 
currently on public lands right now. We are taking a look at a 
coal program that has not been looked at for many, many years. 
We are putting a pause until a programmatic EIS is done.
    Mrs. Lummis. Madame Secretary, I am going to interrupt you, 
because that pause does not allow companies to plan. And there 
are no limits on how long these programmatic EISs are going to 
take.
    Let me switch directions. Why did you let the Royalty 
Policy Committee's charter lapse in 2014?
    Secretary Jewell. I am not familiar with that.
    Mrs. Lummis. The Royalty Policy Committee was specifically 
tasked with providing advice to you on royalty management 
issues and other mineral-related policies. I know because I 
used to sit on that committee, and I don't think the committee 
met during the entirety of President Obama's administration. 
And regarding these six BLM listening sessions that were held 
around the country, if you would have listened to what was said 
in the listening sessions, you never would have put the 
moratorium on coal in the first place.
    So the policies of this Administration are absolutely 
geared toward killing coal, limiting oil and gas production on 
Federal lands, and diminishing the revenues available from 
those lands, which hurts my state more than any other state. 
The manner in which this Administration has treated my state is 
absolutely deplorable.
    I love Yellowstone National Park, I love Grand Teton 
National Park. I love Devils Tower. I love the Shoshone 
National Forest. I live right next to the Bridger National 
Forest. I have a farm that abuts the Bridger National Forest. I 
love those spaces. That is only part of our state. The things 
that are being done at the national parks are fabulous and 
incredible, and I applaud you. But what is happening elsewhere 
in the vast majority of my state are destructive policies that 
are destroying my state, families, jobs, and the ability to 
earn an income. Our population will decline again as a result 
of Department of the Interior policies.
    I want to tell you I am grossly offended by what this 
Administration has done to my state. Mr. Chairman, I yield 
back.
    The Chairman. Thank you.
    Secretary Jewell. Mr. Chairman, may I have a quick 
response?
    The Chairman. You have 9 seconds. No, you don't, I am 
sorry.
    Mr. Young. Not much time left.
    The Chairman. I will come back.
    Mr. Young. You have 9 seconds.
    The Chairman. We will come back. Actually, be careful, your 
farm may be an inholding.
    [Laughter.]
    The Chairman. Ms. Bordallo, you are recognized for 5 
minutes.
    Ms. Bordallo. Thank you, Mr. Chairman. First, Madam 
Secretary, it is good to see you again. I am sorry that I was 
unable to be at the IGIA meeting. I was in the Pacific.
    I appreciate this year's budget request. It maintains 
compact impact discretionary funding of $3 million. With budget 
constraints, mandatory funding for compact impact is only a 
fraction, approximately one-fifth of what GAO estimates the 
jurisdictions need for providing social services to COFA 
migrants.
    I understand that Interior's budget proposal does not 
include a request for Palau compact assistance. Instead, you 
are anticipating passage of the Administration's legislative 
proposal, which includes appropriations through 2024. Palau is 
an important Pacific ally, and I am concerned about any lapse 
in assistance. Should there be a lapse, how does Interior plan 
on continuing assistance?
    Additionally, can you comment on the impact that not 
passing the Palau compact will have on U.S. leadership in the 
region?
    Secretary Jewell. I completely agree with you, 
Congresswoman Bordallo, about the importance of Palau and the 
importance of a long-term fix. Rather than a discretionary, 
year-by-year portion of our obligation to Palau, we believe we 
need to step up and provide the full amount.
    We did have a recommendation to do that with an offset. It 
was the helium fund, which was used for other purposes. We 
would welcome opportunities to work on a permanent solution. I 
would say if we are not able to secure that, we are going to 
continue to have to provide the annual amounts. Palau is 
strategically very important, and has been a very, very 
important ally of the United States since World War II.
    Ms. Bordallo. Right. Well, I certainly hope that we will be 
able to continue assistance if it does not come through on the 
administrative proposal.
    Secretary, I appreciate OIA's focus on sustainable energy, 
coral reef management and invasive species control, amongst 
many other important matters. I understand that there is an 
overwhelming need for funding from the Technical Assistant 
Grant Program, or TAP. Could you explain how the request of $21 
million for TAP measures up to the needs of the territories, as 
expressed in the grant proposals that OIA receives annually?
    Secretary Jewell. I do not have with me the total amount 
they have received, but I will say that the grant program is a 
small fraction of the requests that we receive. And having been 
to Guam, and spent a lot of time with representatives from all 
of the insular areas, I would say it is much, much smaller than 
the identified need that we have seen in all of these places.
    Ms. Bordallo. Secretary, as you know, we have a problem 
with invasive species like the brown tree snake and coconut 
rhinoceros beetle. As a co-chair of the NISC, in developing the 
regional biosecurity plan for Micronesia and Hawaii, the RBP is 
meant to assess and provide a path forward on addressing 
invasive species' risks to the Pacific area. So please 
elaborate on how the Interior budget request addresses 
Interior's role in implementing RBP's recommendations. In 
particular, how does the budget address the challenges of 
invasive species?
    Secretary Jewell. I am going to ask Kris Sarri to respond. 
Kris?
    Ms. Sarri. Thank you, Congresswoman. As you mentioned, 
invasive species are an extraordinary threat to natural 
ecosystems and to the economy. One of the best things we can do 
is try to do early detection and rapid response when an 
invasive species is spreading.
    So, the budget actually requests $1.5 million to help with 
early detection and rapid response. That can be particularly 
helpful in the Pacific region. There are also investments in 
USGS to look at rapidly emerging invasive species and to try to 
help communities with that.
    Ms. Bordallo. All right. I have just a minute left. So, 
once again on compact impact, could you discuss how OIA's 
budget request this year internally addresses some of the 
needed measures, such as a unified metric across jurisdictions 
that will more accurately represent compact impact costs?
    Secretary Jewell. I can say that we, as you know, have put 
one-stop centers in both Guam and Hawaii to try and streamline 
the process of compact impact. I will have to specifically look 
into the latter part of your question.
    We have a small amount, $30 million in the budget. The 
impact on Guam is $144 million a year in unreimbursed costs. In 
Hawaii, it is $163 million a year. It pales in comparison, but 
we will get back to you on the specific question.
    Ms. Bordallo. Thank you, Madam Secretary.
    And I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. Thankfully, this is the 
last time we have Ms. Jewell before us.
    Ms. Jewell, you say you only increased your budget 1 
percent. Is that correct?
    Secretary Jewell. It is a half a percent, sir.
    Mr. Young. Half. OK. What was the enacted budget of 2016?
    Secretary Jewell. Kris, you have the total budget for 2016?
    Ms. Sarri. It is $13.3 billion.
    Mr. Young. No, it was $18.53 billion.
    Secretary Jewell. We are talking about the discretionary 
funds.
    Mr. Young. That was what was enacted. When you say it is 1 
percent, you actually have an 11 percent increase, $2 billion 
over last year's budget, requested by this Administration.
    The Fish and Wildlife proposed rules in the state of Alaska 
that take away our authority to manage fish and game. The Park 
Service has done that and your agencies assert their actions 
are allowed by the National Wildlife Refuge System Improvement 
Act. I am an original sponsor of that Act, and I know the law 
securely states ANILCA takes priority in any conflicts 
regarding refugees in Alaska.
    Now, why is Fish and Wildlife doing this? You want us to go 
to court?
    Secretary Jewell. The Alaska Department of Fish and Game 
manages wildlife. The Fish and Wildlife Service and the Park 
Service also are charged with managing wildlife, consistent 
with its rules.
    Mr. Young. Under ANILCA it is very clear. Read the law. And 
you have not done that. The law makes it very clear that the 
state of Alaska has authority to manage fish and game on the 
preserves, primarily, and on refuges. That is the law.
    Now, I suggest you get your legal beagle, because we will 
go to court. I already passed it in the House to take away that 
authority. You are going against the Act of this Congress. I 
suggest respectfully to do that. You do not mess with the state 
by regulation. Of course, this Administration does. Taking away 
a right of this Congress that passed it for the state.
    Second thing I would like to know, we have an area called 
ACEC, special management areas designated by the BLM to protect 
significant historic, cultural and scientific values, fish and 
wildlife resources, or natural systems. And three of them have 
popped up in the state: two are in the 40-mile mining district, 
700,000 acres set aside with restrictions against mining; the 
other one is in front of the Diamond gas line corridor so the 
mine can be developed.
    Where did those restrictions come from and what were they 
based on?
    Secretary Jewell. The ACEC stands for Areas of Critical 
Environment Concern.
    Mr. Young. OK. What were they based on?
    Secretary Jewell. They are based on an assessment that the 
BLM does.
    Mr. Young. Do you have the assessment before you? Are you 
aware of it?
    Secretary Jewell. I do not have the assessment before me, 
and I will have to get back to you for the record.
    Mr. Young. Both of these areas are minerally rich. One is a 
gold mine. It needs a gas line. And all of a sudden the ACEC 
pops up, ladies and gentlemen, so we cannot get the gas to the 
mine. Now, what is the reason?
    Secretary Jewell. I am sorry, sir?
    Mr. Young. What was the reason?
    Secretary Jewell. The BLM is updating its resource 
management plan.
    Mr. Young. Is it the Fish and Wildlife?
    Secretary Jewell. I believe the resource management plan 
you are talking about in the Fortymile situation is BLM.
    Mr. Young. I am talking about the Diamond mine right now.
    Secretary Jewell. I am sorry, I don't know.
    Mr. Young. You don't know?
    Secretary Jewell. I am happy to get back to you for the 
record.
    Mr. Young. And yet you are the Secretary. When you set 
aside 175,000 acres of habitat for polar bears in the Arctic, 
did you consult with any of the Native groups up there?
    Secretary Jewell. The work on the polar bears was largely 
done at the end of the prior administration.
    Mr. Young. No, you set this land aside recently, Fish and 
Wildlife did it. Was there any consultation with the Native 
groups along the coastal plain?
    Secretary Jewell. Are you talking about in the Arctic 
National Wildlife Refuge, sir?
    Mr. Young. No, no, the whole thing. You set aside over 
175,000 acres of habitat for the polar bear. Was there any 
consultation taking place with the Native organizations up 
there?
    Secretary Jewell. What the Fish and Wildlife Service does 
is----
    Mr. Young. Did you have any consultation? Did you have any 
consultation?
    Secretary Jewell. It is based on science and work with the 
people.
    Mr. Young. That is not my question, Madam Secretary. Did 
you consult with the people it directly affected? They have the 
right to take subsistence to take those bears, and yet they 
cannot do it under your recommendation with Fish and Wildlife.
    Secretary Jewell. The Fish and Wildlife Service office is 
located in Kaktovik. They speak----
    Mr. Young. They did not consult with the people. That is an 
example of this Administration.
    The Chairman. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman and Ranking 
Member. I have some issues with regards to both the National 
Park Service and the Bureau of Land Management, but I will 
confine those and submit them later, Madam Secretary. Most of 
my focus will be on the devastating drought that has impacted 
the West, and California, in particular. I suspect the Under 
Secretary will be the default to answer the questions that I 
have.
    Clearly, as we all know, this has impacted farm 
communities, farm workers, and farmers. Last year, over 600,000 
acres went unplanted. The current drought has demonstrated the 
devastating impact that the combination of 5 dry years have 
had, and no one expects you to control the weather. Clearly, 
the climate is continuing to change.
    But the regulatory impact, combined with those 5 dry years 
has been, I think, a double whammy, in terms of the impact to 
people. During the 5-year drought, and let me give you a 
comparative analogy from 1987 to 1992, the Central Valley 
Project agricultural services water supply allocations were 100 
percent, 100 percent, 50 percent, 25 percent, and 25 percent.
    In the 20 years since that drought, numerous state and 
Federal regulations have been imposed, rededicating the 
existing water supplies to various other purposes, including 
the environment for management, and limiting operational 
capacity of the Central Valley Project.
    This effort has focused on readdressing the use of the 
water. Little or no effort has been used for invasive species 
or predator fish, which was the topic of an earlier 
subcommittee hearing last week, a significant cause of the 
decline of the fisheries.
    The result has been a stark review when we recently look at 
the Central Valley Project and the Ag. service allocations 
which, beginning in the ninth wettest year on record, 2011, 
your allocations in a comparative analysis from the late 1980s 
and 1990s to 2011 were an 80 percent allocation. We had 180 
percent of normal water that year; 40 percent the following 
year in 2012; 20 percent in 2013; 0 percent in 2014; 0 percent 
in 2015; and likely an expected zero allocation this year, as 
well.
    And it is that devastation, combined with 5 continuous dry 
years, plus this regulatory scheme that has been so devastating 
to the people I represent. It seems clear that regulatory 
reform is essential to providing the Central Valley Project the 
ability to meet contractual obligations.
    Mr. Under Secretary, can you explain to me why, even in 
years like 2011, the ninth wettest year in our over-100-year 
historical record, the Central Valley Project was only capable 
of providing 80 percent of its contractual obligation?
    Mr. Connor. I can provide a general overview as to why I 
think that happened. We have basically been in drought for the 
last 8 years, as you know----
    Mr. Costa. No, no, we all get that.
    Mr. Connor [continuing]. In the Central Valley of 
California. So we were in drought until about 2011. The rains 
and the precipitation came late in the year, which was part of 
the reason why the allocation was late.
    Mr. Costa. Mr. Under Secretary, and Madam Secretary, I 
respect all your good work, but I do not have a lot of time.
    For over 20 years, we have had an increasing layer of 
regulatory requirements that have reduced the water supply from 
90 percent to 40 percent. That is just the bottom line. And I 
guess I would feel better about it if, at the same time the 
water reliability had significantly decreased, that we were 
increasing the populations of listed species that have declined 
by all measures and are at the lowest level that have been 
recorded. I am talking about the native species, not the non-
native species. It is very clear that the current regulatory 
controls are not achieving their intended purpose for species 
recovery. I mean those are just the facts.
    So, Mr. Under Secretary, do you believe that in Fiscal Year 
2017 your budget provides the agencies under your jurisdiction 
the necessary tools to implement measures that will result in 
goals of increased water reliability for California's and 
species recovery?
    Mr. Connor. I think we are investing in both areas of water 
supply reliability, as well as species recovery.
    The drought has taken a devastating impact, not just on 
water supply, which I fully agree with you, but also with 
respect to Fish and Wildlife populations.
    There are metrics that NOAA Fisheries has provided that 
indicate in the first few years of the biological opinions for 
the salmon species that they were doing better. The replacement 
rate from salmon was improving during that course of time.
    Mr. Costa. I have 10 seconds left. What do you think the 
allocation is going to be this year for the Central Valley 
Project?
    Mr. Connor. At this point in time the allocation, and you 
are probably talking about water service contractors, is 
probably going to be at a zero, from where we are at right now.
    Mr. Costa. I am sorry, did you say zero?
    Mr. Connor. Zero for water service contracts south of the 
Delta.
    Mr. Costa. I will submit my other questions. Thank you, Mr. 
Chairman.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Secretary Jewell, for being here. 
Representative Lummis already brought up the coal moratorium, 
where you are even preventing the completion of pending lease 
applications.
    In that order you note that there have been two previous 
moratoriums on coal lease sales that were in response to 
legislative action by Congress: the enactment of NEPA in 1970 
and the Fiscal Year 1984 Interior Appropriations Act. In your 
order you do generally cite various existing statutes, but 
there has not been any specific legislation that would 
authorize a similar moratorium today.
    What is the specific legal justification for your order?
    Secretary Jewell. We will provide a solicitor's opinion if 
that is helpful.
    We went through this in detail. We looked at the historic 
record. We looked at what had been done in the prior two times 
that there had been a review of the coal program under the 
Reagan administration and the Nixon administration, and applied 
the same tools that Congress had used on the pause.
    Mr. Lamborn. But without the direction from Congress in 
this case.
    Secretary Jewell. Well, we followed the lead of what 
Congress did last time.
    Mr. Lamborn. Which we did not do this time.
    Secretary Jewell. We are doing a pause on the program 
because it has not had a review in 30 years, sir, and we felt 
it needed it.
    Mr. Lamborn. But Congress did not ask for this.
    Secretary Jewell. No, but we did listening sessions around 
the country. We did listen, contrary to what was heard before, 
and we felt a review was necessary.
    Mr. Lamborn. Well, this will be sorted out in the courts.
    Changing the subject, according to the Energy Information 
Administration, marketed natural gas production has increased 
by 35 percent from 2005 to 2013. Everyone knows it is 
increasing. But at the same time, EPA data shows that methane 
emissions have been decreasing.
    Now, in light of that, and in light of the fact that the 
EPA is continuing its efforts to reduce methane emissions from 
industry sources, why has BLM jumped into this, promulgating 
its own methane regulations, which sometimes overlaps with 
EPA's rules?
    Secretary Jewell. The BLM oversees the oil and gas activity 
on Federal and tribal lands, only. It is a different authority 
than the EPA. It is our responsibility to both collect revenues 
on behalf of all American people, and when methane is vented or 
flared no royalty is paid to the American people on that; and 
second, to do energy development in a safe and responsible way, 
which means environmentally responsible.
    Our venting and flaring rules, which we have done in 
consultation with states, including your own in Colorado, which 
is somewhat ahead of the game, have been to bring those into 
alignment, recognizing that venting and flaring natural gas is 
not getting taxpayers or tribes the royalties that they 
deserve, while also wasting valuable energy that is impacting 
the environment.
    Mr. Lamborn. There are those who are saying that the BLM-
proposed regulation and EPA's regulations overlap and even 
conflict. In light of that, are you open to extending the 
comment period, so that people can talk about the conflicts 
that are being caused by two agencies, which looks like they 
had not consulted with each other?
    Secretary Jewell. We have been consulting consistently with 
the EPA throughout this process. In some cases, we will allow 
an extension. In other cases, we believe there has been 
adequate time. I will have to look specifically at that one. We 
always entertain that, but if comment periods have closed, we 
also do take comments as people raise them throughout the 
process.
    So, we are intending to keep the venting and flaring 
efforts on track and believe that there has been sufficient 
time to comment. I can reassure you we have been consulting 
with the EPA throughout to make sure that we are not in 
conflict.
    Mr. Lamborn. Well, I would ask you to extend that period.
    Because the BLM venting and flaring rule will impose new 
costs on Federal oil and gas production, it is going to drive 
out marginal plays, it will drive out small players who do not 
have the resources to retrofit new techniques and equipment. 
Isn't this counterproductive to the Obama administration's 
policies? I mean, there is a war on coal.
    Secretary Jewell. There is not a war on coal.
    Mr. Lamborn. That goes without arguing. So that means a 
shift to natural gas. But this reduces natural gas. So isn't 
that counterproductive?
    Secretary Jewell. First, let me say there is no war on 
coal. Those are your words.
    Second, I do not think it is counterproductive. I do not 
think it is OK for an oil play to vent and flare natural gas 
into the atmosphere without any efforts to collect it. That is 
allowing a resource that belongs to all Americans to go up in 
smoke or to go up into the atmosphere. We believe it should be 
collected.
    It does cost money. I am sure there is also money to be 
gained from the production of this natural gas associated with 
oil.
    Mr. Lamborn. Thank you.
    The Chairman. Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Madam Secretary, I want to first thank you for your 
continuing commitment to the exploration of the potential of 
geothermal energy in the Northern Marianas, particularly on the 
island of Saipan.
    I have some other questions that I will probably submit for 
the record. But for now, the Close Up Program brings island 
students to Washington each year to learn how their government 
works, a government that they do not have direct participation 
in. We do not vote for a president, their Delegate does not 
have a vote. But it is a valuable use of Federal grant funds. 
In fact, several of my colleagues in the Northern Marianas 
Congressional Office got interested in government through Close 
Up.
    Your Office of Insular Affairs had recognized that Close Up 
is a program that is ``necessary on an ongoing basis for the 
insular areas,'' and ``because there was no other source of 
funds in the Federal budget.'' That is a quote from the OIA 
budget justification for 2016, 2015, 2014, and 2013. Close Up 
had a specific line item of $1.1 million in your Fiscal Year 
2016 proposal. But for Fiscal Year 2017, OIA has dropped any 
reference to Close Up, and I am not sure what to make of that. 
It is troubling.
    So, I would like to receive assurance today, Madam 
Secretary, that even though there is no specific mention in 
your budget documents, the Office of Insular Affairs will 
continue to use technical assistance funds to support Close Up 
in Fiscal Year 2017 at the level that the program needs. My 
colleagues that represent American Samoa, Guam, the U.S. Virgin 
Islands, and the Northern Marianas actually wrote the Assistant 
Secretary asking for the commitment. We have received no 
response, so I am going to ask you today.
    Secretary Jewell. I believe we have $1 million in the 
budget for the Close Up Program, but I will have to check with 
Esther Kia'aina to provide more specifics on that.
    Mr. Sablan. She has not responded to our letter. If she had 
responded, I would not be asking.
    Secretary Jewell. OK.
    Mr. Sablan. Thank you.
    Secretary Jewell. We will follow up, thank you.
    Mr. Sablan. Madam Secretary, on another issue, the fiscal 
year omnibus appropriation authorized a special resource study 
on the island of Rota to see if it would be feasible to have a 
national park there. This is something I worked to achieve 
since my very first year in Congress. I would like to hear from 
you that the study has begun as scheduled, and that you have 
the money you need in your Fiscal Year 2017 proposal to keep 
the Rota park study moving forward and on schedule.
    Secretary Jewell. I don't have an answer to that, either. I 
am sorry, I will have to look into that specifically for Rota. 
I have not seen whether it is specifically in the budget or 
just contained within the National Park Service broadly. We 
will get back to you.
    Mr. Sablan. OK. I have very little time left. We have in 
the Northern Marianas the American Memorial Park, dedicated to 
the war on Saipan and the Northern Marianas. We recently had a 
devastating typhoon last August. Electricity and water services 
are restored, schools are in session, life is really getting 
back to normal.
    I have been on two visits. I am hearing from constituents 
that the American Memorial Park, which the Park Service 
manages, has been slow to clean up debris, repair damage, and 
get the park fully open to the public. I would like to ask what 
is the problem? Is it a money issue? Is it because the park is 
supervised from Guam, and that means an extra layer of 
decisionmaking? What can we do to speed things up, Madam 
Secretary?
    Secretary Jewell. We will follow up with the Park Service 
directly. We are constrained for resources, but I was not aware 
of that until you just brought it up.
    Mr. Sablan. Thank you. On the Interagency Group on Insular 
Affairs, IGIA, which met last week. I was traveling and not 
able to attend. I think the concept of a White House-led 
response to the needs of the insular areas is great, I really 
do. But I am concerned about results.
    I have never seen a report on what the outcome of these 
IGIA meetings has been. Are the problems the island governors 
raised being addressed? Are the governors satisfied with the 
results? Is the IGIA process working? I don't know.
    So I would like to ask if your office could provide me with 
a report on the problems the governors have raised at IGIA over 
the last 7 years, and what the outcomes have been. Have we 
gotten results? Would that be possible, Madam Secretary?
    Secretary Jewell. I will be happy to ask Insular Affairs to 
do that. I was at the last IGIA meeting and I do believe we are 
making progress on a number of the areas that were raised.
    Mr. Sablan. I am out of time, Madam, but thank you.
    The Chairman. Thank you.
    Mr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    Madam Secretary, under Executive Order 13132, no agency 
shall promulgate any regulation that has federalism 
implications, that imposes substantial direct compliance costs 
on state and local governments, and that is not required by 
statute, unless the agency, in a separately identified portion 
of the preamble to the regulation, as it is to be issued in the 
Federal Register, provides to the Director of the OMB a 
federalism summary impact statement.
    Madam Secretary, yes or no, did the BLM prepare a 
federalism assessment for the hydraulic fracturing rule?
    Secretary Jewell. I believe we followed all of the 
appropriate regulatory standards.
    Dr. Fleming. That, again, is a yes-or-no question. We seem 
to have this problem each time we speak. I am just asking you, 
did you or did you not do this?
    Secretary Jewell. I am sure we followed all of the 
appropriate rules.
    Dr. Fleming. Well, apparently you did not, because it did 
not happen.
    BLM believes that there will be no financial impacts to 
states as a result of this rule. That came from your 
Department.
    Well, it appears that your agency was quite wrong in this 
assessment. Several states sued the Department of the Interior, 
alleging that irreparable harm from this regulation will occur. 
And, as you know, a Federal judge has now found that there 
exists a ``credible threat'' of irreparable harm in the way of 
lost revenue. This finding was on the basis of the four states 
claiming in their briefs and arguments that there would be lost 
revenue. North Dakota specified there would be a conservative 
estimate of lost revenue totaling over $300 million per year.
    Secretary Jewell, in light of the states' statements, do 
you believe your agency was correct in not providing a 
federalism assessment?
    Secretary Jewell. Sir, because this is a matter of 
litigation, I do not think it is appropriate for me to comment.
    Dr. Fleming. Well, I have to say the American people are so 
angry at Washington, and they have a right to be. I mean, this 
is absurd. You passed regulations without laws coming through 
Congress, you just simply roll them out there. They have 
negative impacts on states at a very critical time in history 
when it comes to the economies of our states. And you are not 
even willing to comment on the actions that you take. I just 
see that as very sad.
    Secretary Jewell. I stand behind the need for fracking 
regulations.
    Dr. Fleming. In the limited time that I have, I have 
another question. This is regarding the National Ocean Policy, 
and I will quote from it, as well. ``The order shall prepare 
and make publicly available an annual report, including a 
concise description of actions taken by the agency.''
    Now, President Obama signed the Executive Order 13547 in 
July 2010 to create the National Ocean Policy. What steps has 
the Department of the Interior and its agencies taken to 
implement the National Ocean Policy?
    Ms. Sarri. The intention of the National Ocean Policy was 
to facilitate interagency coordination on cross-cutting ocean 
issues, and also to work closely with states. It is something 
that we actually integrate into our work, whether we are 
talking about science or looking at different uses.
    Dr. Fleming. OK. But what I am specifically wanting to know 
is about this annual report. Have you been providing this 
annual report?
    Ms. Sarri. That is something that I would actually have to 
talk to the Council on Environmental Quality about, as they are 
the lead coordinator for this for the Administration.
    Dr. Fleming. Well, I can give you the answer right here. 
No, you have not done any annual reports, even though it is 
required.
    But what is interesting is this: in the order it says, ``It 
shall be consistent with applicable international law, 
including customary international law such as that reflected in 
the Law of the Sea Convention.'' Are we a party to that 
convention, that treaty?
    Ms. Sarri. No, we are not a party to it.
    Dr. Fleming. OK. Then why is it that the Administration 
fails to comply with laws that have been enacted, but intends 
to comply with laws that have not been agreed to?
    Again, the American people are tremendously angry at 
Washington, because we have a President and those who work for 
the President who insist on creating their own laws and not 
complying with the laws of the land, even though we all take 
the oath to faithfully execute all the laws of the land.
    With that, I will yield back.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you, 
Secretary Jewell, for appearing before the committee today and 
for your service at the Department of the Interior.
    I, for one, appreciate your work on behalf of the multi-use 
mandate, which is inherent in the Department of the Interior's 
management of Federal lands and the Department's critical role 
in protecting these lands for future generations. This is, 
obviously, not without its challenges, as we are hearing today. 
But it is important that we keep in mind that these lands 
belong to all Americans, that they are part of our national 
heritage, and that we have to keep this in mind as many 
difficult decisions are being made.
    I want to focus on the national parks, and I want to 
especially thank you for coming to visit my district this past 
fall as part of my River Day. I know that I am not the only 
Member of Congress who you have made a point to come visit and 
see the remarkable national parks that we call home.
    One of the real highlights of that visit was the 
opportunity to hand out an Every Kid in a Park pass to local 
fourth-graders. Some of them had come from a nearby city where 
there was not a resident national park, in fact, I don't think 
any of them had really ever been to a national park. So, I 
think it is such an important initiative that you are taking, 
especially as you seek to engage diverse populations for the 
future. It is so important to the long-term health and 
understanding of the important role that our national parks 
play in protecting our great heritage.
    In that vein, I really see some great numbers reflecting 
the significant visitation and recreational use of our national 
parks, and I wanted to give you a chance to simply highlight 
that. It was great to hear Congresswoman Lummis speak so highly 
of the national parks in her district, as well.
    Secretary Jewell. Thank you for the comments and 
appreciation for the national parks. We had record visitation 
last year: 307 million visitors to the national parks. This is 
the Centennial year, 2016. I am quite confident we will see an 
increase on that number. It drives tremendous revenues to local 
economies, billions of dollars. The outdoor recreation industry 
estimates, in total, $646 billion, a big chunk of that is 
through national parks.
    Kris or Mike, do you have the specific numbers for our 
latest national park study?
    We will provide that to you, as opposed to scrambling 
through the paperwork here.
    But as you know from the park in your state, as the 
Chairman knows from the national parks in Utah, and our other 
national parks, these are big drivers of revenue, tourism, and 
jobs across our country.
    Ms. Tsongas. I actually have the numbers in front of me. In 
2015 alone, the National Park Service confirmed a record 307.2 
million visits, which was a 4.9 increase over the previous 
record-setting year in 2014 of 292.8 million visits. I wish we 
could get more of those visits to Lowell. Minuteman does a 
great job. Eleven parks had more than 5 million recreation 
visits in 2015, and overnight stays in park campgrounds and 
back-country were up over 2014. So I think, obviously, there is 
broad recognition across this country of the unique 
opportunities that our national parks present.
    But yet, despite widespread public support for the National 
Park Service, its budget has been decreasing. In just the past 
10 years, the Park Service has had its budget decreased by 22 
percent, compromising its ability to ensure the long-term 
protection of this great heritage.
    In my own district, Lowell National Historical Park has had 
a 15 percent reduction in full-time staff from Fiscal Year 2010 
to 2015, and a 22 percent reduction in the park's base budget. 
Similarly, at Minuteman National Park, which commemorates the 
beginnings of the American Revolution, there has been a 27 
percent decrease in staff time, which is so important to 
fulfilling the mission of the park, and an 8 percent reduction 
in the base budget.
    Despite all that, you all are doing a remarkable job, and I 
think the visitation numbers reflect that. With that, I yield 
back the balance of my time.
    Secretary Jewell. Thank you.
    The Chairman. Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. Secretary Jewell, 
welcome.
    In the 1970s Congress passed laws such as NEPA and ESA that 
have been abused to drastically restrict our ability to manage 
our forests. As a result, we have seen an 80 percent decline in 
timber harvested out of the Federal forests, and we have seen a 
concomitant increase in the acreage destroyed by catastrophic 
wildfire in the same period, just proving the maxim that excess 
timber will come out of the forest, one way or another. It is 
either carried out or it is burned out, but it comes out.
    Trees that once had room to grow now fight for their lives 
against other trees that are trying to occupy the same ground, 
making them susceptible to pestilence, disease, and ultimately, 
catastrophic fire.
    After 40 years of such laws and policies that all promised 
to improve our forest environment, I think we are entitled to 
ask how are our forests doing, environmentally, these days?
    Secretary Jewell. We welcome the bipartisan recommendations 
on a fix to how we budget for wildland fires and how we budget 
for healthy forests fuels removals and working closely with 
communities----
    Mr. McClintock. You are not answering the question, Madam 
Secretary. Would you say that the environmental health of our 
forests has improved or deteriorated over the past decade?
    Secretary Jewell. I would say it has deteriorated, largely 
because we have not been able to do the work we could do.
    Mr. McClintock. I would say so, too. And I think that we 
need to look at the policies that are in place that are causing 
that deterioration.
    Mr. Connor boasted that programs such as WaterSMART, at 
enormous expense, have conserved a million acre-feet of water 
over the last 7 years. And yet, in the last 7 weeks in the 
Sacramento Delta, we have lost a half-million acre-feet of 
water to the Pacific Ocean, due to the Delta smelt biological 
opinion. The Water, Power and Oceans Subcommittee was told at 
last week's hearing that none of that water was used for any 
other purpose than for Delta smelt releases. It was all water 
that went to the ocean.
    I wonder what moral authority has the government to demand 
Draconian conservation measures from citizens when their own 
government thinks nothing of squandering water on a massive 
scale to adjust water temperatures for the fish, as was done in 
the releases last year, or in this case to save one Delta 
smelt.
    Mr. Connor. Congressman, the conservation measures that we 
are taking are not Draconian.
    Mr. McClintock. You shut down pumps, cost us a half-million 
acre-feet of water because one Delta smelt was caught in the 
pumps, and you don't call that Draconian?
    Mr. Connor. I said our conservation measures are not 
Draconian.
    Mr. McClintock. Do you understand how that sounds to the 
American people, or the people in my region who have stretched 
every drop of water in their homes, have watched their lawns 
die, have lost their prize gardens, all in the interest of 
conservation. They are watching this kind of squandering, and 
you do not even call that Draconian?
    Mr. Connor. I said the conservation measures through our 
WaterSMART program are not Draconian.
    To get to your question about the pumps, it is true that we 
have regulatory restrictions that are in place because of the 
status of endangered species. Having said that, we are working 
as best we can to maximize pumping.
    Mr. McClintock. We just received testimony that endangered 
species are declining, despite all of these policies. So, 
obviously, they are not working, but they are causing enormous 
economic harm in the West.
    Mr. Connor. The drought takes a toll on all, yes.
    Mr. McClintock. Let me get on to a question of our national 
parks. Tourists do not go where they are not welcome. The 
number of overnight stays at the national parks has declined 
rather dramatically from their highs. Yosemite, in my district, 
has just changed management. This is the first day of the new 
management, and they have just announced they are banning 
bottled water from sale anywhere in the park.
    How does this encourage Americans to enjoy our national 
parks, when you are systematically removing the amenities that 
make their stays pleasant?
    Secretary Jewell. We certainly have no intention of 
removing amenities that make stays pleasant. I would say 
garbage has been a huge problem for us in parks, and bottles, 
in particular. This was the genesis behind the policy trying to 
reduce that.
    Mr. McClintock. And yet there are no bans on canned soda. 
And, in fact, they are replacing the bottled water with boxed 
water. How does that reduce the garbage situation?
    Secretary Jewell. When people can refill their water 
bottles and reuse water bottles, you have----
    Mr. McClintock. But you are selling boxed water.
    Secretary Jewell. I don't know what you are talking about 
with boxed water, sir. We will have to look into that.
    Mr. McClintock. Well, let me ask you one other question.
    At peak tourist season, we have lines over a mile long at 
Yosemite. You have instituted in certain parts a pilot project 
that makes scanning of passes available so that people can gain 
instant entry. Are you planning to bring this to other parks, 
like Yosemite? And, if so, when?
    The Chairman. Answer that in the next round.
    Secretary Jewell. OK.
    The Chairman. Besides, you are never going to get people to 
come until you get Dr. Pepper in there. Forget about the water 
and the Gatorade.
    Mr. Ruiz.
    Dr. Ruiz. Thank you, Mr. Chairman.
    Madam Secretary, you are holding your own with strength and 
dignity, despite the disrespectful, patronizing, paternalistic 
bullying, demeaning Washington politics tone of this partisan, 
gotcha line of questioning.
    I want to say thank you for your pursuits in helping 
Southern California prevent the catastrophe of the receding 
Salton Sea, and for the funding to create the wetlands, which 
is very much appreciated. I want to get your ideas of what we 
can do to further prevent the decaying of the Salton Sea.
    Secretary Jewell. Mike?
    Mr. Connor. Congressman, thank you very much for the 
question. The Salton Sea has been very encouraging. Recently 
the state has stepped up to take a leadership role in looking 
at how the Salton Sea restoration plan can be revitalized. We 
are full partners in that effort. We just announced through 
Reclamation an additional $3 million investment in the research 
program.
    So, I think we collectively need to stay through that 
process to develop the appropriate restoration plan that will 
build upon the restoration plan that Fish and Wildlife Service 
financed. I think that concept of restored managed wetlands and 
a smaller sea is the way that we can manage the public health 
issues that exist there, as well as look for water supply 
benefits.
    Dr. Ruiz. Thank you. I understand that the Desert Renewable 
Energy Conservation Plan is in its final stages of development, 
and I want to thank you for the work the Department has done to 
see this plan to completion, so that there may be a guide for 
future clean energy development across Southern California, 
while ensuring our pristine desert landscapes remain protected.
    I understand that there are a number of acres in the DRECP 
broadly labeled as unallocated, much of which lie under the 
Salton Sea. What plan do you have in place to review these 
lands over the next several years?
    Mr. Connor. Congressman, there are unallocated lands as 
part of the DRECP, as it has been developed. We will have to 
look into the ones that are allocated under the Salton Sea 
itself.
    I do know that we have worked very closely with Imperial 
County as we have developed the DRECP, and I believe we have 
consistency with the DRC plan.
    Dr. Ruiz. And I would encourage you to come up with a plan 
for those unallocated acres.
    My last question, but certainly not least, I want to thank 
you for making many significant investments in Indian Country, 
from the focus to Native children and their health, security, 
and family stability to providing critically needed staff for 
the Bureau of Indian Education.
    I look forward to discussing these matters in greater 
details with someone from the Department later this month. 
However, what are your priorities for Indian Country and tribal 
policy, moving forward this year?
    Secretary Jewell. Thank you for the question and for your 
support. Indian education is critically important. We have a 
third of our schools that are in poor condition. Getting 
ourselves on a pathway to replace schools, which this budget 
begins to do with restructures for Indian education. And we 
appreciate the reprogramming support we got from both the House 
and the Senate to do that.
    Looking at the whole family through our Tiwahe Initiative 
to address issues like suicide in Indian Country, which is 
really in epidemic proportions. We have to work together. We 
are doing that, in fact, across the whole Federal family, 
through the White House Council on Native American Affairs.
    So, from the Tiwahe Initiative, to education, to law 
enforcement, and providing opportunities for economic 
development, all of these are part of our budget and the 
significant increase of 5 percent that we are asking for in 
2017.
    Dr. Ruiz. Thank you very much. Can you elaborate on the 
work to prevent suicide within Native American areas?
    Secretary Jewell. Yes. I would say it is multi-faceted, and 
it is also with HHS, in particular, through SAMHSA and the 
Indian Health Service.
    When we dissect the issue of suicide in Indian Country, so 
much of it ties to very deep and persistent issues in the 
family structure. Schools are a safe place where people can 
come. We are looking at pilots to use schools as places for 
training of parents and for counseling. There are a number of 
youth programs out there and, unfortunately, youth are the 
first line of defense against suicide. But in many cases, that 
is the safest place that kids feel that they can go.
    We are working on all those programs with a pilot right now 
at Pine Ridge, but looking at learning from that and taking it 
throughout Indian Country.
    Dr. Ruiz. Thank you very much.
    Secretary Jewell. Thank you.
    Dr. Ruiz. I yield back my time.
    The Chairman. Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here. Let me jump 
right into my questions about Northern long-eared bats. I am 
pleased that the Fish and Wildlife Service has recognized the 
white-nose syndrome was the driver behind the decline of the 
Northern long-eared bats, and has ensured that the final 4(d) 
rule allows for activities to continue that are not impacting 
the bat.
    However, it appears as if the Sierra Club and the Center 
for Biological Diversity intend to file suit, regardless. So 
can you provide the committee with a sense of how you intend to 
defend the Service's use of its 4(d) authority?
    Secretary Jewell. I would say that lawsuits are not 
uncommon, from all points in this job. I believe the Fish and 
Wildlife Service has a defensible position, recognizing the 
primary threat is white-nose syndrome, but also recognizing the 
importance to the remaining bats of having a habitat that is 
conducive. The 4(d) rule specifically looks at that and we 
believe that is legally defensible. But, of course, we will 
have to determine that if we are sued through the court 
process.
    Mr. Thompson. Will you commit to battle that in the courts 
if the suit is filed--and I hope it is not, but like you said, 
it commonly occurs--versus what has happened in the past, which 
appears to be some back-room deal or compromise to the 
Endangered Species Act. I just want to assure that you are 
going to do your best to use the resources you have to defeat 
that effort.
    Secretary Jewell. I am not familiar with the lawsuit in 
specific, if it has been filed. But I know that we regularly 
defend our 4(d) rules and the actions that we take in the Fish 
and Wildlife Service. I would suspect that is the case here, 
too, but until I look at the specifics, it is hard to know.
    Mr. Thompson. I appreciate it. I look forward to staying in 
contact with you over the issue.
    Part of the budget request was a 350 percent increase for 
Federal land acquisition. According to the Congressional 
Research Service, the deferred maintenance backlog facing 
Federal agencies is almost $19 billion. How much of this 
backlog can be attributed to lands that were acquired using 
Land and Water Conservation Fund funding?
    Secretary Jewell. I don't know. We will have to get back to 
you with that for the record.
    Mr. Thompson. OK. When the Department of the Interior 
agencies purchase land using Land and Water Conservation Fund 
monies, is a part of the process committing to performing 
short- or long-term maintenance on that parcel?
    Secretary Jewell. Let me just say that the conflation of 
deferred maintenance and Land and Water Conservation Fund, I 
don't think is accurate. In many cases, when we make 
acquisitions, they might be for inholdings where we might 
reduce our costs because we do not have to provide access. They 
may be for conservation easements across private property. 
There are a wide variety of uses and I do not think it is 
appropriate to conflate the two.
    Kris, did you want to say something?
    Ms. Sarri. Yes, I just wanted to follow up. Often the 
acquisition can ease the management costs and operation costs 
on our public lands, and we actually do take a look at that as 
part of the acquisition process.
    But also in terms of some of the backlog issues, a 
significant part, 50 percent of our backlog, is due to 
transportation issues. So, that is not directly related to land 
acquisitions.
    Mr. Thompson. But I want to deal with that percentage that 
is not, which is significant, with the amount of money that we 
are talking about and the amount of acreage that the Federal 
Government owns today and has taken off the tax rolls and put 
into the public sector from the private sector.
    Is there a consideration of affordability when that 
decision is made? For example, there is a plan of 42 
acquisition projects, according to the President's budget, that 
had been projected; a 350 percent increase for Federal land 
acquisition. When whoever put that pen to paper or finger to 
keyboard and put that plan together--was there a consideration 
of affordability? Not just on whether you can get the monies 
for acquisition, but the maintenance, and making sure that 
those lands are managed in a way that is best for the public.
    We see a lot of our public lands that are not today. My 
colleague talked a lot about the wildfire situation. There are 
invasive species. I mean creating problems that spread beyond 
the public lands, that I think many times are inappropriately 
acquired and poorly maintained, and bleed out into the private 
sector. Those flames and invasive species do not honor 
boundaries. Is that affordability considered?
    Secretary Jewell. We do take into account----
    Mr. Thompson. How much weight is put behind the 
affordability issue?
    Secretary Jewell. I don't know specifically the weight. 
There is a complicated process that each department goes 
through to prioritize.
    Mr. Thompson. Could you put it in congressional terms? Make 
it simple, and forward it my way, or to the committee. I would 
appreciate it.
    The Chairman. Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. And thanks to the 
witnesses.
    Madam Secretary, you and your team have maintained your 
composure and professionalism, despite a difficult tone that 
was set at the outset of this hearing, and continued through 
some of the questioning. It is hard to have a civil discourse 
when you are greeted with an aggressive partisan gauntlet at 
the very outset. We heard every manner of attack and insult. I 
was half expecting to hear a call to arms for people to head to 
their local wildlife refuge, but, thankfully, some restraint 
was shown and I am grateful for that.
    But I cannot help contrasting the low regard that the 
American people have for this Congress with the very high 
regard they have for your agency, and the National Park 
Service, in particular. I know we are celebrating the 100th 
anniversary of the National Park Service. And a recent poll, a 
poll from 2014, gave the Park Service 84 percent approval among 
western voters. And this was the case in every single western 
state. Strong majorities everywhere, from Wyoming to Nevada, 
that not only support your good work, but they oppose these 
proposals that we keep hearing to give our public lands from 
the Federal Government over to the state.
    And if we needed an even more recent ratification of your 
work, we got it in the Nevada caucuses recently, where none 
other than Donald Trump opposed that crazy idea. His opponents, 
of course, were very much pounding that tired old narrative, 
that we need to hand our public lands back over to the states, 
but he said that he thought that would be a bad idea.
    And I don't often quote Donald Trump or give him props, but 
he said, ``I don't like the idea because I want to keep the 
lands great, and you don't know what the state is going to do. 
We have to be great stewards of this land. This is magnificent 
land.'' I am going to stop there with the nice statements about 
Donald Trump, but I found it interesting that he trounced his 
opponents despite taking that position.
    Given the bipartisan support that we have historically had 
for keeping our public lands great, I want to ask you how your 
budget addresses threats to our lands from extremists, like 
those who recently occupied the Malheur National Wildlife 
Refuge in Oregon. And specifically, I would like to know, and I 
think many Americans want to know, how are you going to ensure 
that the cost to the public, in terms of the damages to 
property and the desecration of sacred sites, is properly 
compensated.
    Secretary Jewell. Well, thank you for your comments, 
broadly and specifically, around that. There is no question the 
safety and security of the public and our employees is of 
paramount importance, and the situation that happened at 
Malheur was very frightening. We actually had people that had 
to pull their children out of school and leave town that were 
being followed around the neighborhoods, in stores, being 
accosted by people that did not live in their home community. 
And I don't think you get over that quickly.
    I have met with a county judge and elected county 
commissioners from that region and they want to get back to 
normal.
    For the most part, we have a thin law enforcement presence 
in our public land management agencies. They will be patrolling 
more in twos than singly, as they did before. We will do 
everything we can to make sure that they are kept safe. We are 
very gratified for the support we received from the FBI in that 
stand-off. I would say that while the safety and security of 
people will be of paramount importance, it is going to be 
difficult to do with the budget that we have.
    Mr. Huffman. What about the costs that we incurred, which 
must have been very significant during the period of this 
siege, and the damages that occurred to public property during 
that time? I think Americans want to know that those that were 
responsible, the law breakers, are going to reimburse us, and 
that the taxpayers are not going to pick up the tab for this 
joy ride that these criminals took with public property.
    Secretary Jewell. I think it is fair to say that, right 
now, the taxpayers are picking up the tab. Fortunately, there 
are a number of people that have been indicted, and I hope that 
restitution will be a part of that. But whether there is 
actually any money collected will be a long time into the 
future.
    Mike, did you want to say something?
    Mr. Connor. Could I just quickly add that our budget 
proposal does include a proposal for the Fish and Wildlife 
Service to have cost recovery authority, similar to the 
National Park Service and similar to NOAA for marine 
sanctuaries. So, that is part of our budget proposal and we 
think it is applicable now.
    Mr. Huffman. In the couple seconds that I have left, we 
continue to hear this narrative about 500,000 acre-feet in the 
West being lost to the Delta smelt. Secretary Connor, that does 
not jive with my understanding of how the system has operated. 
Would you agree with that?
    Mr. Connor. I think it is correct. I don't know what the 
assumptions are there. It looks to be about 60,000, 70,000 
acre-feet.
    The Chairman. Thank you, you are over. And I appreciate 
your application for your job in the Trump administration. Way 
to go, Huffman.
    [Laughter.]
    The Chairman. Mr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here. And, contrary to what Mr. Huffman 
said, I want to say something nice. I applaud the U.S. Fish and 
Wildlife Service delisting the gray wolf in the Great Lakes 
states and Wyoming. And, unfortunately, we are dealing with a 
lawsuit there and a judge has reinstated the listing. But I 
appreciate your agency actually delisting a species that has 
recovered.
    We just passed legislation here in the House this past week 
to rectify what we think is a bad decision by the court and 
affirm the position of the U.S. Fish and Wildlife Service in 
that instance. So there you go, I said something nice.
    [Applause.]
    Dr. Benishek. I do have a question, though.
    The Chairman. If you say anything nice again, their 
applause will take away your time.
    [Laughter.]
    Dr. Benishek. OK. I think that there is a position here 
that we do not understand why we are acquiring more land when 
we have a backlog of just maintaining the land? I think that is 
a theme that has been presented here fairly accurately.
    The answer of just buying inholdings does not ring true to 
me, to tell you the truth, because it is a 350 percent increase 
in the funding there. And especially in my district, we have 
several National Park Service facilities, the National Pictured 
Rocks, Sleeping Bear Dunes, and Isle Royale National Park.
    I am looking at some of the critical infrastructure issues 
that are there. Somebody mentioned the $19 billion backlog in 
total. In my district, for example, at Sleeping Bear Dunes, 
there is a $19 million backlog of maintenance, with $4 million 
of critical systems deferred maintenance, according to this NPS 
asset inventory summary. I am reading over these documents, 
trying to figure out what is the solution here. There is a huge 
backlog.
    But then I also noticed that in a note here it says, ``The 
parameters used to calculate the data in the report do not 
match the Federal real property profile parameters or the 
Federal Account Standards Advisory Board parameters.'' So this 
is, apparently, the standard way the Federal Government 
evaluates land and values, but they are not used in this 
report. Do you know why that is the case?
    Secretary Jewell. I will need the specific language in what 
you are talking about. I am not sure what that refers to. But 
can you clarify this 350 percent increase that you and Mr. 
Thompson referenced?
    Dr. Benishek. That is a BLM number here that we have. The 
proposed budget includes $88 million for BLM land acquisition, 
including $44 million in current appropriations and $44 million 
in permanent funding. This is $68 million or 350 percent more 
than the $19 million enacted in Fiscal Year 2015.
    Secretary Jewell. So this is specific to BLM?
    Dr. Benishek. That is the proposed budget.
    Secretary Jewell. Yes, because the increase for the Land 
and Water Conservation Fund is not nearly what you are 
suggesting. So, I think I just need to coordinate on numbers. 
But let me say this, again, that maintenance backlog is an 
issue. Our budget proposes a methodical way of reducing the 
maintenance backlog, particularly in the National Park Service, 
where it is most acute. It is $12 billion, of which about half 
is transportation.
    Dr. Benishek. By transportation you mean roads?
    Secretary Jewell. Roads, yes, typically paid for out of the 
Highway Trust Fund.
    Dr. Benishek. So why wouldn't you use the standard 
accounting techniques that the rest of the Federal Government 
used in developing these numbers?
    Secretary Jewell. Kris, do you know what he is talking 
about with that?
    Dr. Benishek. Is this number too high? Too low? Why don't 
you use the same numbers as everybody else?
    Ms. Sarri. I am actually not familiar with this. So I would 
be happy to get back to you on the record on that one.
    Dr. Benishek. I am just reading a National Park Service 
asset inventory summary published by the National Park Service. 
These are numbers that Congress looks for. There is $19 million 
in backlog in my district. But it also says these do not comply 
with the standard way that the Federal Government measures 
things.
    Secretary Jewell. We will have to look back into that for 
you. I don't know.
    Dr. Benishek. I would just like to know why we are not 
using the standard way, and how does it affect the numbers? Is 
the number too high? Too low? How could I judge what to do if 
we are not getting accurate numbers and you are not using the 
standard way that the Federal Government reports numbers? That 
does not make sense to me.
    Secretary Jewell. We will have to get back to you.
    Dr. Benishek. I applaud you with the wolf thing, but in 
order to make a judgment as to how to proceed on my level, we 
would like to get standard numbers. I would appreciate a 
response in writing. I am out of time.
    The Chairman. I am sorry, I was so enthralled and lost the 
list. Who comes next? Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And thank you, 
Secretary Jewell, for appearing here today to discuss the 
President's 2017 budget.
    Secretary Jewell, I would like to discuss the abandoned 
mine lands and also the POWER Plus programs to see what we can 
do to help clean up these old sites and provide economic 
development opportunities to rebuild our historic coal mining 
communities. For the people of Pennsylvania, especially those 
in my district, the problem of abandoned mines is one that we 
have lived with for decades. In fact, there are 575 abandoned 
mines in my district alone, creating 382 miles of acid drainage 
affecting streams.
    Many communities in my district and across the region live 
with the environmental legacy of the coal industry and live in 
communities struggling to recover from the decline of the coal 
industry. With coal production lessening across the Nation and 
major coal companies recently declaring bankruptcy, and in 
light of the U.S. Geological Survey's recent revelation that 
coal reserves are not as abundant as we had once thought, this 
problem will only worsen nationally.
    I have introduced my own legislation to close loopholes in 
the coal royalties program to provide more funds for AML 
cleanup. I have offered amendments on the Floor to direct 
funding to the regions that need the money the most. I am the 
lead Democrat on a bipartisan bill to direct unexpended AML 
funds toward cleanup projects that provide economic benefits.
    Now, I know the Administration has been pushing to use 
these unexpended AML funds to clean up our abandoned mines and 
also to create jobs. I look forward to continuing to work with 
you toward that laudable goal.
    My first question is, Madam Secretary, do you know 
approximately what the AML balance is right now? And how much 
is expended every year, as opposed to what is brought into the 
fund every year?
    Secretary Jewell. The total, I believe, is $11 billion. 
While we are continuing your line of questioning, we will see 
if we can get the answers to the rest of your questions. If 
not, we will respond for the record. But there is a lot that is 
accumulating that, with POWER Plus, we would like to accelerate 
to put people to work on reclamation projects. And the 
recommendation is $200 million a year, a billion total over 5 
years, be accelerated to address this issue right now.
    Mr. Cartwright. I don't mean this as a pop quiz. If you 
want to get back to my office later, I would be obliged.
    Secretary Jewell. OK, great.
    Mr. Cartwright. Second, is there a scarcity of good 
projects? And how large is the problem? Or some reason to delay 
funding the projects? What is the total impact of these mines 
on public health and the environment?
    Secretary Jewell. The impact is probably beyond measure, 
when you look at the water quality; the sinkholes, particularly 
in your own state, which I have seen firsthand; the inability 
for people to develop on these landscapes because of the 
poorest nature of the underground mining that took place 
before.
    The situation that was referenced earlier with the Gold 
King Mine spill, which is not coal, but that is indicative of 
abandoned mine land problems across the entire United States, 
both hard rock and coal. We would welcome an opportunity to 
work with you on a long-term solution on abandoned mine lands, 
and certainly taking this money that has been set aside by the 
coal industry for this purpose, to actually put people to work 
addressing it right now.
    Mr. Cartwright. Well, I thank you, Madam Secretary, and I 
yield back my time.
    Secretary Jewell. Thank you.
    The Chairman. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Secretary Jewell, when can we expect the next 5-year plan 
for oil and gas lease sales to come out?
    Secretary Jewell. We have submitted the draft proposed 
plan. This spring, potentially even this month, we will have 
the proposed plan, which will have taken input from the draft 
proposed plan. We hope to finalize the proposed plan by the end 
of 2016. There will be an opportunity to take additional 
comment on the proposed plan, which will be released this 
spring, based on comments from the original plan.
    Mr. Duncan. This seems like it has drawn out a lot longer 
than past 5-year plans. Is that the case?
    Secretary Jewell. I don't believe that is the case.
    Mr. Duncan. OK. I am going to ask, Mr. Chairman, if we 
could submit for the record a letter to Secretary Jewell dated 
February 29. Also, copies of letters dated August 1, 2014; 
March 27, 2015; and April 23, 2015 from the Atlantic Offshore 
Energy Caucus, requesting that areas in the South Atlantic/Mid-
Atlantic be included in the 5-year plan.
    The Chairman. Without objection.
    [The information offered for the record by Mr. Duncan 
follows:]

                      Congress of the United States
                                       Washington, DC 20515

                                                  February 29, 2016

Hon. Sally Jewell
Department of the Interior
1849 C Street, NW
Washington, DC 20240

    Dear Secretary Jewell:

    As the co-chairs of the Atlantic Offshore Energy Caucus, we 
represent a diverse group of members unified around opening the 
Atlantic for offshore energy exploration. While the Department of the 
Interior concludes the planning period for the 2017-2022 Outer 
Continental Shelf (OCS) Oil and Gas Leasing Proposed Program, we wanted 
to remind you of the continued support that exists for Atlantic lease 
sale 260 and ask that you retain the full area included in the Draft 
Proposed Program (DPP) without further limitations.
    According to the EIA, Gulf of Mexico production is estimated to 
increase to record high levels in 2017. This increase in production is 
a result of the leasing decisions made a decade or more ago. Knowing 
that oil and natural gas will be needed for many more decades to come, 
DOI should not prematurely close the door on future leasing and 
exploration of the Atlantic OCS. Decisions made today matter.
    We are joined by our colleagues in Virginia, North Carolina, South 
Carolina, and Georgia in supporting future access to the oil and 
natural gas resources off our states' coasts in the mid- and south-
Atlantic. We ask that you take into consideration the support of the 
many stakeholders in our states including our Congressional 
delegations, our Governors, state and local leaders and the citizens of 
our states. We ask that you not close the door on the potential for 
thousands of new jobs, enhanced national security and much needed new 
government revenue by removing the Atlantic in the Proposed Plan or 
further limit the one proposed lease sale included in the Draft 
Proposed Program.
    Members of our caucus have written to the Department regarding 
their support on several occasions. On April 23, 2015, a diverse group 
of 163 members from the Senate and House of Representatives wrote 
expressing our views on the Department's draft proposed plan. This 
letter highlighted our support for opening new areas for exploration, 
including the Atlantic OCS.
    On March 27, 2015, more than 30 members of the House of 
Representatives wrote the Department regarding their specific support 
for Atlantic lease sale 260. Additionally, on August 1, 2014, during 
the Department's Request for Information comment period for the draft 
proposed plan, 164 Members of Congress wrote to the Department 
encouraging them to establish a rigorous lease sale schedule in the 
Gulf of Mexico and open new areas for development. All of these 
letters, which are enclosed here, were signed by a broad group of 
Members of Congress reflecting different constituencies that recognize 
the benefit offshore oil and gas exploration would have on our 
communities and our nation's goal of becoming energy secure.
    Clearly, members of the House of Representatives and the Senate 
have demonstrated their strong support for opening the Atlantic OCS for 
energy exploration and this support remains today. We continue to urge 
you to retain the entire proposed Atlantic lease sale 260 area without 
further restriction, and open these areas for future oil and gas 
leasing. exploration, and production.

            Sincerely,

                                            Richard Hudson,
                                                Member of Congress.
                                               Jeff Duncan,
                                                Member of Congress.
                                              Scott Rigell,
                                                Member of Congress.

Enclosures [3]: Letters dated August 1, 2014, March 27, 2015, and April 
23, 2015

                              Enclosure 1

                      Congress of the United States
                                       Washington, DC 20515

                                                     August 1, 2014

Hon. Sally Jewell
Secretary
Department of the Interior
1849 C Street, NW
Washington, DC 20240

    Dear Secretary Jewell:

    As Members of Congress committed to a comprehensive domestic energy 
strategy, we encourage the Department of the Interior (DOI) to proceed 
with a new Five Year Outer Continental Shelf (OCS) Oil and Gas Leasing 
Program for 2017-2022 that establishes a rigorous lease sale schedule 
in the Gulf of Mexico, but also expands opportunity for development to 
areas not included in the last plan--such as the vast acreage that was 
opened in 2008 when both the Presidential and Legislative moratoria on 
offshore drilling expired. A broad, bipartisan majority in the U.S. 
House of Representatives and the American public have long supported 
increased development of our nation's OCS resources. This commitment 
has been repeatedly demonstrated by passage of legislation that expands 
access to these new areas, while continuing leasing in existing areas. 
We wish to see a Five Year Outer Continental Shelf leasing program that 
reflects these important principles.
    The commencement of this program occurs at a critical time in our 
country's resurgence as an energy superpower. Increasing onshore 
production on state and private lands is helping to pull our nation out 
of a recession and driving down our trade deficit. At the state and 
local level in Pennsylvania, Texas, Wyoming, Colorado, North Dakota and 
many others, economic activity related to energy production is creating 
thousands of jobs and generating increased revenues that are being 
reinvested in public education, transportation projects, and other 
municipal improvements. The energy boom on state and private lands 
stands as a paradigm of our nation's entrepreneurial spirit. There is 
no reason why we cannot replicate this vigorous job growth in more 
states by opening new OCS areas for development as was envisioned in 
2008 when the moratoria on the OCS was lifted in a bipartisan fashion 
between the then Democrat Majority House and President Bush.
    Since the 1950s, the Gulf of Mexico has been the world's preeminent 
area for offshore drilling alongside thriving fishing and tourism 
industries. This is where the technological innovation behind pursuing 
deepwater resources was born and where it has flourished. Today, over 
60 years later, the playing field has significantly changed. Countries 
like Canada, Mexico and China are ramping up their efforts to develop 
their offshore resources and directly competing with the United States. 
Simply put: the status quo will not suffice. By producing more American 
energy from our OCS resources, we can help to insulate our nation from 
global price shocks and put the United States and our allies on a more 
secure path.
    As you consider areas to include in the 2017-2022 Draft Proposed 
Program, we note that the administration and the Department of the 
Interior have made considerable changes to the structure and 
regulations that govern offshore energy development to enhance safety. 
The industry has also stepped up with the development of best practices 
and technologies focused on the areas of spill prevention, containment, 
and recovery. We are confident that these changes will allow offshore 
exploration and development to proceed in an environmentally 
responsible way.
    For these many reasons, we believe the Department must move forward 
with a Five Year Program that continues to lease in the Gulf of Mexico 
but also includes new areas with the greatest resource potential as 
well as areas such as the Mid- and South-Atlantic, or the Arctic, where 
there is strong bipartisan support from Members of Congress, governors, 
state legislators, local leaders and the general public for allowing 
oil and natural gas development. With the formation of the 2017-2022 
Five Year Program, this administration will be responsible for a decade 
of offshore lease planning; a legacy of leasing in existing areas will 
not put our nation's offshore energy production on sound footing. We 
cannot afford to pass up this pivotal opportunity to expand safe and 
responsible OCS energy development.
    It is our sincere hope that you will demonstrate a similar 
commitment to our nation's energy future by crafting a program that 
increases offshore production in new areas to create more American 
jobs, provide much-needed federal and local government revenue, and 
fortify our nation's growing position as an energy leader.

            Sincerely,

    Signed by the following Members of Congress:
        Jeff Duncan                   Bill Flores
        Scott Rigell                  Richard Hudson
        Doc Hastings                  Doug Lamborn
        Rob Bishop                    Bill Cassidy
        Jeb Hensarling                Steve Scalise
        Dave Camp                     Joe Barton
        Tom Cotton                    Michael McCaul
        Patrick McHenry               Shelley Moore Capito
        Lamar Smith                   Jim Jordan
        Cathy McMorris Rodgers        Tom Price, M.D.
        Robert Aderholt               Rob Woodall
        Andy Harris                   Mick Mulvaney
        Patrick Tiberi                Mike Pompeo
        Cynthia Lummis                Lou Barletta
        Blake Farenthold              Glenn Thompson
        Robert Hurt                   Jim Renacci
        Joe Heck, D.O.                Cory Gardner
        Jim Bridenstine               Marsha Blackburn
        Scott Tipton                  Mark Amodei
        Robert Pittenger              Peter Roskam
        James Lankford                Chuck Fleischmann
        Todd Rokita                   Kevin Brady
        Gregg Harper                  Brett Guthrie
        Pete Olson                    Vance McAllister
        Richard Hanna                 Chris Stewart
        Aaron Schock                  Bob Gibbs
        Steve Palazzo                 Randy Hultgren
        Phil Roe, M.D.                John Carter
        Tom Marino                    David McKinley
        Scott DesJarlais              John Fleming, M.D.
        Joe Pitts                     Renee Ellmers
        Tom Graves                    Tom McClintock
        Ann Wagner                    Phil Gingrey, M.D.
        Keith Rothfus                 Paul Gosar
        Randy Weber                   Michael Grimm
        Doug Collins                  Austin Scott
        David Valadao                 Todd Young
        Steve Stivers                 Kevin Cramer
        Kenny Marchant                Markwayne Mullin
        Chris Collins                 Stephen Fincher
        Steve Womack                  Roger Williams
        David Schweikert              Sean Duffy
        Sam Johnson                   Adam Kinzinger
        Paul Cook                     Brad Wenstrup
        Mo Brooks                     Tim Griffin
        Trey Gowdy                    Sam Graves
        Randy Neugebauer              Alan Nunnelee
        Charles Boustany              Tom Reed
        Susan Brooks                  Reid Ribble
        Mark Meadows                  Mike Kelly
        Raul Labrador                 Diane Black
        Billy Long                    Bill Johnson
        Rick Crawford                 Jeff Denham
        Rodney Davis                  Randy Forbes
        Ed Whitfield                  Howard Coble
        John Duncan                   Bill Shuster
        Steve King                    Joe Wilson
        Jason Smith                   Pete Sessions
        Bradley Byrne M.C.            Adrian Smith
        Louie Gohmert                 Lee Terry
        Ken Calvert                   Bob Goodlatte
        Don Young                     Mac Thornberry
        John Campbell                 Tim Murphy
        Michael Burgess, M.D.         Matt Salmon
        Virginia Foxx                 John Culberson
        Steve Chabot                  Ralph Hall
        Ted Poe                       Michele Bachmann
        Mike Conaway                  Stevan Pearce
        Lynn Westmoreland             Trent Franks
        Tim Walberg                   Paul Broun
        John Kline                    Blaine Luetkemeyer
        Mike Coffman                  Bob Latta
        John Shimkus                  Robert Wittman
        Charles W. Dent               Tom Cole
        Jason Chaffetz                Dana Rohrabacher
        Marlin Stutzman               David Joyce
        Patrick Meehan                Kerry Bentivolio
        Lynn Jenkins                  Martha Roby
        Michael R. Turner             Steve Daines
        Morgan Griffith               Mike Simpson
        James Sensenbrenner           Fred Upton
        Luke Messer                   Andy Barr

                              Enclosure 2

                      Congress of the United States
                                       Washington, DC 20515

                                                     March 27, 2015

Hon. Sally Jewell
Department of the Interior
1849 C Street, NW
Washington, DC 20240

    Dear Secretary Jewell:

    As Members of Congress who represent Atlantic states, we are 
encouraged by the Department of the Interior's (DOI) decision to 
include areas in the Mid and South Atlantic as part of the 2017-2022 
Outer Continental Shelf (OCS) Oil and Gas Leasing Draft Proposed 
Program (``Five Year Program''), but we remain disappointed in the 
draft plan's unnecessary restrictions in the Atlantic that could 
jeopardize America's long-term energy and economic security. As the 
planning process moves forward in the development of the Five Year 
Program, we urge you to retain the entire proposed Atlantic lease sale 
260 area without further restricting these areas for future oil and gas 
leasing, exploration, and production.
    A strong all-of-the-above energy strategy for our nation cannot 
exist without a robust offshore oil and gas leasing program that 
includes access to America's energy resources in the Atlantic. In the 
current 2012-2017 Five Year Program, 87 percent of America's OCS 
remains off-limits to energy leasing, exploration and production. While 
other countries are actively expanding OCS energy development, it is 
unacceptable that our nation remains blindfolded with regard to what 
resources exist offshore and that this Administration continues to 
unnecessarily restrict access to critical domestic energy resources. 
The American public, and particularly the overwhelming majority of 
residents in our states, support the increased development of our 
nation's OCS resources, and we wish to see a Five Year Program that 
reflects these important principles. Restricting access within a 50 
mile buffer along the entirety of the proposed area, and only including 
one lease sale in 2021, fails to meet this standard. We urge the 
Department to reconsider the configuration of the buffer and add more 
lease sales earlier in the plan, which would more accurately reflect 
the desires of individual states.
    As we have seen in the Gulf of Mexico and in other areas around the 
world for decades, other ocean industries, as well as tourism and 
military operations, can all thrive in conjunction with offshore energy 
exploration and development. In addition, there are numerous existing 
regulatory systems--at the state, federal, and local levels--that 
ensure the compatibility of all industries, as well as the conservation 
of our environment. By relying upon a cooperative process to reach 
science-based decisions, offshore development is guided by ample public 
input from state officials, local communities and leaders, and all 
coastal stakeholders. Furthermore, the energy industry has enhanced 
spill prevention and containment, as well as proven response 
capabilities, and the Department's robust regulatory requirements have 
put in place various new standards that have made offshore drilling 
safer than ever. As the co-chairs of the national spill commission 
formed after Macondo said in April 2014, ``offshore drilling is safer 
than it was four years ago.''
    There is strong bipartisan support in our states from Members of 
Congress, governors, state legislators, local leaders and the general 
public for allowing oil and natural gas development in the Atlantic. 
Our states, which have not seen the direct benefits of offshore 
development. are anxious to reap the many economic benefits and help 
put America on a path to greater energy security.
    Offshore energy production must play a key role as America 
continues to grow as an energy superpower--creating more good-paying 
American jobs, providing much-needed federal and local government 
revenue, and enhancing our nation's energy security. For these many 
reasons, we urge the Department to move forward with a Five Year 
Program that includes the entire proposed Atlantic lease sale 260 area 
without any additional restrictions on access, while thoughtfully 
reconsidering the proposed 50 mile buffer.
    It is also important that the Department work quickly to approve 
permits for seismic and other geophysical surveys in the Atlantic. 
These permits have been pending since last July when the Department 
completed its Final Programmatic Environmental Impact Statement and 
Record of Decision for Geological and Geophysical Activities in the 
Mid- and South Atlantic OCS. Since the current estimates of the 
Atlantic's resource potential are out of date and based on surveys 
conducted over 30 years ago, the information derived from these new 
surveys will provide an updated and environmentally safe assessment of 
the oil and natural gas reserves in the Atlantic. As you have indicated 
in testimony before Congress, the importance of these surveys will 
enable informed decisions to be made on how to best utilize these 
resources to ensure our future energy security. Timely consideration 
and approval of the permits is critical so that companies can plan 
their operations, conduct the surveys, and process the data into 
meaningful tools that can be used by decision-makers.
    We look forward to working with you to ensure that exploration and 
production of our natural resources continues to move America to energy 
security in the 21st Century. We await your response.

            Sincerely,

                                               Jeff Duncan,
                                                Member of Congress.
                                            Richard Hudson,
                                                Member of Congress.
                                              Scott Rigell,
                                                Member of Congress.

    Also signed by the following Members of Congress:
        Bob Goodlatte                 Tom Price
        Jeb Hensarling                Pete Sessions
        Robert Hurt                   Jody Hice
        Joe Wilson                    Rick Allen
        Mick Mulvaney                 Austin Scott
        Tom Graves                    Doug Collins
        Mark Meadows                  David Rouzer
        Robert Pittenger              Mark Walker
        Virginia Foxx                 Renee Ellmers
        Patrick McHenry               George Holding
        Barbara Comstock              H. Morgan Griffith
        Robert Wittman                Randy Forbes
        Louie Gohmert                 Paul Gosar
        Glenn Thompson                Steve Pearce
        Pete Olson                    Cynthia Lummis

                              Enclosure 3

                      Congress of the United States
                                       Washington, DC 20515

                                                     April 23, 2015

Hon. Sally Jewell
Secretary
Department of the Interior
1849 C Street, NW, Room 7229
Washington, DC 20240

    Dear Secretary Jewell:

    We are writing to express our views on the recently released Draft 
Proposed 2017-2022 Five Year Outer Continental Shelf (OCS) Leasing 
Program (DPP). Specifically, we have concerns over the premature 
restrictions placed on the proposed lease sale areas in the Atlantic, 
including the 50-mile buffer zone for the entirety of the Atlantic 
proposed areas, the permanent withdrawal of areas offshore Alaska and 
the limited opportunities available under the program as proposed. As 
this process moves forward, we urge you to retain the entire Atlantic 
lease sale 260 area without additional restrictions in these planning 
areas for future oil and natural gas leasing, exploration and 
production. We also strongly encourage the Administration to make 
additional areas of the OCS available for leasing and to increase the 
amount of lease sales from the historic low number proposed in the 
draft plan.
    As Members of Congress committed to a strong, comprehensive 
domestic energy strategy, we wholeheartedly believe that the United 
States must not shrink away from developing our nation's offshore 
energy resources. A robust Five Year OCS Program should be a key 
component of the Administration's all-of-the-above energy strategy that 
can continue to advance the job creation, economic growth and energy 
security gains that the U.S. has enjoyed thanks to the recent boom in 
energy production on state and private lands. Given that offshore 
developments have high costs and exceptionally long development 
timelines, the Five Year program sets the foundation for more than a 
decade of development. As such, we fear that the currently proposed DPP 
sets the stage for energy insecurity instead of domestic prosperity.
    While we were pleased to see the Administration finally take a step 
in the right direction by including one potential lease sale in the 
Atlantic in the draft plan, this step was offset by the additional 
restrictions in the Atlantic and area withdrawals in the offshore of 
Alaska. What the administration proposed appears merely to be an effort 
to provide political cover irrespective of the opportunity foregone. 
When coupled with the imposed buffer zones, and an insufficient number 
of lease sales, none of which are required to be held, this draft 
proposal fails to produce a long-term energy policy that harnesses the 
potential of our nation's vast natural resources. In this respect it is 
disingenuous.
    During your March 5, 2015 testimony before the House Natural 
Resources Committee you admitted that you cannot guarantee that the 
Atlantic would have a single lease sale in the final DPP. Considering 
that the Department of the Interior (DOI) is not mandated to actually 
hold any lease sale made available in a DPP, it seems shortsighted and 
irresponsible to limit at this early stage in the process the proposed 
lease sales to a number that doesn't even meet President Jimmy Carter's 
low threshold nearly 40 years ago.
    This Administration's insistence on keeping more than 85 percent of 
our OCS off-limits to domestic energy development has been 
counterproductive to efforts to boost our nation's economy. Our 
struggling economy is on the verge of a transformational manufacturing 
renaissance and is capable of producing the resources needed to make it 
a reality. The federal budget needs new revenues, and U.S. energy 
security, which is finally on the brink of breaking OPEC's 
stranglehold, could be realized if not for these unnecessary 
bureaucratic barriers. Considering the significant and uncontrollable 
geopolitical forces that continue to impact our energy security, this 
Administration can no longer afford to ignore our abundant offshore 
resources.
    There is strong bipartisan support from Members of Congress, 
governors, state legislators, local leaders and the general public for 
allowing oil and natural gas development in more areas of the U.S. OCS. 
States that have not directly seen the economic prosperity that 
accompanies offshore development are anxious to reap the benefits from 
the indirect investment in technologies and manufacturing that 
facilitate such work. We strongly believe that the Department should 
move forward from the DPP with a 2017-2022 Proposed Program that sets a 
more aggressive schedule of sales in currently open areas and also 
allows for the exploration of new areas, such as the Atlantic and the 
offshore in Alaska. These areas are significant for future resource 
development, without subjective and potentially damaging area 
withdrawals, omissions and exclusions. The 2017-2022 OCS Five Year 
Program must represent a significant departure from the existing 
moratorium on the vast majority of the U.S. OCS and embrace America's 
offshore energy program as a serious contributor to the nation's 
standing as an energy superpower.
    Rather than just indulge our engagement in the development stages 
of the 2017-2022 OCS Five Year Program planning process, we ask that 
you actually work with Congress on this important proposal. We are at a 
critical time in developing America's energy policy, and decisions we 
make today will have an impact on future U.S. oil and natural gas 
production. Such decisions will also significantly impact our standing 
in a volatile global economy. It is important that the administration 
is forward-thinking in America's energy development planning and we are 
eager to work with the administration to ensure we are headed down the 
path to prosperity and security through increased offshore American 
energy production.

            Sincerely,

        Lisa Murkowski                Rob Bishop
        Tim Scott                     Doug Lamborn
        Bill Cassidy, M.D.            Garret Graves
        John Barrasso, M.D.           Mike Lee
        James Inhofe                  John Cornyn
        Rob Portman                   Roger Wicker
        Deb Fischer                   Cory Gardner
        Orrin Hatch                   David Perdue
        Johnny Isakson                Michael Enzi
        Thom Tillis                   Thad Cochran
        Jeff Sessions                 James Risch
        Shelley Capito                Steve Daines
        John Thune                    David Vitter
        Dan Sullivan                  Ted Cruz
        Tom Cotton                    Richard Burr

    ----Signed along with 133 other Members of Congress.

                                 ______
                                 

    Mr. Duncan. Do you think the 5-year plan will mirror the 
DPP, as far as the areas available?
    Secretary Jewell. There has been tremendous input that we 
have taken since the DPP. When the proposed plan comes out, you 
will see the answer to that question, based on the input we 
have received.
    Mr. Duncan. Yes, and I appreciate the input that you have 
taken, and I hope that it does.
    Are we seeing any serious movement on permits for G&G 
activity in the South and Mid-Atlantic? Because last year at 
this time, and a couple of times last spring, we had hearings 
with BOEM and some of the sub-agencies that are under you about 
G&G activity, and they have been slow-walking these permits. I 
know that is U.S. Fish and Wildlife Service doing that, but are 
we seeing any movement on that?
    Secretary Jewell. Yes. Actually, it would be NOAA Fisheries 
with the marine mammals that Bureau of Ocean Energy Management 
works closely with. We had 13 conventional energy G&G permit 
applications: 3 were withdrawn; 1 is being held pending 
additional information; 1 was issued, but they did not choose 
to use it, and it expired January 11 of this year; 8 are 
currently under review.
    Six of them have applications with the National Marine 
Fisheries Service--one has not determined if he needs one yet, 
and one of them has not even begun that process. So, we are 
being responsive as the requests come in.
    Mr. Duncan. OK, I appreciate that. And I ask you, could you 
just put that in writing into my office for me? That is just so 
I will have it for my record. We are asked about that quite a 
bit.
    I want to shift gears a little bit. I followed the story in 
the Malheur Wildlife Refuge very closely, as many Americans 
did. When I was looking at the history of that, I understand 
that the Ammons had water rights and permitted grazing rights 
on BLM land within the refuge. Then, at some point in time, 
their access to that water was fenced off, and their road 
access to grazing areas was blocked off. That is based on what 
I read in numerous sources as I was investigating that.
    Now, I am not going to get into Oregon's issues, but are 
those common practices within the U.S. Fish and Wildlife 
Service or within BLM, to block off permitted grazing rights or 
to block off water access?
    Secretary Jewell. Let me just clarify. I believe you are 
talking about the Hammonds. That is completely separate from 
the people that occupied the Malheur Refuge. And those two 
individuals who are serving time for arson charges on Federal 
public land basically distanced themselves from the people that 
took over the refuge.
    Mr. Duncan. But it was all interconnected. I agree, it was 
the Hammonds, but their arrest and re-imprisonment was all part 
of what led to the occupation. So let's go back to just the 
Hammonds, and leave the Malheur Refuge out. The Hammonds had 
grazing rights on BLM land permitted. My understanding from 
what I read is that they also had water rights in the area that 
were fenced off, and then the grazing rights were blocked.
    The question to you is, is that normal practice to do that 
when people have permitted grazing rights?
    Secretary Jewell. We operate within the rights that people 
are granted. So, I have to look specifically into the 
circumstances that you bring out, but there is nothing that I 
have heard from the BLM or the Fish and Wildlife Service that 
suggested that agreed-upon rights were not provided. That is 
consistent with the way we operate.
    So, if there is something specific, we are very happy to 
respond directly on that.
    Mr. Duncan. Will do that.
    Secretary Jewell. OK.
    Mr. Duncan. Mr. Chairman, I yield back.
    Secretary Jewell. Thank you.
    The Chairman. Thank you.
    Mrs. Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman. Thank you, Madam 
Secretary. I spent 2 hours in the dental chair before I came 
here, and I think I had a better 2 hours than you are having.
    And I thank Mr. Duncan for the tone of his questions, 
because I do think that the Secretary is really doing a good 
job, and the Interior Department is something that is very 
important for protecting our natural resources in this country. 
Last week was Great Lakes week, and the advocates and local 
leaders were in talking to all of us from the Great Lakes Basin 
region. The Number one issue that is on everyone's minds is the 
Asian carp.
    We have 20 percent of the world's fresh water, thousands of 
jobs are tied to it, a $16 billion recreation industry. So, 
protecting the delicate ecosystem that provides drinking 
water--and, lord knows, drinking water is on everybody's minds 
throughout the country--it sustains more than 3,500 species of 
plants and animals. The presence of a single carp in the lakes 
could disrupt the entire ecosystem and cause serious damages to 
the lakes.
    The Fish and Wildlife Service and the U.S. Geological 
Survey now are all involved in the fight involving invasive 
species. Your budget request was a very modest increase of 
$669,000 to improve aquatic invasive species prevention. How 
will this funding help the Department prevent Asian carp from 
reaching the Great Lakes?--which you know has us all very 
neurotic. And what would happen if this were to be cut? Nobody 
else asked you this, but is it enough?
    Secretary Jewell. The short answer on this invasive 
species, of Asian carp and others, it is not enough compared to 
the situation we have. I hear it from every state and I hear it 
from both political parties.
    We have $13.5 million specifically for Asian carp for the 
USGS, in its work in eDNA, on early detection, and the Fish and 
Wildlife Service, on different methodologies to try and prevent 
the Asian carp from getting into the Great Lakes. It is a very 
serious and risky issue. We don't want it to get away from us, 
as we have with the zebra and quagga mussels that are infecting 
many, many water bodies.
    This is really critical funding to maintain the work that 
we have done. If there was more money, we would be able to put 
it to good use, as well.
    Mrs. Dingell. Thank you, Madam Secretary. I want to also 
applaud the fact that your budget proposes a significant 
investment in our National Refuge System. Again, I think a lot 
of people are not appreciating the fact that these refuges are 
a national treasure, that it is a network of lands and water 
which have been established for conservation management and 
appropriate restoration of fish, wildlife, and plant resources, 
so that we are protecting these habitats generation to 
generation.
    I was shocked when I read your testimony last night and saw 
that more than 400 staff positions have been eliminated since 
2010, or have been lost. Your proposal to increase funding by 
$25 million for the refuge system would go a long way toward 
making the investments we need to be making in the system. What 
consequences have you seen from the elimination of these jobs 
to invest adequate resources in the refuge system, and how will 
you use these increased resources you are proposing and I hope 
we are going to give you?
    Secretary Jewell. Well, I will give you a specific example 
from one particular refuge I had visited, which had a staff of 
16. It is down to about six. They had a volunteer volunteer-
coordinator that burned out, because it is really a full-time 
position, so they could not even harness the volunteers 
necessary to continue the education programs. And this is a 
refuge that is located close to an urban area.
    The budget that we have does prioritize urban refuges, in 
particular, to begin to give some of these children that are so 
disconnected from nature and urban areas an opportunity to 
understand what is at risk, but it does not even go close to 
addressing the issue of where we were a few years ago, in terms 
of providing access, resources, invasive species control, 
hunting, fishing access, and so on, which is so important to 
people on refuges.
    I appreciate your support. We will put it to good use, 
largely around the visitor experience and the urban refuge 
partnerships. But it is nowhere near where we were just half-a-
decade ago.
    Mrs. Dingell. Thank you, Madam Secretary.
    Mr. Chairman, I had a question on self-bonding, but I am 
respecting your time limitations and would request asking a 
question for the record.
    The Chairman. OK, thank you. But you are just in pain, 
right? You are just in dental pain, that is really the reason 
you are doing it, right?
    Mrs. Dingell. That is right. A tooth implant. I don't 
recommend it. It is more fun than this, though.
    [Laughter.]
    The Chairman. Probably more productive, too.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    We appreciate you being here today. Notwithstanding the 
intensity of the questions today, they are very important 
because we get the same intensity when I go home to my 
district. The growing poll numbers on BLM and parks is not the 
same for the people that live next to them when they are 
subject to burning forest, wolf introduction, mountain lions, 
and all this other stuff they have to live next door to, and 
you are getting after their livestock, their pets, and even 
their families. So it is a little bit different when you live 
next to these areas as it is in the cities that they get the 
polling information from. That said, I do appreciate you coming 
here and answering the hard questions, as we have to in our 
districts.
    For years there has been an effort to address water supply 
issues in the Klamath. We have worked many hours with folks up 
and down the region who are impacted by this situation, as well 
as my colleague, Mr. Walden, who is here today, who offered a 
draft bill that I think would have really gone a long way 
toward resolving these issues and providing a water supply 
certainty to those folks in the region.
    Now what we have pressing forward is the dam removal. What 
I have here is a copy of an agreement in principle that you 
just signed this last month, in which the Department of the 
Interior agrees to work with California, Oregon, and PacifiCorp 
to create a so-called non-Federal entity to engage in removal 
of the four dams. This agreement focuses on dam removal alone, 
leaving the water supply issues of the basin unresolved. They 
are doing so without the approval of Congress or consultation.
    Is this non-Federal entity you agreed to create subject to 
open government and Freedom of Information Act requests? And 
since my time is short, I will ask you for a compact answer 
along the yes-or-no lines.
    Mr. Connor. The non-Federal entity has not been formed yet. 
It will be dependent on how it is structured. I don't know the 
answer to your question right now.
    Mr. LaMalfa. Well, there is Federal involvement here with 
your agency and others.
    Mr. Connor. It will be a non-Federal entity formed by the 
states of California and Oregon.
    Mr. LaMalfa. But you are signers on the agreement.
    Mr. Connor. The agreement in principle, which will include 
provisions to create this non-Federal entity by the states of 
California and Oregon.
    Mr. LaMalfa. This seems like a front company for a process 
to avoid public scrutiny. My own staff had to work pretty hard 
to get involved in the Sacramento meeting. We asked to be part 
of one that is going on in Portland today, and they did not get 
back to us, but they will be there anyway. So that sounds like 
a no to me, because there does not seem to be the opportunity 
for open government or freedom of information.
    OK, I have another document here. It is the confidential 
settlement communication discussion draft, which was circulated 
at that meeting I mentioned last week in Sacramento. This 
document specified that the non-Federal entity must be created 
by yesterday. Was there a signature made by your office 
yesterday on the creation of the entity? The target date was 
February 29.
    Mr. Connor. No signature by our office.
    Mr. LaMalfa. OK, very good. This was just a month after the 
first document, the AIP. Did Congress authorize the 
Administration to create a non-Federal entity?
    Mr. Connor. The Administration is not creating a non-
Federal entity. Congress has not authorized it. It is not a 
creation of the Administration. It is a creation by the states 
of California and Oregon, as contemplated by the agreement in 
principle.
    The whole premise here is there has been a desire to have 
the Federal Government removed from the dam removal process. I 
understand that was an issue. That was one of the reasons why 
the Klamath Basin restoration agreement legislation was not 
enacted.
    Mr. LaMalfa. Well, these are administrative goals.
    Mr. Connor. Now we are taking the Federal Government out of 
the dam removal process.
    Mr. LaMalfa. These are Administration goals here. Now here 
is Administration involvement. Unless you are doing it pro 
bono, it is going to have impacts on your budget.
    The very fact you are involved and signed the agreement 
indicates that we are spending Federal dollars in this process. 
Is this a pro bono process?
    Mr. Connor. There has been significant environmental 
analysis done on the question of dam removal.
    Mr. LaMalfa. But are you spending money from your agency 
toward this effort?
    Mr. Connor. Toward the environmental analysis associated 
with dam removal, yes.
    Mr. LaMalfa. The answer would have to be yes, because you 
are spending your time, you are spending agency hours and 
staff, yes?
    Mr. Connor. That is correct, Congressman.
    Mr. LaMalfa. OK. So they do not feel it is important that 
they need authorization from Congress to participate in this 
project, even though we are supposed to budget for it.
    Mr. Connor. There is Federal authorization for dam removal 
through the Federal Energy Regulatory Commission, and that is 
the process. The proceeding will go through the Federal Energy 
Regulatory Commission.
    Mr. LaMalfa. But the process of creating a non-Federal 
entity, a shell corporation, basically?
    Mr. Connor. That is not part of the FERC regulatory 
process. That is a creation by the states of California and 
Oregon.
    Mr. LaMalfa. I am out of time, Mr. Chairman. Thank you.
    The Chairman. Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair. And thank you, Madam 
Secretary, for being here and for answering all our questions.
    I want to talk about coal, and I want to thank you for 
pushing the pause button on Federal coal leasing while you take 
a long-needed review of the program.
    You have said before that this sort of thing, this kind of 
pause, has been done multiple times in the past, and I believe 
by Republican administrations. Is that right?
    Secretary Jewell. Yes, that is correct. Both under Nixon 
and Reagan.
    Dr. Lowenthal. So, both under Nixon and Reagan it has been 
done before. We have had a bipartisan precedent for this pause. 
You have made it clear that this will not impact existing 
operations, even with a pause on new coal production, since 
coal companies now hold approximately 20 years' worth of coal 
under lease.
    But I think it could be even more than 20 years, based upon 
current amounts of production, that coal use, as you have 
indicated earlier today, is actually on the decline. And, 
according to information that I have from the Energy 
Information Administration, coal production in 2015 was 10 
percent less than in 2014, and that our use of coal to produce 
electricity in the United States is now less than 30 percent. I 
think that is great for the climate. I hope that number gets 
even smaller as we move forward and that we work with the 
Department of the Interior to develop more renewable sources 
for energy, rather than coal.
    Can you tell us, in your words again, why is coal 
production down in the United States?
    Secretary Jewell. Largely, coal production is down because 
of a change to natural gas in electricity production. We are 
the world's largest producer of natural gas. Natural gas is 
both a cleaner burning fossil fuel than coal, as well as less 
expensive to construct new plants, and we have seen a 
significant transition. That, plus renewables and conservation 
is a large reason why coal has declined in its use.
    Dr. Lowenthal. Isn't it also true that other countries are 
now becoming less interested in purchasing coal, and would 
rather also purchase more natural gas? Is that not true, also?
    Secretary Jewell. Yes, that is correct, also. We have seen 
significant declines, for example, in China.
    Dr. Lowenthal. Well, I think, then, it is really important 
for us to get on the record to say that these changes in coal 
production are not due to administrative policies, but they are 
really due to the marketplace. And that the marketplace now is 
driving down coal production, not administrative processes or 
policies.
    Actually, I think we have unfairly been subsidizing coal 
production, such as from the Powder River Basin, and letting 
coal be produced or mined at rock-bottom prices. So, I am glad 
you are taking another look at how we lease coal and that we do 
not give it away too cheaply, Madam Secretary.
    But while you are doing this review, are you going to 
include some of the external costs that burning coal produces 
on our environment and on our public health?
    Secretary Jewell. It is our intent in the programmatic EIS 
to look broadly at the coal program, which will include the 
environmental impacts of the mining and burning of coal, and 
that will be scoped as we continue with this process in the 
coming months.
    Dr. Lowenthal. Thank you. I think it is very important that 
we take this overarching careful look at coal.
    I also want to commend you and your Department for taking a 
number of other positive steps. For example, the recent methane 
venting and flaring draft rule is a win-win for both the 
environment and for the taxpayers. Just last week, Gina 
McCarthy said that the oil and gas industry is emitting far 
more methane than was previously assumed. I think this rule 
will be timely and it is critically important.
    I also want to thank you for the proposed rules to 
strengthen oil and gas oversight in national parks and wildlife 
refuges. I know Ranking Member Grijalva, Ms. Tsongas, and I 
sent to Assistant Secretary Schneider, with over 50 of our 
colleagues, asking her to finalize those rules as soon as 
possible.
    The last question I have is, there was a proposed renewable 
energy competitive leasing rule which was published almost a 
year-and-a-half ago. When might we see that rule finalized?
    Secretary Jewell. Mike, do you have the answer to that?
    The Chairman. You have 1 second.
    Secretary Jewell. Sorry, we will get back to you on that. I 
cannot scramble through the book in time.
    Dr. Lowenthal. Thank you, and I yield back.
    Secretary Jewell. Thank you very much.
    The Chairman. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Secretary Jewell, thank you for being here. I want to thank 
all of you for being here. I also want to commend you for 
including funding for the Land and Water Conservation Fund in 
the budget request. I have seen some of the projects that you 
have participated in around the United States. I think when you 
acquire land from willing sellers, you make sure you are using 
the right investment principles in acquiring land that truly 
provides value to the country, and preserves opportunities for 
recreation, and I think it is the right move. Again, I want you 
to commend you for funding the program.
    But I want to pivot on that a little bit. The Land and 
Water Conservation Fund is derived from offshore energy 
production. While you are proposing to conserve and protect 
lands in the West, primarily, you are taking money from 
offshore energy production, which is primarily, in some years 
up to nearly 90 percent of all offshore energy production, off 
the coast of Louisiana.
    Your budget request further slaps the Gulf Coast in the 
face by proposing to take those funds to fund the Land and 
Water Conservation Fund and at the same time proposing to 
divert our GOMESA, Gulf of Mexico Energy Security Act funds and 
give those to Alaska.
    I talked to Mr. Young earlier and told him that I was not 
going to say anything offensive about Alaska. I understand 
there are severe coastal problems and I have been to a lot of 
the coastal communities up there. He threatened to knife me if 
I did not put that caveat in there. He assured me it would be a 
non-essential part of my body.
    [Laughter.]
    Mr. Graves. But I am having trouble reconciling this, Madam 
Secretary. So let me just take the synopsis here.
    You are taking funds from energy production off the coast 
of Louisiana and other Gulf states. You are funding the Land 
and Water Conservation Fund in western states to protect their 
environment and conserve lands. Then you are proposing to take 
other funds that were due to the Gulf states, and you are 
proposing to give it to Alaska. I am not doubting that there is 
merit there and I think they should have revenue sharing, but 
why is Alaska more important than the Gulf Coast, and why are 
the western states more important than the Gulf Coast?
    Secretary Jewell. Let me be clear on this, our position is 
that the offshore oil and gas revenues collected from Federal 
waters belong to all Americans.
    Mr. Graves. And if I can quote you, you just said, in 
response to a question previously, that onshore flared gases 
were also a resource that all Americans enjoy.
    As you know, for onshore production under refuge revenue 
sharing in the Mineral Leasing Act, up to 90 percent of the 
revenues that ``belong to all Americans'' are sent back to 
those states through the reclamation fund and through revenue 
sharing. So, this whole argument about it belongs to all 
Americans, and trying to treat onshore and offshore 
differently, it does not hold water.
    Secretary Jewell. Well, let me just say that we are talking 
about Federal waters. In state waters, obviously, the state 
gets the revenues. On lands that are within state boundaries, 
they have a 50 percent revenue share. Offshore is owned by all 
Americans, it is in Federal waters, it is not in state waters. 
So that is a difference.
    Mr. Graves. Wait a minute, you are saying that onshore is 
not owned by all Americans? Because earlier you just said that 
flared gas was owned by all Americans. I thought that those 
lands were all Americans that are Federal lands within states' 
boundaries.
    Secretary Jewell. Public lands are owned by all Americans.
    Mr. Graves. OK
    Secretary Jewell. There is a 50 percent revenue share.
    Mr. Graves. And the mineral resources on those lands are 
all owned by all Americans.
    Secretary Jewell. That is correct.
    Mr. Graves. OK.
    Secretary Jewell. And when it is within the boundaries of a 
state, there is a revenue share. When it is outside the 
boundaries of the state, as in the case of the Outer 
Continental Shelf, there is not a revenue share until GOMESA.
    Mr. Graves. And is that because the offshore energy 
production does not affect our coast? Like in the example of 
Deepwater Horizon, where we had 660 miles of our coast oiled in 
Louisiana? Is that the reason?
    Secretary Jewell. You are impacted both from environmental 
consequences and also economic opportunity. There is $17 
billion, I believe, for Gulf Coast restoration as a result, 
largely, of the BP Horizon spill.
    Mr. Graves. Madam Secretary, I am sorry, you raised the 
same thing last time. That is because of law. You cannot say 
that we lose money because BP is now paying their fines and 
penalties. You cannot have a maintenance of effort swap here. 
So, Madam Secretary, I have to tell you, I am offended, I 
really am. And a lot of people in the Gulf Coast are offended.
    But let me take it a step further. If you look at what is 
happening right now, we have lost 25 percent of our oil and gas 
workforce in the state of Louisiana, 25 percent in the last 14 
months. To add insult to injury, you proposed a well control 
rule. God bless the people that work at Interior, and offshore 
energy is very, very complex and highly technical--but the rule 
that they have written, they fundamentally do not understand 
the technology associated with offshore energy. I don't want to 
pretend to understand it as well as industry does. I can tell 
you it is flawed.
    Number two, you are proposing a $10-a-barrel tax at the 
same time we just lifted the export ban. How in the world are 
we going to compete on a global basis if you are increasing the 
tax on a domestic product by anywhere from 30 to 40 percent of 
the prices? This simply does not make sense.
    Secretary Jewell. The well control rule will be finalized 
soon and I think you will find that significant changes have 
been made.
    The Chairman. Thank you. But now we know all we have to do 
is brandish a knife to control him.
    Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman. Thank you all very much 
for being here. I would like to add my support to Mr. 
Cartwright's RECLAIM Act, which is bipartisan, that Mr. 
Cartwright is the lead Democrat on.
    I would like to clarify. Dr. Benishek has left, but we said 
nice things about his praise of the Fish and Wildlife Service 
for delisting the gray wolves. Let's point out the judge set 
aside that delisting because, as part of the Fish and Wildlife 
delisting, they made it contingent on the state's developing 
scientifically managed plans for the wolves, and those 
scientifically managed plans did not happen. What we found was 
the wholesale slaughter of the gray wolves, poisoning, 
trapping, anything other than recreational hunting. So we will 
see how the court case goes and how it goes in the Senate.
    I wanted to start with three thank you's. First, thanks so 
much for the Every Kid in a Park initiative. I think it is just 
great to get all of these fourth-graders--we are taking fourth-
graders from Mount Vernon Woods Elementary School out to Great 
Falls. We are not going to let any of them fall in, but it will 
be very exciting for them. I think it will perhaps change their 
lives to think about the outdoors in a different way.
    Thank you very much for putting in your budget all the 
efforts to save the coal miners' pension fund. I know there are 
100,000 coal miners that are affected by this. When the whole 
thing went bankrupt, there were a lot of people that were just 
desperate in southwest Virginia and across the country, who 
spent their lives mining coal who suddenly had no pension or 
health benefits to look forward to. So, thank you very much for 
that.
    And thank you for putting the $2 billion in for a coastal 
resilience project. Again, the East Coast of the Atlantic is so 
heavily affected by it. I am sorry Mr. Young has left because I 
was impressed to see in your written testimony that you said 
that this coastal climate resilience program will address the 
unique impacts of climate change in Alaska, where rising seas, 
coastal erosion, and storm surges are threatening Native 
villages that must prepare for potential relocation.
    One quick question. It looks like the $2 billion may not be 
approved. Is there any merit in looking for a smaller pilot 
project, $5 to $10 million, that would continue the National 
Fish and Wildlife Foundation's work on coastal resiliency?
    Secretary Jewell. Coastal resilience is a big issue. It is 
certainly on the Atlantic Coast; and Alaska, as you mentioned; 
and also on the Gulf Coast, which was part of the intent on the 
redirection of the GOMESA money to coastal resilience programs. 
It certainly did not exclude the Gulf, that is very much 
included.
    We have a problem with coastal resilience across the United 
States. If we are not successful in this particular program, we 
are going to have to find ways to support these communities 
that are very much impacted. In your own state, the impact on 
Jamestown is very significant, both in terms of historic 
artifacts and archeological artifacts, because we see dramatic 
increases in sea level rise and storms associated with climate 
change. That is true along the Atlantic seaboard, as it is in 
Alaska and on the Gulf Coast.
    Mr. Beyer. And we have seen a 14-inch rise in water level 
in Norfolk in the last 10 years, affecting the naval base.
    Secretary Jewell. Right.
    Mr. Beyer. I would also like to mention an effort to 
quantify outdoor recreation's contributions. I think you know a 
little bit about outdoor rec. Once again, it is a bipartisan 
bill called the REC Act, the ``Recreation and Economic 
Enhancement Act.'' It was introduced last year in the Senate by 
Senators Gardner and Shaheen, and now we are putting it 
together with Representatives Reichert, McMorris-Rodgers, and 
Blumenauer.
    Can you tell us about how you will work with the Department 
of Commerce and the Department of Labor to make sure this kind 
of economic data is comprehensive and gives us the tools we 
need to stimulate outdoor recreation?
    Secretary Jewell. Yes, I am going to turn to Kris, because 
we are working very closely with the economic folks on this 
right now.
    Go ahead.
    Ms. Sarri. It is our hope to work with the Department of 
Commerce, the Bureau of Economic Analysis, and the Department 
of Labor to capture how beneficial the outdoor recreation is to 
our economy. That would be something that all of the land 
management bureaus, whether it is within Interior, Forest 
Service, or NOAA, would work with those entities.
    The hope is to create what they call a satellite account to 
supplement what we have in terms of data on economics from 
outdoor recreation.
    Mr. Beyer. Great, thank you. We only have 35 seconds left. 
We spend a lot of time in this committee talking about the 
Endangered Species Act. Can you go one step further, because I 
know you have done a lot on connectivity, especially with the 
sage-grouse. Can you talk more about connectivity efforts, 
nationally?
    Secretary Jewell. Really, the key to habitat in general for 
species is looking at the landscape more holistically, and that 
means connectivity. One of the biggest challenges we have had 
has been fragmentation. You cannot really have little pockets 
and islands and support a species. The pine forest in the 
southern states, the Great Lake ecosystem, the Chesapeake Bay, 
these are all very important. Thanks.
    The Chairman. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Welcome, Secretary Jewell. I have three questions to ask, 
so I am going to try to talk fast and I'd appreciate if you 
would do the same.
    The state we both call home the last 2 years has suffered 
from record-setting catastrophic wildfires. In my district, 
certainly, that has been the case. Since 2000, the Department's 
budget for fighting wildfires was less than their actual cost. 
I know about the 10-year averaging system that you use for 
suppression efforts.
    So after these last two fire seasons, do you think a 10-
year average is the most practical way to allocate funding for 
fire suppression, even with your proposed $290 million 
adjustment to the cap? Additionally, what will likely happen to 
other critical activities, such as forest fuel management, 
health, and resiliency projects, should more funds be required 
to fight fires in this coming year?
    And, as a follow-up, what do you believe the Interior 
Department and Forest Service could do to ensure adequate 
forest management and rehabilitation occurs in order to get 
ahead of this vicious cycle that we find ourselves in?
    Secretary Jewell. Thank you very much for pointing out the 
vicious cycle. We do not have adequate funds in our budget to 
continue the work of rangeland and forest health, as well as 
fighting fires. It is more acute in the Forest Service than it 
is for the Department of the Interior, but it acute for both of 
us.
    I was on the Colville Reservation. I am red-carded so I was 
able to go out on the fires themselves. These fires are burning 
hotter and longer, because we are not doing fuels treatment. We 
do not have the money to do that, so we would welcome a fix.
    We have put in place in our budget the fix that was 
recommended by Congress in both bodies, and we hope that that 
passes. Certainly we could use more for fuels removal, and it 
would put people to work. We would welcome an opportunity to do 
that.
    Mr. Newhouse. I want to thank you for addressing the 
elephant in the room in your opening comments about the recent 
protests that shined a spotlight on Federal management of lands 
in the West. I am talking about what happened in Oregon.
    One of the issues I hear from my constituents is regarding 
the practice of back-burning. Certainly, in the case of the 
Hammond family, they are being prosecuted for using an anti-
terrorism statute for trying to protect their private property, 
which I find somewhat concerning. It seems like that is over-
prosecution, especially since the Federal Government uses the 
same practice. It is not unusual for those fires the Federal 
Government starts to spread onto private lands with no 
compensation to the landowner.
    So, could I ask you your position on the use of back-
burning? What would you have me tell my constituents who have 
to decide whether to protect their land or face an anti-
terrorism charge if they do?
    Secretary Jewell. Well, let me separate these a little bit. 
Back-burning is absolutely an important practice for fuels 
management on private and public lands. When there is an 
inadvertent spread, which does occasionally happen, there is 
typically not a criminal prosecution. The situation with the 
Hammonds was different and there was other poaching activity 
that was being covered up that came out in that criminal 
prosecution, which has not really hit the media.
    But, there is no question back-burning is important and I 
would suggest that your constituents work closely with the 
Federal land management agencies to coordinate those efforts. 
We do that frequently across the landscape.
    Mr. Newhouse. One more question, just real quickly. Given 
that there is ample evidence to support delisting of the gray 
wolf, do you believe that the wolf has been adequately 
recovered, and should be delisted?
    Additionally, why has the Department of the Interior and 
the Fish and Wildlife Service failed to finalize this proposed 
rule and move forward with delisting?
    Secretary Jewell. The Fish and Wildlife Service has 
recommended delisting of the gray wolf due to recovery. We have 
had that action stayed by the courts. So, we cannot move 
forward as a result of that. But we have recommended for 
delisting due to recovery.
    Mr. Newhouse. So you support delisting?
    Secretary Jewell. Correct.
    Mr. Newhouse. We look forward to working with you on making 
that happen.
    Secretary Jewell. Thank you.
    Mr. Newhouse. Thank you, Mr. Chairman. I yield back.
    The Chairman. Ms. Secretary, I don't know what your 
schedule was. We have roughly about 40 minutes worth of 
questions still here with this panel. That would take us to 
quarter to. Are you on a drop-dead schedule here?
    Secretary Jewell. No, I am willing to stay until quarter 
to.
    The Chairman. OK. Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman. I am happy to be 
having at least an initial discussion on a budget process here 
in this committee.
    Secretary Jewell, thank you for being here. As you know, 
the Indian Health Service, through its annual appropriation, 
provides contract support cost to Indian tribes in tribal 
organizations to offset the cost of administering IHS-funded 
programs under self-determination contracts.
    Indian tribes and tribal organizations have raised concerns 
about the contract support funding shortfalls, and note that 
these shortfalls have resulted in reduced services or decreased 
efficiency for tribes with contracts.
    My first question to you is, do you consider the Fiscal 
Year 2017 request of $278 million for contract support costs 
adequate to help tribes as they work to provide effective 
health services?
    And second, because we don't have a whole lot of time, how 
were tribes consulted and their program needs considered when 
coming up with the $278 million budget?
    Secretary Jewell. Let me just answer generically. The 
Indian Health Service is within HHS, so that is not my budget. 
But we do have contract support costs for all of the self-
determination contracts we have in Interior.
    We are fully supportive of 100 percent contract support 
costs and that is what we anticipate the level to be that is 
reflected in our budget. We did settle the litigation which was 
around past non-payment of contract support costs. That 
resulted in close to $1 billion of payouts to tribes for us not 
living up to our obligations in the past. This budget reflects 
our intent to pay full contract support costs, both for Indian 
Health Service and those contracts as well as those within 
Interior and other agencies.
    Mrs. Torres. So, my second question was how did that 
process look like?
    Secretary Jewell. I am sorry.
    Mrs. Torres. What did it look like? Were you consulting 
with tribes to ensure that their needs were met?
    Secretary Jewell. The short answer is yes. There is a 
tribal budget committee that meets in conjunction with policy, 
management, and budget. There is tribal consultation 
throughout.
    Ms. Sarri. Yes, we worked very closely with the tribes in 
looking at the program costs on this issue.
    Another thing that we did this year is, we adopted what the 
Congress provided in 2016, which is an indefinite count, to 
make sure that there are sufficient funds for contract support 
costs. We continued the proposal from last year, where we were 
asking for full mandatory funding in 2018 for this purpose.
    Mrs. Torres. Thank you. Going back to the question that Mr. 
Graves asked, can you help me understand that process of 
funding or taking funds from international waters, which would 
be considered for the entire country, and areas where it is 
within a state? What does that look like?
    Secretary Jewell. In 1964, Congress passed the Land and 
Water Conservation Act. That said we are going to allow up to 
$900 million from offshore oil and gas activities in Federal 
waters to support land conservation across the United States. 
That was authorized and roughly about 50 percent of what was 
authorized has been spent over the years. That is because those 
are in the Outer Continental Shelf waters that belong to all 
Americans. As Congressman Lummis said, it is about 1.7 billion 
acres.
    Onshore, within the boundaries of the states, there is a 50 
percent revenue sharing. When BLM typically does oil and gas 
activities by private companies, those companies pay a royalty 
to the Federal Government. Half of that goes to states when it 
is onshore. That is not true offshore, with the exception of 
this GOMESA proposal, the Gulf of Mexico Energy Security Act, 
which starts to ramp up in 2018 and directs money from revenue 
sharing from Gulf of Mexico production to four states only. The 
President's budget recommends that be repealed and that money 
be used for coastal resilience projects across the country.
    Mrs. Torres. So, the only way to change that formula would 
be through the legislative process?
    Secretary Jewell. That is correct.
    Mrs. Torres. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. Mr. Gosar.
    Dr. Gosar. Thank you, Madam Secretary, for being here. One 
of President Obama's signature pledges on the campaign trail 
was to run ``the most transparent administration in U.S. 
history.'' In fact, his commitment to create an unprecedented 
level of openness still stands proudly at the top of the White 
House's Open Government Web page.
    Secretary Jewell, do you believe in transparency and 
honoring that pledge?
    Secretary Jewell. I do.
    Dr. Gosar. Does your agency typically comply with the 
Freedom of Information requests, and if so, what is the average 
turnaround time?
    Secretary Jewell. We do comply with the requests. That is 
done by career staff. I don't know what their average response 
time is.
    Dr. Gosar. My understanding is you do try to respond within 
30 days, true?
    Secretary Jewell. I don't know.
    Dr. Gosar. I find it interesting that yesterday at 4:00 
p.m. your agency sent me 143 pages of crap, responding to an 
FOIA request from eight Members of Congress made 3 months ago 
about information related to potential monument designations.
    In our request, we asked for all Federal land units under 
your jurisdiction that have been considered, analyzed, and 
designated as national monuments since January 20, 2009. Your 
agency sent us a crap sandwich, comprised entirely of other 
Members' written questions to you during last year's budget 
hearings without your response. A third-grader could have 
provided this. Shame. And you wonder why we have problems.
    Your agency is intimately involved in carrying out the 
national monument designations, right?
    Secretary Jewell. That is a Presidential power. We are 
asked to weigh in on recommendations.
    Dr. Gosar. But you are involved?
    Secretary Jewell. Yes, we are involved.
    Dr. Gosar. OK.
    Secretary Jewell. Sometimes.
    Dr. Gosar. In fact, your agency requested $43 million, a $9 
million increase for such activities in this year's budget. 
Since you have not responded to our FOIA request from the eight 
Members of Congress, I am going to give you one more chance 
today. How many more new national monuments does this 
Administration plan to designate this year? What are the names 
and geographic locations of potential monuments being 
considered?
    Secretary Jewell. That is entirely up to the President of 
the United States. There are many people that come through the 
doors saying, ``We would like you to look at monuments.'' There 
are assessments that happen from places across the country of 
interest. They go directly to the White House.
    Dr. Gosar. Let me stop you there. So, the President has not 
given you any detailed leanings, one way or the other?
    Secretary Jewell. The President has not.
    Dr. Gosar. Absolutely zippo?
    Secretary Jewell. Absolutely zippo.
    Dr. Gosar. OK, let's move on. Let's go to another one.
    Have you ever visited Oak Flat?
    Secretary Jewell. I have been to the area. I have been to 
the San Carlos Apache Tribe, and very close by.
    Dr. Gosar. But you haven't, though.
    Secretary Jewell. I have flown over it. I have not been on 
the ground.
    Dr. Gosar. You have not been on the ground.
    Secretary Jewell. I have not been on the ground.
    Dr. Gosar. OK. Well, once again, the same type of thing. In 
December 2014 you stated in a poorly worded press release, 
``The Oak Flat area has significant religious, cultural, 
historical, and archeological value.'' If you never visited 
there, how can you make such a claim?
    Secretary Jewell. I sat in a room in a nursing home with 
elders from the San Carlos Apache Tribe, all of whom were in 
tears over the potential mining development of Oak Flats.
    Dr. Gosar. Oh, I am glad you just said that. I have very 
little time. Dale Miles, a current member of the San Carlos 
Tribe, and a former tribal historian, recently wrote a full-
page Op-Ed stating that the Oak Flat Campground had never been 
a sacred site. Here is a copy for your record, so you can read 
this.
    Three times, Representative Ann Kirkpatrick and I have sent 
the Park Service a bipartisan letter asking the agency to 
withdraw a fundamentally flawed historical place nomination for 
Oak Flat. The first time this nomination was published in June 
2015 there was no notification to my office, nor Ms. 
Kirkpatrick's. The initial nomination was redacted, included no 
maps, and was listed under a misspelled city, not even close to 
the proposed location.
    Just yesterday, the Park Service finally utilized the name 
Oak Flat and published a new listing notice in the Federal 
Register, allowing 5 days for public comment. Does this sound 
like a transparent process to you?
    Secretary Jewell. There are many, many properties that come 
up for National Register listing. I don't know what the normal 
process is.
    Dr. Gosar. Five days of public comment for people around 
there is an adequate statement, right?
    Secretary Jewell. I will have to look into it. I don't know 
the specifics.
    Dr. Gosar. You know, this gets old and old, and you were 
talking about back-burning in forests. When are we going to 
start taking the loads out of the forest so that we do not have 
these exorbitant catastrophic fires? I mean 4FRI initiative is 
one of those applications where we are supposed to be going and 
thinning the forest so that we do not have this horribly, 
despondently, non-scientifically based problem of burns.
    We need to come to a common denominator here and start 
pushing common sense. Thank you.
    The Chairman. Mr. Polis.
    Mr. Polis. Thank you, Mr. Chairman. I want to actually 
follow up on a bill that I have with Mr. Gosar, who just got to 
ask the question.
    Madam Secretary, of course we know that renewable energy 
development on public lands has great opportunity. Since 2009, 
there have been over 50 large-scale renewable energy projects 
approved on public lands. But the siting and permitting process 
around getting those renewable energy projects going frequently 
stands in the way. I recently heard an anecdote from a company 
yesterday that abandoned a project after seeking permitting for 
several years.
    When we compare this to oil and gas, it just seems to be 
they get our public lands without hardly any notice, and 
without any NEPA process or anything else. They just go and 
drill. So, I wonder what we can do to make it more of a level 
playing field.
    I, along with Mr. Gosar, have introduced the Public Lands 
Renewable Energy Development Act. As an overseer of 20 percent 
of our Nation's land, can you commit to pushing for more 
renewable energy development and facilitating and expanding the 
opportunities to move through the permitting process around use 
of Federal lands for renewable energy?
    Secretary Jewell. Let me just start by saying we do a NEPA 
process any time we do activities on Federal land, including 
with oil and gas. But, absolutely, it is our intent to help 
facilitate renewable energy development.
    I think the best examples of that have been in California 
and Nevada, which have been the Desert Renewable Energy 
Conservation Plan, a landscape-level look, and then the solar 
energy zones within the state of Nevada. We would welcome the 
opportunity to do more of that and to accelerate the potential 
that we have on our public lands.
    Mr. Polis. Are you saying that establishing a drilling rig 
on public land requires the full NEPA process?
    Secretary Jewell. We do NEPA when we do the leasing 
process. I don't know that each individual rig would require 
that. I don't think so, once we issue a permit. That is within 
the broad NEPA for the development in each of those areas.
    Mr. Polis. Yes, once the land is leased, there is really no 
NEPA process around the siting of the wells.
    As you know, I represent a district that has a great 
tourism economy. And of course, one of the types of land you 
oversee are our national parks. And, of course, congratulations 
on the centennial. We are very excited about that. We had a 
number of festivities in Rocky Mountain National Park in my 
district. We had our own centennial last year for that same 
park.
    It is also, of course, an economic lifeline for our area; 3 
million visitors generating hundreds of millions of dollars of 
economic activity and thousands of jobs. And, of course, it is 
your responsibility to maintain those treasures. Rocky Mountain 
National Park alone faces a deferred maintenance backlog of $68 
million.
    Do you believe that the National Park Service has the 
efficient resources to manage its natural assets across 
ecosystems? And, what can Congress do to help ensure that NPS 
can help maintain this vital investment in keeping economic 
prosperity in regions where our economy relies on our national 
parks?
    Secretary Jewell. Well, thanks for recognizing that an 
investment in national parks actually drives a great return to 
the American taxpayer. It is about 4 dollars of return for 
every dollar spent.
    The budget that we have, on the discretionary side, begins 
to chip away at the maintenance backlog. But we really need a 
longer-term solution, and we have put on the table proposed 
Centennial legislation that would do that and would clear up 
the high priority maintenance backlog within 10 years. We would 
very much appreciate support from this body to make that 
happen.
    Mr. Polis. Thank you, and thanks for mentioning the return 
on investment for public lands. You mentioned four-to-one.
    In addition to that return, it is also crucial that we make 
sure that all Americans, including diverse populations and 
under-served communities and youth, have opportunities to 
experience nature and benefit from our public lands. What can 
your Department do to help connect people, especially diverse 
and under-served populations, with the great benefits of the 
outdoors and our public lands?
    Secretary Jewell. Thanks very much for the question. We 
have about $100 million spread across the Department with 
everything from internships at the USGS to Every Kid in a Park. 
The Every Kid in a Park program gives every fourth-grader in 
America access to America's public lands. We are gearing up our 
training for that. We are raising private money, supplemented 
with our money, to get Title I schools access to go out to 
those places. There are many other programs that we are doing 
philanthropically, as well as with our own resources, to ensure 
that next generation is introduced.
    Mr. Polis. My final question is around interstate 
transmission lines, like TransWest and Gateway South. There has 
been concern that they were given deferential treatment, even 
though they have huge impact on, for instance, sage-grouse 
habitat, as well as other areas with wilderness character. What 
are you doing to ensure that transmission lines will not cause 
undo and unnecessary degradation to our public lands?
    Secretary Jewell. Well, that was certainly factored into 
the analysis. We know these are important lines and we took 
that into account with the sage-grouse plans. Thank you.
    The Chairman. And for the record. Mr. Zinke.
    Mr. Zinke. Thank you, Mr. Chairman.
    You mentioned that the driver behind the lack of coal 
demand was the market. But I will submit to you also that the 
punishment that coal has been taking on regulation also has an 
impact. My question really is about the moratorium.
    You said in statements and today that it would not affect 
jobs. But have you done an economic analysis of the jobs in 
states like Alabama, Arkansas, Colorado, Kentucky, Wyoming, 
North Dakota, Oklahoma, Utah, and Montana on the effect of jobs 
and the moratorium on coal leases?
    Secretary Jewell. The pause that we are putting on coal 
leases for the length of the PEIS had a number of exclusions to 
them, exclusions for metallurgical coal, recognizing that 
existing coal mines have nearly 20 years, or more than 20 
years, of coal under lease. But exceptions also so that if a 
mine is at risk of shutting down, that we can consider that an 
exception, or if a power plant is at risk of shutting down.
    We also grandfathered a number of projects that were in the 
pipeline and nearing completion, and we have provided ongoing 
ability for people to conduct their NEPA analysis so that they 
can continue their efforts during the time we are doing the 
PEIS. So, we believe we have made accommodations to where there 
will be no impact on coal jobs.
    Mr. Zinke. So, do I have your commitment, then, if a mine 
company applies for one of these exceptions, your agency will 
work to ensure that the processing of those requests and 
applications is done before they have to shut down?
    Secretary Jewell. Yes, I mean they have to come to us with 
sufficient time. They cannot come the day before they are going 
to shut down, but as long as they come to us and work with us, 
we are very happy to work with them to support the exceptions 
that we have put in place.
    Mr. Zinke. Well, thank you for your commitment.
    Turning to the buffalo, which is a big issue in Montana 
with the BLM; I went out to Montana and toured across, and 
there is concern about placing the buffalo. The argument is 
this: the cattlemen that lease BLM land are required to have a 
certain number of animals per acre, they are required to have 
fences, they are required not to graze year-round, and there 
are a number of U.S. Fish and Game areas that have been 
identified for grazing not to occur. The fear is that when the 
buffalo came in, it seems like we have scraped all those rules 
away. The proposal is that buffalo do not have to have number 
of buffalo per acre, fences are going to be removed because 
buffalo are very difficult to keep in a fence, there is year-
round grazing.
    And you talked about the NEPA process. If we are going to 
make a change of that scope, would you agree that the same 
environmental impact statements would apply to cattle as they 
do to buffalo if we are going to make this scale of change?
    Secretary Jewell. I know there is a national bison plan. I 
am not specifically familiar with how a bison-grazed range 
compares versus a cattle-grazed range. All that would be taken 
into account if we were taking Federal action to impact that. 
But we are happy to get back to you for the record with more 
information on that, if that is helpful.
    Mr. Zinke. Well, and the national bison plan is by a group. 
I have never had a problem on private land when you do it, as 
long as it brucellosis free, and there are provisions in place 
where the cattle and buffalo can live in a relative area of 
harmony. But on public land, we are obligated to have the same 
environmental review on it, and if there are brucellosis 
problems, they need to be addressed. The buffalo plan, to my 
knowledge, has never been through the state of Montana, where 
it affects it.
    My last question is about parks. I am sure we all agree on 
the importance of our parks. But looking at your budget, we all 
know you are behind. I just got finished talking to the 
superintendent of Yellowstone. I know the superintendent of 
Glacier. I know how important it is, I grew up in the backyard. 
You and I both have toured the parks. But in your budget it 
does not seem like you prioritized the infrastructure.
    So, if the infrastructure is so important on road 
maintenance, why isn't it at the top of the list on your 
budget, as far as national parks?
    Secretary Jewell. Infrastructure and beginning to deal with 
the backlog is a very high priority in our budget. So it is in 
there, not only in the discretionary budget, but also in our 
recommendations for the centennial initiative, which would 
clear up the high-priority maintenance backlog over 10 years.
    Mr. Zinke. Would you say it is a top priority? Because as 
you look through it there are a lot of other programs in there, 
but it should be infrastructure first, I would think, before 
some of these other education programs and some of these ones 
that are less on the list.
    Secretary Jewell. In our centennial year of the Park 
Service, visitor experience also is very important.
    Mr. Zinke. Thank you.
    The Chairman. Look, we are almost a quarter to. I have 
four, five Members left. I don't know about your time and I 
feel bad about this, but if I could ask us to voluntarily limit 
to 3 minutes instead of 5 for the last round, can you stick 
around that long? I am sorry.
    Mr. Gallego.
    Mr. Gallego. Secretary Jewell, as you know, PILT is one 
essential program that supports rural counties in Arizona and 
across the West. In fact, Arizona receives the fourth largest 
PILT payment in the country. Counties depend on PILT funds to 
provide a quality of services. They provide it every year, but 
they are struggling without permanent, stable funding from 
Congress, in terms of the long-term budgeting.
    The volatility that county budgets have faced during the 
annual budget process has caused counties to withdraw money 
from their reserve accounts to pay for essential services. The 
continued instability will eventually lead to layoffs of some 
of our essential employees in these county areas.
    Secretary Jewell, could you talk about the importance for 
Congress to work to secure guaranteed future funding for PILT 
and how it impacts services on public lands?
    Secretary Jewell. Thanks for the question. We do not 
believe that PILT should be subject to the vagaries of this 
budget process every year. We know it is essential for 911 
services, for many, many county services, education and so on. 
So, we are fully supportive of a long-term solution to this, 
and we would welcome this body working with us on that. Thank 
you.
    The Chairman. Wow, thank you.
    Mrs. Radewagen.
    Mr. Gallego. Done.
    The Chairman. Oh, I am sorry, were you done?
    [Laughter.]
    The Chairman. OK, Mrs. Radewagen.
    Mrs. Radewagen. Thank you, Mr. Chairman.
    Secretary Jewell, thank you for taking time from your busy 
schedule to be here today. I know you have a demanding job and 
I appreciate the work you do.
    As you know, every year a little over $22 million is 
provided to American Samoa by the Office of Insular Affairs for 
the operations of the local government, judiciary, community 
college, and LBJ Hospital. The people of American Samoa are 
very grateful for the assistance that the United States 
provides and we cherish our relationship, as demonstrated by 
the rate of enlistment into our Nation's armed forces, which is 
higher than any other state or territory.
    However, as you may know, this level of funding has not 
changed since its inception over 20 years ago, despite 
inflation, a growing population, and federally-mandated wage 
hikes. On page 19 of the Fiscal Year 2017 budget justifications 
for OIA, it is noted that American Samoa does not have 
sufficient local revenues to fund the entire operating costs of 
its government.
    Also, within that very section, it is noted that a 
secondary object of the funding program for American Samoa is 
to promote self-sufficiency by maintaining the operations 
funding at a constant level. Requiring American Samoa to absorb 
the costs of federally-mandated wage hikes and inflation does 
not lend itself to self-sufficiency. Actually, quite the 
opposite.
    By maintaining a consistent funding level since its 
inception, the government of American Samoa has been forced to 
play catch-up, which has caused some real needs on the island.
    For instance, the hospital cannot serve our local veterans, 
due to the fact that they do not meet VA standards, forcing 
them to fly to Hawaii, which is like flying from Los Angeles to 
DC every time they need hospital care. An increase in this 
funding would go a long way in resolving those issues at the 
hospital. The ASG operation funding provided currently 
represents approximately 13 percent of ASG's general fund 
revenue and 11 percent of LBJ's revenue.
    Costs that are outside of the control of our constrained 
local government, and costs that prevent our people from 
resources that could be needed, could be used to further other 
initiatives, such as badly needed energy infrastructure 
projects and climate change initiatives.
    I look forward to continuing to work with the Department to 
ensure that the people of the U.S. territories, and 
particularly American Samoa, are not left behind and are 
allocated the same resources and opportunities as their 
counterparts in the states.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Hardy.
    Mr. Hardy. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here along with your deputies.
    Each year, we hold budget hearings and we hear about the 
massive backlogs. Currently it is at about $19 billion. Yet the 
same time each year the Congress receives a request to spend 
hundreds of millions of dollars on acquisition of new lands, 
which gives me grave concern, especially with the comment that 
I just heard a few minutes ago that we acquire these lands to 
close access to our lands. Those were your words when the 
question was asked.
    Also, it is hard for me to understand and square this 
circle when we need these extra dollars. I understand that we 
have massive bureaucracy that already cannot manage the 
enormous land holdings currently in its possession and asking 
for more money to buy more land gives me concern. Either we 
manage the land we have, or let someone else buy it who can 
take care of it.
    Let's say that the Department of the Interior gets this $20 
billion that it requested in the President's budget. That is an 
11 percent increase. Can the American people expect a minimum 
11 percent decrease in our backlog with that 11 percent better 
management across the board? And especially given the fact that 
the budget requests are funding another 1,100 new full-time 
employees?
    Secretary Jewell. Let me start with the first part of your 
comments. We actually have money in the budget to increase 
access through the Land and Water Conservation Fund. There is 
money in there that would be used for sportsmen's access, for 
conservation easements across private land. There is nothing 
that we do in the Land and Water Conservation Fund to limit 
access.
    Mr. Hardy. Thank you. Mr. Thompson made the statement and 
asked you about why we acquired these lands, and your words 
were, ``It helps us close access.''
    Secretary Jewell. No, I don't believe I said that. I think 
that is incorrect.
    Mr. Hardy. Well, it is on the record.
    Secretary Jewell. Kris was going to answer your other 
question.
    Mr. Hardy. OK.
    Ms. Sarri. Sorry, I just want to be clear. In terms of the 
$18 billion figure, that includes permanent and mandatory 
funding. The fair comparison is the $13.3 million that is in 
discretionary funding, compared to the $13.4 million in 
discretionary last year.
    Mr. Hardy. OK. The answer should be yes, in my opinion. So, 
I want to go to another thing that was just stated here by Mr. 
Polis, from the other side of the aisle. You asked a question 
that said a four-to-one return was on those public lands. Is 
that the case?
    Secretary Jewell. That is a National Park Service number.
    Mr. Hardy. OK. He said public lands, you said Park Service. 
OK. With that, we should not be needing a budget. We should be 
able to handle it yourself, if you are getting that kind of 
return.
    Secretary Jewell. The return goes oftentimes to local 
communities, places like Estes Park in Colorado, like Moab, 
Utah. So it is not a return to the Park Service, it is a return 
to the local communities, largely.
    Mr. Hardy. With your indulgence, Mr. Chair, I really would 
like to ask a question on sage-grouse. The BLM indicates that 
it will focus on revoking the withdrawals that are no longer 
needed. At the time they announced the 10 million acre mineral 
withdrawal, DOI officials went on record as saying the withdraw 
areas do not appear to have highly prospective mining.
    On what information were such statements based, as there is 
abundant USGS and state data indicating otherwise?
    The Chairman. I have been unfair with trying to cut these 
last questions off quickly, so I will give you a chance to 
answer that, if you would like to.
    Secretary Jewell. OK, I will answer very quickly. The 10 
million acres of proposed lands for mineral withdrawals are 10 
million acres that are critical habitat for sage-grouse. There 
are some areas that have mining potential. The vast majority of 
them do not. We are working through this 2-year segregation 
process with states, with mining companies, with counties and 
other interested parties, to identify areas where they believe 
they should not be part of the withdrawal.
    There are active discussions, for example, going on in 
Nevada. We are going to continue to work with states throughout 
this 2-year segregation process.
    The Chairman. OK, thank you.
    Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman.
    Madam Secretary, Secretary Connor, thank you for being here 
today. I will try and move through these quickly.
    First of all, as you know, the Malheur Wildlife Refuge is 
in my district. We appreciate the work of the people who work 
there and at the BLM and I understand what they have been 
through. They are important parts of our community. But I want 
to get to the issue of the monument.
    You and I had a phone conversation about this. I know you 
met with Judge Grasty and Commissioner Reynolds, as well. And 
the Malheur County Commission and judge there have written you 
expressing their opposition to any monument there. I just want 
to reconfirm: there is no effort in your agency, there is no 
coordination with CEQ or the White House that you are aware of 
to do an Owyhee Canyons National Monument?
    Secretary Jewell. The concept of Owyhee Canyons came from 
Keen Footwear. It has been kicking around, it is one of those 
things people have recommended to us. But we have not held any 
community meetings, we have not had any discussions in those 
communities. People have not been actively in my office asking 
about it.
    Mr. Walden. OK, but is there any coordination with the 
White House that you are aware of, or with CEQ, because I would 
assume they would have to come to you.
    Secretary Jewell. Not that I am aware of.
    Mr. Walden. If that does happen, would you be willing to 
let me know and the committee know?
    Secretary Jewell. Yes.
    Mr. Walden. If that process begins.
    Secretary Jewell. Yes.
    Mr. Walden. Because, as you and I have talked in the past, 
there has been dark-of-night from prior administrations that 
have caused you headaches and people I represent real concerns.
    Secretary Jewell. I understand.
    Mr. Walden. I appreciate that. Second, now that the armed 
standoff is over at the refuge, I do hope the BLM will move 
rapidly on complying with Federal law regarding Steens Mountain 
and the fencing issue up there on Steens. I think you talked to 
Judge Grasty about that, as well.
    Secretary Jewell. I did talk about that with Judge Grasty 
and I plan on following up with the BLM.
    Mr. Walden. Perfect, because under the Cooperative 
Management Protection Act, which I helped author, that fencing, 
if it is an issue of doing an EA or an EIS, could cooperatively 
be done on adjacent private land. The landowners are open to 
that to facilitate this compliance with the law. The BLM was 
wrong in this case in their initial analysis and I hope you can 
help correct that.
    On another note, thank you for coming out regarding the 
sage-grouse habitat cooperative collaborative. I am sure you 
will be disappointed to know one of the environmental groups 
has now sued over that. This is kind of the frustration that we 
feel very strongly, as I don't have to tell you in the West, 
when the collaboration does come together and then another 
group sues. It is really, really frustrating to what we are 
trying to do out there. And so, that is an issue, as well.
    I want to commend the Interior Department for finally 
getting done the change in the Wild and Scenic Rivers status on 
Bowman Dam and moving that down. It took far longer than I 
wanted it to take, but I commend you for finally getting that 
done. This is a important movement forward.
    As for law enforcement funding, because this was a Federal 
facility, and because most of the people who were there were 
not from Harney County, let alone from the state of Oregon, I 
do hope the Federal Government will figure out a way to help 
cover some of the local costs. I know you are looking at that. 
I don't know if you have anything to add to any of those 
statements.
    The Chairman. Again, let me give you some flexibility, 
because these are arbitrary time limits.
    Secretary Jewell. Thank you for your comments, and 
particularly for your advocacy of the people of Harney County 
and also for the education we had in my conversation about your 
work on Steens Mountain.
    I don't know about the reimbursement and how the process 
works with the FBI and so on, so that is certainly something 
that we are happy to have a dialogue on. But I don't know what 
the rules are.
    Mr. Walden. And I am with you, but I would be happy to have 
that conversation on this and other matters. And I will be 
meeting with Mr. Bezdek later this week on the Klamath Basin.
    Secretary Jewell. Great. Thank you.
    Mr. Walden. We are out of time to get into that, but I look 
forward to continuing those discussions, as well. Thank you.
    The Chairman. I ask unanimous consent to have Mr. Lujan 
added to our panel, as well.
    [No response.]
    The Chairman. We recognize you. Try to keep it within 3 
minutes and we will see how close we can get it for you.
    Mr. Lujan. Thank you, Mr. Chairman.
    There are three documents that I asked to be given to you, 
Secretary Jewell, I hope that they have been put in front of 
you. There are three documents that have been given to your 
staff right behind you. If you could, please hand them to 
Secretary Jewell. Thank you so much.
    The first document is a right-of-way agreement between San 
Ildefonso Pueblo and Santa Fe County. If you would go to page 5 
of that agreement, Madam Secretary, you can see that it is 
signed and agreed to by San Ildefonso Pueblo Tribal Council on 
this day, June 6, 1989. On page 6 of that agreement, there is 
an amendment. This amendment is to issue rights-of-way to some 
of the county roads.
    I want to read this into the record. ``This document will 
amend the right-of-way agreement between San Ildefonso Pueblo 
and Santa Fe County regarding the easements for improvement 
purposes of the following: the El Ranch Bridge, County Road 
101D, and County Road 84,'' which is critically important, 
County Road 84. ``All rights-of-way are as presented in the 
resolution dated June 6, 1989 and addressed in San Ildefonso's 
resolution SI008, dated June 6, 1989.''
    The purpose of this amendment is to specify the term of 
``rights-of-way.'' ``It is hereby agreed to by all parties that 
the rights-of-way for items one, two, and three,'' item three, 
which I will remind everyone is County Road 84, ``in this 
amendment are granted in perpetuity.'' The way I understand 
perpetuity, that is forever, right? That is perpetuity.
    ``By San Ildefonso Pueblo and the Santa Fe County,'' signed 
by Santa Fe County, signed and dated by the former governor of 
San Ildefonso Pueblo, signed and dated by the Secretary of 
Tribal Council, signed and dated by the county attorney, and 
then it says ``approved by the Bureau of Indian Affairs,'' and 
it is signed and dated. Madam Secretary, that was 1989.
    On December 6, 2013, the BIA wrote a letter to show cause 
to Santa Fe County alleging trespass on County Road 84 and 
Sandy Way. You can see why I am confused. Here is a letter 
accepted by the BIA. Twenty-four years later, a trespass letter 
is issued.
    Then, on January 7, 2014, Santa Fe County responded to the 
BIA. If I could submit all three of those documents into the 
record?

    The Chairman. Without objection, so ordered.

    [The information offered by Mr. Lujan for the record 
follows:]

                         RIGHT OF WAY AGREEMENT

                             BY AND BETWEEN

                SAN ILDEFONSO PUEBLO AND SANTA FE COUNTY

                          Lease No. 8700628999

    THIS AGREEMENT, is entered into by and between the County of Santa 
Fe, a political subdivision of the State of New Mexico, by and through 
its Board of County Commissioners (hereinafter referred to as ``the 
County''), and the Pueblo of San Ildefonso, a federally recognized 
Indian tribe, by and through its Governor and Tribal Council 
(hereinafter referred to as ``the Pueblo'')

    WHEREAS:

    ARTICLE 1. The Pueblo owns, subject to federal restrictions, a 
tract of land situated within the geographical boundaries of the 
County, known as the San Ildefonso Pueblo Grant. The Pueblo has 
ownership rights and governmental jurisdiction over and within such 
lands, defined and protected by Federal law;

    ARTICLE 2. The County wishes to replace a bridge on County Road 
101-D within The Pueblo Grant; (Exhibit A)

    ARTICLE 3. The County wishes to pave a portion of County Road 84 
(Exhibit B). The County also wishes to develop plans for the paving of 
County Road 101-D from its intersection with County Road 84 to its 
intersection with County Road 84C. All projects in articles two (2) and 
three (3) are described in Exhibits C-1, C-2, and C-3;

    NOW THEREFORE, The parties agree as follows:

A. For all right-of-way and temporary construction easements needed to 
complete the projects referred to in Articles 2 and 3 the County will:

   1.   Install a gate at the end of County Road 84B which leads into 
            the Pueblo. This gate will be part of the construction 
            project on County Road 84. This gate will be closed during 
            Pueblo ceremonies and festivities at the discretion and 
            direction of the Pueblo.

   2.   The County will sponsor the Pueblo with the New Mexico 
            Department of Energy and Minerals, Land and Water 
            Conservation Division in a cooperative effort to obtain 
            lights for the baseball field. Sponsorship shall include 
            application for funding.

   3.   The County will clean up illegal dump sites on Pueblo Land and 
            bury the trash on Pueblo Land.

   4.   The County will hire one summer youth to be employed at the 
            Pueblo's Visitor Center. The youth will be hired at minimum 
            wage for eight (8) to ten (10) weeks during 1989.

   5.   The County will pay the Pueblo $20,000.00.

   6.   The County will install four (4) lights at the entrance roads 
            into the Pueblo at their intersection with State Road 502. 
            The installation of the lights will be part of the County 
            Road 84 Paving Project. Once installed the operation and 
            maintenance for the lights will be provided by the County.

   7.   The County will give a high priority to funding requests from 
            the Pueblo for advertising monies from Lodger's Tax 
            Revenues specifically earmarked for such purposes. This 
            agreement does not create any obligation for any payment 
            out of property tax revenue.

   8.   The County will give to the Pueblo title to and possession of a 
            1969 Ford Van currently in the County's possession.

   9.   The County will give to the Pueblo title to and possession of a 
            new 1989 Chevrolet 3/4 ton 4X4 Pick-up truck. The vehicle 
            will be purchased by the County and the County shall obtain 
            the approval of the State Board of Finance and deliver the 
            vehicle to the Pueblo upon the notice of approval from the 
            State Board of Finance.

  10.   The County will, on an annual basis and in co-operation with 
            the Pueblo, clean up any illegal dumping that has taken 
            place on Pueblo lands. The time of the annual clean up will 
            be decided upon by mutual agreement between the parties. 
            Additional ``clean-ups'' of illegal dumping on Pueblo Lands 
            shall also be mutually agreed upon by the parties.
B. Right-of-way for the bridge project on County Road 101-D is shown in 
Exhibit A.

  1.  The Pueblo consents to the Grant by the Secretary of the Interior 
            to the County of a right-of-way for the construction of a 
            bridge across the Rio Pojoaque and public highway, together 
            with approaches, abutments, temporary construction 
            easements and construction maintenance easements.

  2.  The right-of-way, as shown by Exhibit A, shall extend from a 
            tract of non-Indian land in the vicinity of the El Rancho 
            Bar to a tract of non-Indian land approximately one hundred 
            eighty two and eighty one-hundreds (182.81) feet north of 
            the bridge.

  3.  The right-of-way shall be sixty (60) feet in width, the roadway 
            shall be thirty (30) feet in width but the bridge structure 
            shall not be less than twenty-five (25) feet in width.

C. Improvements to existing development. The alignments will 
necessarily follow the existing roadways adjusted to meet minimum 
Highway Department standards.

  1.  Construction Plans have been developed for the County Road 84 
            Project and will be supplied to the Pueblo.

  2.  As of the date of execution of this agreement, plans for the 
            paving of County Road 101-D have not been developed. While 
            plans are in design, the Pueblo will be informed and shall 
            have the right of review and approval of said plans.

D. The County agrees to indemnify and hold harmless the Pueblo from 
property damage and personal injury caused by the acts or omissions of 
the County and/or its employees, agents or representatives.

    Agreed to by action of the Santa Fe County Board of County 
Commissioners this 12 day of May 1989.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                             AMENDMENT

    This document will amend the right-of-way agreement between San 
Ildefonso Pueblo and Santa Fe County regarding the easements for 
improvement purposes of the following:

  1.  The ``El Rancho Bridge''.

  2.  County Road 101-D.

  3.  County Road 84.

    All rights-of-way are as presented in the agreement dated June 6, 
1989 and addressed in San Ildefonso's Resolution # SI-008 dated June 6, 
1989.

    The purpose of this amendment is to specify the term of the rights-
of-way.

    It is hereby agreed to by all parties that the rights-of-way for 
items 1, 2 and 3 in this amendment are granted in perpetuity by San 
Ildefonso Pueblo to Santa Fe County.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT 

				EXHIBIT C-1

BRIDGE PROJECT

    The new bridge will be replacing the existing one-lane wooden 
structure. The bridge is located on County Road 101-D. The present 
bridge is 200 feet long + or  09. The new structure will be 185 feet 
long with approximately the same channel width but with steeper 
abutment slopes. Pre-stressed concrete beams will form the base for the 
poured (concrete) deck. The deck will have two fourteen (14) foot drive 
lanes , a four (4) foot sidewalk and guardrails. The approaches will be 
base coursed and paved. A typical section is attached. A temporary 
detour will be used during construction. The detour will be located 
within the construction boundaries.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                             EXHIBIT C-2

COUNTY ROAD 84 PAVING PROJECT

    As shown on Exhibit B the alignment of the existing roadway will be 
followed. The road will be bladed and shaped. Base course will be 
installed to a depth of four (4 ) inches. A minimum of two and 5 tenths 
(2.5) inches of hot mix paving shall then be installed. The width of 
the paving will vary from nineteen (19) feet to approximately twenty 
four (24) feet. Drainage will be handled with culverts and low water 
crossings where appropriate. The termination of the project spans two 
and two tenths (2.2) miles and is the prioritized length. The County's 
goal is to pave the entire two and two tenth (2.2) miles if funds 
allow.

    A typical section is attached.

                            typical section

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                            EXHIBIT C-3

COUNTY ROAD 101-D PAVING PROJECT

    The County will be receiving funds for this project, however until 
monies are in place plans will not be developed. When the money is 
available the design will follow the existing roadway adjusted to meet 
minimum Highway Department standards.
    The existing alignment will be bladed and shaped (sub-grade 
preparation). Base course will be installed. The depth to be based on 
soils test results. Paving will be a minimum of two and five tenth 
(2.5) inches, again based on test results. Width will be approximately 
twenty (20) to twenty four (24) feet. Culverts and/or low water 
crossings will be used for drainage purposes.

    A typical section is attached.

                            typical section

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                      ENVIRONMENTAL STATEMENT

    This statement will address the proposed bridge project on County 
Road 101-D and the proposed paving projects on County Roads 101-D and 
84.

    The bridge project will entail the replacement of an existing 
bridge. The land area involved will be essentially the same for the new 
structure as for the old structure. The project is compatible within 
the parameters of the present use.

    The road projects will entail the paving of existing dirt roads 
already being used by the public. The improvements will be limited to 
existing alignments adjusted to meet minimum Highway design standards.

    <bullet> None of the projects will require relocation and/ or 
            displacements.

    <bullet> All of the projects will improve the public safety.

    <bullet> The road projects, and to some degree the bridge project, 
            will improve the air quality by significantly reducing the 
            present dust pollution.

    <bullet> Water quality and supply will not be affected.

    <bullet> There will be no increase in energy consumption.

    <bullet> The projects are in compliance with applicable laws and 
            regulations.

    <bullet> An EIS is not required.

    Our research and planning of the projects indicate that a finding 
of no significant impact (FONSI) can be made. The projects will not 
adversely affect the quality of the human environment.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                          AMENDMENT NO. 1

    This document will amend the right-of-way agreement between San 
Ildefonso Pueblo and Santa Fe County regarding the easements for 
improvement purposes of the following:

  1.  The ``El Rancho Bridge''.

  2.  County Road 101-D.

  3.  County Road 84.

    All rights-of-way are as presented in the agreement dated June 6, 
1989 and addressed in San Ildefonso's Resolution # SI-008 dated June 6, 
1989.

    The purpose of this amendment is to specify the term of the rights-
of-way.

    It is hereby agreed to by all parties that the rights-of-way for 
items 1, 2 and 3 in this amendment are granted in perpetuity by San 
Ildefonso Pueblo to Santa Fe County.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                           CERTIFIED MAIL

                          NOTICE TO SHOW CAUSE

                                                   December 6, 2013

Ms. Katherine Miller
County Manager, Santa Fe County
102 Grant Avenue
Santa Fe, New Mexico 87501-2061

    Dear Ms. Miller:

    We are formally informing you and the County of Santa Fe 
(``County'') of the issue of trespass by the County on tribal lands of 
the Pueblo of San Ildefonso (``Pueblo''). Upon notification by the 
Pueblo and a review of our documents, we have determined that the 
County is in trespass on Pueblo land. This Notice provides the County 
information concerning the instances of trespass and notifies the 
County that it must show cause why the County should not be immediately 
assessed trespass damages and why the County should not be evicted from 
the subject Pueblo lands.
TRESPASS
    The County of Santa Fe is in violation of the federal requirements 
in the use of Indian trust land. County Road 84 and side roads 84A, 
84B, 84C, 84D and Sandy Way (see attached map and photo) are in 
trespass. No record exists to the fact that the County has an easement 
or rights-of-way in our files nor is there any record that the County 
has submitted an application for an easement or Rights-of-Way.
County Roads in Trespass:

County Road--84

  *Township 19 North, Range 8 East, NMPM within Sections 17, 8, 9 and 
10

        From the intersection of Povi Kaa Drive (main entrance to the 
        Pueblo of San Ildefonso from Hwy. 502) east to the intersection 
        of 101-D.

County Road--84A

  *Township 19 North, Range 8 East, NMPM within Section 10

        From the intersection with Evergreen Lane east to the 
        reservation boundary line.

County Road--84B

  *Township 19 North, Range 8 East, NMPM within Sections 8 and 9

        From the end of the pavement east of the Pueblo, east to the 
        intersection with County Road 84.

County Road--84C

  *Township 19 North, Range 8 East, NMPM within Sections 5, 4, 3, 10, 
and 11

        From the intersection with Tunyo Po east to the reservation 
        boundary line.

Country Road--84D

  *Township 19 North, Range 8 East, NMPM within Sections 10 and 11

        From the intersection with Sandy Way east to the reservation 
        boundary line.

Sandy Way

  *Township 19 North, Range 8 East, NMPM within Sections 9 and 10

        From the intersection with 84D west to the private claim.

*Espanala Quadrangle, New Mexico--7.5 Minute Series (Topographic)
CONCLUSION
    The County is in direct violation of the federal requirements 
governing the use of Indian trust lands. Specifically:

        No easement or Rights-of-way exist for County Road 84 and the 
        side roads on tribal trust land of the Pueblo of San Ildefonso, 
        thus, the County is in trespass.

    You are hereby informed that the County has thirty (30) business 
days from receipt of this letter to either enter into good faith 
negotiations to settle the current trespass and enter into a new 
easement for rights-of-way, or to show cause why the County's failure 
to pursue valid easements for the county roads should not be turned 
over to the U.S. Department of Justice for action against the County.
    We encourage the County to enter into negotiations with the Pueblo 
to resolve the current trespass as quickly as possible and establish 
legal bases for the County's continued use of Pueblo land.
    If you should have any questions or require additional information, 
contact my office at (505) 753-1400 or Norman Jojola, Natural Resource 
Manager at (505) 753-1451.

            Sincerely,

            [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                           
                                           
                                           Raymond Fry,
                                                    Superintendent.
Enclosures
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                                                

                                               January 7, 2014

Raymond Fry, Superintendent
United States Department of the Interior
Bureau of Indian Affairs
Northern Pueblos Agency
P.O. Box 4269--Fairview Station
Espanola, New Mexico 87533

Re: Notice to Show Cause Dated December 6, 2013

    Dear Mr. Fry:

    Your letter of December 6, 2013 has been forwarded to this office 
for response. The letter demands that Santa Fe County, New Mexico show 
cause why it ``. . . should not be immediately assessed trespass 
damages and . . . should not be evicted from the subject Pueblo 
lands.'' The ``subject Pueblo lands'' consist of County Roads numbered 
84, 84-A, 84-B, 84-C, 84-D and Sandy Way. The letter further states 
that the Bureau of Indian Affairs has ``determined'' that the County is 
in fact trespassing on San Ildefonso lands.
    Santa Fe County believes the assertions in the December 6 letter to 
be a serious overreaching on the part of the Bureau of Indian Affairs 
and request it be withdrawn immediately. This is far from a 
constructive way to renew the debate about County lands and access to 
non-Indian property within the Pueblos. It comes at a time when the 
County had already initiated discussions with all four Pueblos on this 
very issue. It also has the potential to shift what has been a positive 
and responsible discussion of the issues to a negative adversarial 
situation.
    The most obvious problem is that the Bureau of Indian Affairs lacks 
any authority (statutory or regulatory) to require the County to ``show 
cause'' in this or any instance. An order to show cause is not 
authorized by statute. It is authorized by regulations of the Bureau 
only as specified in 25 C.F.R. Sec. 141.56 (show cause order authorized 
to enforce compliance with business practices specified in the 
regulation on the Navajo, Hopi and Zuni reservation); and 25 C.F.R. 
Sec. 162.006 (show cause order authorized for violations of leases and 
permits). Aside from these meager regulatory examples, nothing further 
exists. In fact, 25 C.F.R. Sec. 162.006(b)(1) explicitly states that it 
does not apply to right of way issues, which this is. Nor is there 
authority in the Code of Federal Regulations for the ``declaration'' of 
trespass. 25 C.F.R. Sec. 161.700 et seq. authorizes a declaration of 
trespass on Navajo Partitioned Lands, but not on lands of the Northern 
Pueblos.
    The letter also failed to undertake even the most basic and 
rudimentary research concerning the underlying sweeping findings of 
trespass. For example, nowhere in the letter does the Bureau mention 
that Santa Fe County has maintained many of the ``subject Pueblo 
lands'' in many cases for a period in excess of one hundred years. 
Nowhere in the letter are the activities of the Pueblo Claims Board and 
the Federal Courts in the 1920s and 1930s discussed with respect to the 
roads in question or the adjoining property. Also not mentioned or 
analyzed in any way, even cursorily, is the fact that hundreds of non-
Pueblo residents live on the roads in question and the import of the 
``determination'' by BIA is to deprive those persons of access to their 
homes and businesses, title to which is derived from proceedings of the 
Pueblo Claims Board and the Federal Courts. Also not discussed or 
analyzed are the many discussions between Santa Fe County and the 
Pueblo of San Ildefonso going back decades on these various issues.
    But paramount among the failures of the Bureau to properly analyze 
this situation is the fact, discussed below, that an agreement with San 
Ildefonso Pueblo explicitly grants the County a right-of-way on all of 
the roads in question.
    The agreement referred to in the previous paragraph is the ``Right 
of Way Agreement by and Between San Ildefonso Pueblo and Santa Fe 
County.'' A copy is attached. That agreement, dated June 7, 1989, 
amended once on August 1, 1989, was developed to address the immediate 
need to construct a bridge on County Road 101-D and to pave certain 
County Roads within the Pueblo grant, including County Road 84 and 101-
D. The agreement was supported by substantial consideration, which is 
recited in the agreement. The original agreement provided rights-of-way 
for the bridge project, and the amendment granted perpetual rights-of-
way for the bridge, County Road 101-D and ``County Road 84.'' Both the 
agreement and its amendment were signed by the Governor of the San 
Ildefonso Pueblo, a representative of the Tribal Council, and a 
representative of the Northern Pueblos Agency of the BIA. If you 
assume, as the County does, that the grant of right of way for CR-84 
includes all of its respective subparts (84-A, 84-B, 84-C and 84-D), to 
the extent those roads pass through San Ildefonso lands (see below), 
the grant expressly permits the County's activities and no 
``determination'' of trespass is legally sustainable. As 25 C.F.R. 
Sec. 169.28 (``Public highways'') permits state or local authorities to 
apply to ``open public highways across tribal and individually owned 
lands in accordance with State laws, as authorized by the Act of March 
3, 1901 . . .'' (see also 25 U.S.C. Sec. 311 (1901)), the Right of Way 
Agreement is very clearly an exercise of the authority granted to the 
BIA and the Tribe by 25 U.S.C. Sec. 311 and 25 C.F.R. Sec. 169.28.
    Unlike the Bureau, the County has thoroughly researched its rights-
of-way within all of the Five Northern Pueblos, and commissioned an 
extensive analysis from Dr. Stanley Hordes, supported by a team of 
expert and well-qualified historians and researchers. The resulting 
report was provided to the San Ildefonso Pueblo many years ago. We have 
had brief discussions about the report with the Pueblo from time to 
time, but those discussions did not mature into serious discussions 
until Governor Aguilar initiated further discussions last year, and 
indicated he wanted to resolve the issue once and for all. We discussed 
the Governor's desire to close certain roads which had been created by 
the public, and the need for the County to acquire formal easements 
rather than rely on the previously-mentioned agreement. And we 
discussed with Governor Aguilar the County's concern that local 
residents have legal access, and the right to receive gas electric, 
water and other utilities through the County roads. We believe that 
through concentrated efforts and dedication on the part of both 
governments on this issue, both governments would ultimately benefit. 
Of overriding concern with respect to the Bureau's sweeping conclusions 
and directive here is the fact that the Pueblo Lands Act of 1924, in 
authorizing the activities of the Pueblo Claims Board and the Federal 
Court, failed to expressly provide a process for adjudication of non-
private, i.e. public land, or the issue of access to and from the many 
private claims and exception lots that were adjudicated by the PCB and 
the Federal Court. This failure is a failure of Congress, and the 
ambiguity about these important matters continues, but it is certainly 
not something that is susceptible of a ``declaration'' by the Bureau. 
The Bureau's declaration is tantamount to a determination that many 
thousands of non-Pueblo residents in the Pojoaque no longer have legal 
access to their homes and businesses--rendering those homes and 
businesses worthless--and which was something that the Pueblo Lands Act 
was intended to avoid.

    Dr. Hordes' discussion of the PCB and its work is helpful to 
understanding the present status of the County maintained roads in 
question:

        ``As stated above, in 1924, Congress passed the Pueblo Lands 
        Act in an attempt to clear up title issues resulting from 
        overlapping claims between Pueblos and non-Indians living in 
        close proximity to Pueblo lands. The Act established the Pueblo 
        Lands Board (PLB), which gathered testimony and issued reports 
        based on its investigations. The PLB confirmed to the Pueblos 
        all the lands within each of their grants, with the exception 
        of portions of tracts of land that were patented to non-Indian 
        settlers, as well as rights of way for utilities, railroads, 
        and roads. The claims of the non-Indians were only partially 
        honored by the PLB. In many cases, while the tracts claimed by 
        the non-Indians included grazing areas located above their 
        cultivated lands, houses and barns, extending to the hills, the 
        PLB recognized only the cultivated lands and improvements, 
        eliminating over half of the acreage claimed by the non-Indian 
        settlers. This was to have a particularly significant impact on 
        one of the roads passing through the boundaries of the Pueblo 
        of San Ildefonso . . .

        ``During its proceedings for all the Pueblos, the PLB used 
        discrete numbers that had been assigned to each of the private 
        (non-Indian) claims, based on a survey that had been conducted 
        in 1914 by U.S. Surveyor F.E. Joy (commonly known as the Joy 
        Survey). These ``private claim'' (PC) numbers provided the 
        order by which the PLB conducted its hearings and heard 
        testimony of local residents, Pueblo and non-Indian alike. The 
        site-specific information that these hearings generated 
        provides historians with the ability to derive valuable 
        observations with regard to the status of the lands in dispute, 
        and more important, the nature and ownership of the roads that 
        pass through these lands.

        ``The records of the PLB proceedings vary slightly from Pueblo 
        to Pueblo in the late 1920s and early 1930s, but typically they 
        begin with a cover sheet indicating the PC number and the name 
        of the claimant, followed by a summary of the ownership of the 
        tract, often extending back to the late nineteenth century, and 
        sometimes a century and a half earlier. Typically these 
        abstracts will contain detailed descriptions of the boundaries, 
        sometimes referencing the existence of a camino real, public 
        road, state road, or county road. In the case of most of the 
        five Pueblos under consideration in this report, there followed 
        a detailed plat of the tract, indicating dimensions, placement 
        of structures, and often an indication of the existence of 
        public roads bordering the property. Next in the file is a 
        transcript of the hearings held by the PLB, where owners of the 
        tract, family members, neighbors, and representatives of the 
        adjacent Pueblo offered detailed testimony with regard to 
        boundaries, land use and roads running by or through the 
        property. For each of the Pueblos, the PLB prepared large 
        comprehensive plats, showing the locations of each PC, as well 
        as the course of the roads that passed through Pueblo and non-
        Indian properties.

        ``After the PLB considered the evidence before them, they 
        issued a series of reports including the validity of claims to 
        land asserted by the Pueblos and the non-Indians, the valuation 
        of the lands, and, in some cases the status of the roads that 
        were located within the Pueblo grant lands. Some months later 
        the U.S. Court of Equity issued rulings confirming or revising 
        the PLB's decision, and sometimes contained additional 
        information with regard to the ownership of these roads.''

    Dr. Hordes' report contains a detailed history of County Road 84, 
over which you assert the County has ``trespassed,'' and which casts 
significant doubt on your ultimate conclusion. For example:

        ``1. CR 84:

        ``County Road 84, approximates the course of the road that has 
        connected the communities of Pojoaque and San Ildefonso for 
        centuries. Beginning in the 1890s Santa Fe County authorities 
        began to assert responsibility for maintaining this 
        thoroughfare, which runs through the grant lands of both 
        Pojoaque and San Ildefonso Pueblos. In response to petitions 
        from local residents, the BCC in 1892 instructed the county 
        road overseer to ``put in good condition the public road known 
        as the road from Jacona to San Ildefonso on the south side of 
        the river as soon as possible. . . .'' A 1913 map shows a 
        ``wagon road'' running near the same route as today's CR 84 and 
        84B. Six years later, the BCC again responded to the request of 
        local residents, and resolved to investigate the possibility of 
        constructing a new road between San Ildefonso and Pojoaque, 
        ``so that it may be made in such condition that it may be used 
        for the public, and for the regular mail route from the above 
        towns to Santa Fe.'' Apparently no action was taken 
        immediately, since the journals of the BCC did not reflect any 
        such implementation.

        ``In 1925, however, the State Highway Engineer revived these 
        plans in a preliminary letter to the Northern Pueblos Agency. 
        The Engineer articulated the antiquity of the highway, 
        indicating that ``the road now in existence and being traveled 
        through the Pueblo of San Ildefonso on the east side of the Rio 
        Grande is the old original trail which has been in use for an 
        indefinite period.'' He acknowledged that the 1919 plans still 
        remained unfulfilled, stating that ``[w]hile this route was 
        made a part of the State Highway System by act of the State 
        Legislature in 1923, it has not yet been improved by the State 
        Highway Department.'' Thus, the State Highway Engineer not only 
        linked CR 84 to the old camino real, but asserted that it was 
        now an official part of the state network of highways.

        ``The PLB's Report No. 1, as cited above, exempted certain 
        roads from Pueblo ownership, including FAP No. 14-B, the 
        highway that ``extends in a westerly direction to and across 
        what is known as the Jacona Grant and to and across the west 
        boundary of the said Pojoaque Grant, and is known as State 
        Highway Project No. 4,'' clearly referring to today's CR 84. 
        The Report acknowledges the absence of a formal right of way 
        from the Pueblo of Pojoaque, but cites the fact that the roads 
        or highways through said grant have been in use by the public 
        for more than 50 years, and the Board has determined, and 
        hereby determines, that the Territory and State have acquired 
        by such use an easement in and over said lands, subject only to 
        a reverter to the Pueblo, whenever said land shall no longer be 
        used by the public or the State as a highway, or shall be 
        abandoned for a new location across said grant.

        ``Over the next seventy years the documentary record reflects 
        consistent acknowledgment of ownership and/or maintenance of 
        the road by state or county authorities. In 1947 the BCC 
        responded to a request from one of its constituents that ``the 
        road [from Pojoaque to San Ildefonso] belongs to the State and 
        should be taken care of by the State.'' The following year the 
        BCC asserted that the road was in bad repair, and they would 
        refuse to take it over as a county road unless proper repairs 
        were made. By 1966 it appears that the County had assumed 
        control of the road, as that year the BCC reported abandonment 
        of a small segment of then State Road 4 adjacent to Pojoaque 
        High School, no longer needed for road purposes. The land was 
        deeded to the Board of Education. BCC minutes from 1988 to 2000 
        reflected action by County officials relating to paving and 
        repairs to CR 84.''

    Note that italicized language that recites that the Pueblo Claims 
Board, assigned to address conflicting claims with the Northern Pueblo 
boundaries, explicitly determined with respect to County Road 84 that: 
``. . . the Territory and State have acquired by such use an easement 
in and over said lands, subject only to a reverter to the Pueblo, 
whenever said land shall no longer be used by the public or the State 
as a highway, or shall be abandoned for a new location across said 
grant.''

    The County has always been interested in reaching a more permanent 
solution to the claims of the San Ildefonso Pueblo concerning these 
roads. We are aware that this matter, even though the subject of 
express right-of-way agreement, is still unsettled in the view of the 
San Ildefonso Pueblo. The present uncertainty is made even more complex 
by the Aamodt settlement, in which the Pueblo has agreed to provide 
rights-of-ways for the public water system and an accompanying 
wastewater system. These matters are best the subject of a negotiated 
resolution by the County and the Pueblo, without intervention by the 
Bureau of Indian Affairs. Certainly, the Bureau's finding of a trespass 
and the ultra vires declaration of a responsibility of the County to 
``show cause'' are completely unhelpful to a resolution of these 
issues, which have persisted for 80 or more years.

    Please withdraw the letter immediately, or consider this to be an 
appeal of the determination pursuant to 25 C.F.R. Part 2.

            Sincerely,

                                          Katherine Miller,
                                                    County Manager.

                                           Stephen C. Ross,
                                                   County Attorney.

                                 ______
                                 

    Mr. Lujan. Madam Secretary, the reason I am here before you 
is for the last 2 years I have been trying to work with the 
Bureau of Indian Affairs to bring some resolution, some 
assistance, some help, some recognition. I have not been 
getting anything except for what appears to be a bit of a 
stonewall.
    There is a letter dated April 16, 2014, where the BIA wrote 
back to my office, quoting part of the letter from Santa Fe 
County, which I highlighted on the second-to-last page, stating 
that the county has always been interested in reaching a more 
permanent solution to the claims of San Ildefonso Pueblo 
concerning these roads. We are aware of this matter. But the 
BIA asserted that that is ambiguity.
    We need to get to the bottom of what these easement 
agreements are. When I have been asking for a criteria or a 
process by the BIA on what they do to issue trespass letters, a 
database that is reviewed, documents and agreements that are 
stamped as approved by the BIA to be looked at and considered, 
and these ambiguities are created.
    What is happening now is in 1924 there was something called 
the Pueblo Lands Act that the Congress adopted. And in 1930, 
all the adjudicated lands were cleared up with land disputes in 
this area. Patents were issued by the United States of America, 
which, is my understanding, the clearest title that you could 
have in the United States. But now there is a dispute with some 
of these roads.
    Subsequent to that, these agreements have been put in 
place. I need your help now, because the lands that are owned 
by the non-tribal residents in this case in the exterior 
boundaries of San Ildefonso, they are trying to sell their land 
or build homes on their land, third, fourth, fifth generations, 
whatever they may be. The title insurance companies are saying 
that this letter from the BIA dated December 2013 is stopping 
all of that.
    So I bring all of this to your attention with a little bit 
of passion, Madam Secretary, because this community needs our 
help and I am concerned what is going to happen there.
    Thanks again for the indulgence, Mr. Chairman. I look 
forward to working with you and your team to bring resolution 
here, and hopefully reversing that 2013 letter in light of the 
amendment on that agreement. Thank you, Mr. Chairman.
    The Chairman. Do you want 15 seconds to respond?
    Secretary Jewell. Well, I will just say this is the first I 
have heard of it. My door and my phones are always open, as you 
have concerns. You don't feel like you have to come to a budget 
hearing for that. But we are happy to look into it.
    The Chairman. Mr. Denham, we are way over time. You have 
not had a chance to ask any questions. Can you do it in a 
couple of minutes?
    Mr. Denham. I will do my best, sir.
    The Chairman. OK.
    Mr. Denham. Secretary Jewell, there are a number of social 
justice issues in California's Central Valley areas that will 
once again have a zero water allocation, have a 30 to 50 
percent unemployment in a number of different cities, water 
that is going to be trucked in once again, mobile showers, food 
lines. The social justice issues go on and on in California and 
Central Valley. But there is one question in particular that I 
want to have you address.
    Three weeks ago, this committee heard about the non-native 
fish in the Stanislaus River, in the Delta, and elsewhere, that 
are killing and eating up to 98 percent of the threatened 
endangered species that we are spending so much money and so 
much water on trying to save.
    The big conflict has been perpetuated by the Central Valley 
Project Improvement Act, which is CVPIA. It has a fish doubling 
goal. So not only are we trying to double the goal of trying to 
double the endangered and threatened species, but also the goal 
is to double the non-native fish that are eating 98 percent of 
what we are trying to save, and the main reason that we are 
pushing all of this water out to the ocean, bypassing the 
Central Valley, and creating these big social justice issues.
    So, my question is very simple. I have a bill that 
eliminates this Federal fish doubling goal for the striped 
bass, and I would just ask you simply: Would you agree with 
addressing the endangered and threatened species, rather than 
having a conflicting goal that causes a greater imbalance?
    Secretary Jewell. I am going to ask Mike Connor to answer.
    Mr. Connor. Congressman Denham, thank you for raising the 
issue. There have been many legislative proposals. I think this 
is one that has been a constant theme of what to do about 
striped bass. So we are happy to take a look at your 
legislation.
    I believe the CVPIA provisions have been essentially 
stayed, because they are supposed to be implemented in 
partnership with the state of California and there has been no 
action on them. But there have been provisions for a 
demonstration project to reduce the predation by striped bass. 
Your provision to undo that provision within the CVPIA, we are 
happy to look at those legislative authorizations.
    Mr. Denham. Thank you. We certainly have an amendment in 
both the House and Senate bills that deal with predation on the 
Stanislaus River, but this is obviously a much bigger issue and 
the doubling goal in CVPIA needs to be addressed. So, I would 
ask you to give me a written response, once you get an 
opportunity to look at that legislation.
    But I will say in front of this committee, we have had 
several people testify that have said predation is one of the 
key reasons that we have already pushed 500,000 acre-feet out 
to the ocean in the last 2 months. We would look forward to 
working with you on that and look forward to a rapid response.
    The Chairman. Thank you.
    Mr. LaMalfa, if you can do it in 1 minute, you get the last 
question.
    Mr. LaMalfa. Thank you, sir. I appreciate it.
    Ms. Jewell, again, the Portland hearing right now, which 
required non-disclosure forms to be signed, same as in 
Sacramento, so far the highlights are that they have formed a 
Klamath River removal corporation, a 501(c)(3), and that they 
are going to call the dam removal disconnecting them rather 
than decommissioning them. Those are highlights from Portland 
so far.
    Were you aware, Madam Secretary, that non-disclosure forms 
are required to be signed to participate in the Sacramento and 
Portland hearing?
    Mr. Connor. Yes, I was made aware of that after the 
original hearing.
    Mr. LaMalfa. Do you think it is appropriate for government 
employees and even my office to be subject to that, when it 
would seem like a public process with millions of taxpayer 
dollars involved?
    Mr. Connor. With respect to those meetings, the process is 
being carried out under the Klamath Hydropower Settlement 
Agreement amongst the parties. It was the parties themselves 
who, I believe, were seeking non-disclosure.
    Mr. LaMalfa. Mr. Chairman, the Federal Government is a 
partner in this thing because they are deep into it, they are 
going to be seeking Federal funding.
    For the record, sir, I want you to know that I will be 
submitting a Freedom of Information request to your office, 
Secretary Jewell, for all these documents related to the 
Portland meeting today, the Sacramento meeting last week, and 
anything else that comes on line. So, I really appreciate a 
rapid response on that.
    With all these secret meetings, a front company being 
formed, and no end being discussed on how the water supply 
issues for the people in the Basin, this is really a jam job on 
my district.
    Sorry about that, but this is tough business. And I yield 
back. Thank you, sir.
    The Chairman. Thank you. I also have a request that we came 
in there on a Department law enforcement database and your 
staff said you could get our answers soon. I hope that could be 
done this week, as well.
    Ms. Jewell, I really do apologize for keeping you this 
long. You do realize the only other person that stayed the 
entire time is me. So we have to quit meeting like this. But I 
do appreciate you coming here with the answers.
    There may be some additional questions Members have. Under 
our rules we have 10 business days to accommodate those.
    With that, unless there is anything else, with our deep 
consideration, I want to sincerely thank you for actually 
staying here and especially staying the extra half-hour, which 
was above and beyond the call that was supposed to be here. So, 
thank you very much for doing that. I apologize we kept you 
this long.

    With that, the committee is adjourned.

    [Whereupon, at 1:07 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
